<html>
<title> - THE PRESIDENT'S FY 2001 INTERNATIONAL AFFAIRS BUDGET REQUEST</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




      THE PRESIDENT'S FY 2001 INTERNATIONAL AFFAIRS BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 16, 2000

                               __________

                           Serial No. 106-177

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
71-859 DTP                  WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana              [VACANCY]
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
               Kristen Gilley, Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Madeleine K. Albright, Secretary, U.S. Department 
  of State.......................................................     6

                   MATERIAL SUBMITTED FOR THE RECORD

Response by the Department of State to a question posted by Rep. 
  Burton concerning the firing of Linda Shenwick.................    19

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from the State of New York, and Chairman, Committee on 
  International Relations........................................    51
The Honorable George Radanovich, a Representative in Congress 
  from the State of California...................................    54
The Honorable Madeleine K. Albright..............................    55

Responses by the Department of State to additional questions 
  submitted by:

The Honorable Doug Bereuter......................................    88
The Honorable Matt Salmon........................................    89
The Honorable Kevin Brady........................................    90
The Honorable Dan Burton.........................................    91
The Honorable Joseph Crowley.....................................   109
The Honorable George Radonovich..................................   111
The Honorable Steve Rothman......................................   112

 
      THE PRESIDENT'S FY 2001 INTERNATIONAL AFFAIRS BUDGET REQUEST

                              ----------                              


                          DAY, MONTH 00, 2000

                  House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10 a.m., in Room 
2154, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order. Madam 
Secretary, we thank you for your appearance before our 
Committee. We may be called for a general vote, but we will 
continue right on because we know your time is limited and our 
Committee's time is limited.
    We thank you for your willingness to come and review the 
budget with us today. We believe it is vitally important for 
our State Department to engage the Congress, and particularly 
our International Relations Committee, in a vigorous dialogue 
on foreign policy challenges that face our nation.
    The Administration has been playing an important role in 
the Arab-Israeli peace process, as well as in discussions in 
the north of Ireland and we commend your efforts in those two 
areas, Madam Secretary. And you have been doing an outstanding 
job trying to keep things together.
    I understand you will be traveling to Croatia and Albania 
at the end of this week. And we wish you godspeed in your 
mission to that difficult region.
    Before turning to the subject of today's hearing, the 
President's Fiscal Year 2001 Budget Request, I would like to 
say a few words about Libya and the trial of the two suspects 
of the bombing of PanAm Flight 103. We have received your 
letter of February 8th in which you assure us that there are no 
external negotiated limits to the authority of the Scottish 
prosecutors in the trial regarding the lines of inquiry they 
can pursue. That is welcome news and we hope you will soon be 
able to share Secretary General Koffi Anon's letter to Momar 
Ghadafi with the families of the PanAm 103 victims which I had 
previously suggested to you in my earlier letter.
    With regard to the budget, Madam Secretary, I intend to 
support funding at approximately the level you have requested 
and I think most of our Members will probably agree to that. 
However, we do disagree with some of your priorities, for 
example, we passed and the President signed the Foreign Affairs 
Authorization Bill that provides for about $200 million more 
per year for security than you have requested.
    I think that is a vote on a resolution on the House Floor 
on adopting the record. We will continue the hearing and I am 
asking some of our Members if they would go on over early and 
then we will come back and continue right through with our 
testimony.
    We will be urging the Budget Committee and the 
appropriators to make room for a security amount and that they 
find offsetting cuts in accounts such as peacekeeping.
    I would like at this comment on some specific problem areas 
around the world. With regard to Russia, it is certain that 
Russia has been violating its commitments to the Organization 
on Security and Cooperation in Europe, its obligations under 
its own constitution and in all likelihood, the rules of war. 
The response to the Russian atrocities by the Administration 
has not been as strong as we would like.
    There are some things we feel we could do ranging from the 
cutting off of IMF loans to the Russian government and taking 
this issue up in a decisive, strong manner in an international 
forum such as the U.N. But, we are not even doing that. We 
welcome your thoughts with regard to that. I understand you 
recently have come back from a visit to Russia and we certainly 
welcome your thinking.
    Lastly, with regard to Kosovo, President Clinton referred 
to the excellent job our airmen and other military personnel 
did in bringing that conflict in Kosovo to a close. Yet, there 
are many reports today that our effort to bring lasting peace 
and stability to Kosovo is not going as well as we would like. 
We look forward to hearing from you this morning about how our 
nation and our allies in Europe plan to ensure that our 
military success will be matched by our efforts to restore an 
orderly society to Kosovo and bring democracy to Serbia as 
well.
    With regard to the investors in central Europe, Madam 
Secretary, the admission of the Czech Republic, Poland and 
Hungary into NATO is a proud achievement and those states are 
now moving toward entry into the EU as well. We hope however, 
that you will impress upon our new allies the need to assure 
proper treatment of American investors, a matter of urgent 
concern to some of our investors in the Czech Republic and in 
Poland, in particular.
    With regard to North Korea, Madam Secretary, Congress 
remains concerned about our policy toward North Korea. Despite 
6 years of engagement, nearly $1 billion in American aid, North 
Korea still enhances its missile technology to the point where 
it may be able to strike the continental United States with a 
nuclear weapon. In addition, North Korea has evolved into the 
world's leading proliferator of missiles and missile 
technology. For the sake of future American generations we hope 
you can explain to our Committee how the Administration's 
policy will lead to an end to this brinksmanship by North 
Korea.
    With regard to the People's Republic of China, Madam 
Secretary, we have similar concerns with that nation. Our 
policy of engagement has produced very questionable results. 
Despite our efforts, human and religious rights abuses 
continue, proliferation goes unchecked, Chinese espionage 
continues against our high tech industries and their military 
buildup against Taiwan still moves forward. It is shortsighted 
to assert that increased trade alone will solve those problems 
and I hope you have some other options for us regarding our 
policy toward the People's Republic of China.
    And with regard to Latin America, Madam Secretary, many of 
us are grateful that the Administration has begun to focus on 
the drug crisis that grips Colombia. But we must not ignore the 
rest of the region. Funding to support Mexico's elections 
should be a priority. We are concerned that the wave of 
democracy in Latin America may be cresting. How our nation 
directs or withholds resources can make a difference.
    Ecuador, for example, is on the brink of chaos. The jury is 
out on Venezuela. The legitimacy of Peru's upcoming elections 
is open to question. Paraguay remains fragile. Property issues 
in Nicaragua continue to fester. And after closing our bases in 
Panama, the Administration has done very little to try to get 
them reopened. We must address escalating drug trafficking and 
drug corruption in Haiti. We are not doing enough to discourage 
violence and have not provided promised resources to level the 
playing field for Haiti's upcoming elections, an important 
election and the hour is late. We need to do some things now 
before those elections.
    With regard to the management issues, 2 weeks ago our 
Committee heard from Members of the Overseas Presence Advisory 
Panel. We have examined their report. We believe it provides a 
sound roadmap for modernizing the State Department into the 
next century. I trust that you will aggressively pursue these 
recommendations and put them into action. We know you are 
concerned about them.
    I intend to hold further hearings on your progress on the 
issued outlined in the Panel's report and I now turn to our 
Ranking Minority Member. Mr. Lantos, do you have any opening 
remarks?
    Mr. Lantos. Thank you, Mr. Chairman. Madam Secretary, as I 
was listening to my good friend, Chairman Gilman, I take it 
that the brunt of his message is that in your 3\1/2\ years as 
Secretary of State you have not solved all of the problems of 
all the portions of the world thus far. I hope you will be able 
to give us your defense that there are still some problems in 
this world, despite your extraordinary stewardship of this 
post.
    I want to take my minute or 2, because this may be one of 
the last times you appear before us as Secretary of State, to 
express my deepest appreciation and I am sure that of the 
American people as well for the extraordinary leadership you 
have shown as Secretary of State. You brought to this job a 
unique background, an extraordinary intellect, and a degree of 
energy that all of us deeply envy.
    Let me just say that while everybody speaks of the 
remarkable U.S. economy domestically, I admire the remarkable 
achievements in the international field. It would take hours to 
cite all of them. But let me just deal with your courageous 
position with respect to the crisis in Yugoslavia. Your 
determination to see to it that the NATO Act will go down in 
history as a pivotal act. It serves as a warning to countless 
totalitarian countries, that the civilized world will act when 
human rights are violated on a grand scale. During those 
difficult days you often felt you stood almost alone, but there 
were a few of us who stood with you and we have prevailed.
    I also would like to take this opportunity to advise you 
that during my questioning period I will ask you about Austria. 
While on the surface Austria today is a very prosperous, free 
and open society, there are early indications that a vote of 27 
percent will go to Mr. Haidar, a man of singularly disturbing 
views and background. I will ask you about the plans you have 
for dealing with this new crisis. The Haidar episode is not 
restricted to Austria.
    The neofascist and the neo-Nazis in the whole region are 
delighted that his extremist, xenophobic, racist political 
party is now part of the Austrian government. In other 
countries in the region similar parties are looking forward to 
being included in their respective governments.
    I will ask you what your views are of future applicants to 
NATO if they include ultra-right wing, racist, xenophobic 
political parties in their government as we now see in Austria.
    I also would like to suggest that your determination to 
maintain U.S.-Russian relations on an even keel despite the 
tragedy in Chechnya is clearly in the long term interest of the 
United States. Russia is not just a faltering economy. It is a 
nuclear power and as such represents a unique case in looking 
at the globe.
    Madam Secretary, I have one sort of general critique of the 
Administration which I hope you will be able to address during 
your observations. The debate on the Republican side in the 
presidential campaign relates to tax cuts versus paying down 
the debt. And I personally wish that our Administration would 
have seen it fit to use this time of extraordinary prosperity 
to make a quantum jump upward in funds devoted to the conduct 
of international relations. We are devoting about 1 percent of 
our budget to international relations.
    The world is a very dangerous place and I would have hoped 
that there might have been more courage, perhaps vision, in 
dramatically upgrading our presence overseas. In recent years, 
we have been closing embassies. We have been starving our 
foreign service. We have not provided the kinds of cultural 
opportunities for people around the global to visit American 
cultural centers. And in the long run, this is not a far 
sighted policy with respect to the 21st century. I welcome 
strongly your views on this subject because I would have been 
more than willing to support a request by your Department 
considerably above what you are coming in with. This is the 
moment for us to make a major step in building the future of 
the world on a stable and democratic basis and we have the 
resources to do it. I welcome your presence.
    Chairman Gilman. The Committee will stand in a brief recess 
until a senior Member returns and we will continue.
    [Recess.]
    Mr. Bereuter. [Presiding.] The Committee will come to 
order. We will resume sitting.
    Madam Secretary, those of us who went to vote assumed your 
opening statement was remarkable.
    Secretary Albright. Not yet.
    Mr. Bereuter. We will take it on trust.
    Secretary Albright. I have not done it yet.
    Mr. Bereuter. You have not done it yet. I have been asked 
first by the Chairman to recognize the Ranking Member, Mr. 
Gejdenson for his opening remarks.
    The Chair recognizes the gentleman from Connecticut.
    Mr. Gejdenson. Thank you, Madam Secretary. It is great to 
have you before us again and I for one want to commend you and 
the Administration. In this post-Soviet area, you have set for 
us a compass that encompasses all of our values as Americans 
and have persisted where it may have been easier to avoid 
responsibility. And even though as we sit here today we all 
share some frustration in the Middle East, in Ireland and 
elsewhere, American leadership in the Middle East has kept the 
progress going and I am frankly still an optimist in the midst 
of all these difficulties.
    In Northern Ireland, we have had setbacks, but we have had 
tremendous progress and I think it is important in every one of 
these instances to recognize where we would be without your and 
the President's leadership.
    And even in Kosovo where from day to day we are frustrated 
by the continued expression of hatred, America's resolve led 
the Western world to stop what would have been a brutal 
massacre, not necessarily on the numerical scale of World War 
II, but clearly one that would have annihilated many of the 
Kosovar Albanians.
    There is still much to be done in Haiti. We made progress, 
but there is a long way to go. In Africa, we need to make sure 
that America is not seen as simply leading the effort to stop 
violence in Europe, but ignoring our responsibilities in Africa 
and the Administration's efforts to bolster the process to end 
the violence in the Congo and elsewhere is an important act.
    I commend the President for going to India and I hope that 
you will go there soon as well. I think we have an opportunity 
to build a new relationship with India as we have ended the 
Cold War. And I think the President is right to go to India. I 
know that the Pakistan issue is before us, but I think that as 
we see the military ruler in Pakistan removing the court 
system, trying the elected president, it would be the wrong 
signal to send.
    There is one area where I wish this Administration be doing 
a little more and that is in heating oil. Part of that is your 
responsibility and that of some of the countries that America 
went to war for and part is a protected sum. My old friend 
Secretary Richardson and I have written to him to release the 
strategic petroleum reserve because what I am fearful of is 
that we will replace a heating oil crisis for a gasoline crisis 
this summer and America needs to use its strategic petroleum 
reserve and your good offices to increase the availability of 
fuel stocks.
    Additionally, I think that our people who work overseas 
deserve our maximum support in a sense of security to make sure 
that they work in facilities that are secure and safe from 
terrorist attacks and to that end we need to work with all 
democratic nations that want to fight terrorism. Cooperation 
between countries which are improving in India, the Middle East 
and elsewhere to fight terrorism is still an important role for 
the United States to take the lead in.
    We need to understand that American consular activities are 
part of our economic vitality today. I have just completed a 
trip with 15 companies to India and I can tell you that without 
Ambassador Celeste, the Foreign Commercial Service and others, 
we would not have had the success that we did so I want to 
commend you there.
    We are still short in many places as Americans come to 
embassies for visas and other assistance. The demand exceeds 
our ability to provide those services and you are going to have 
to work with this Committee and other Committees in Congress to 
make sure there is adequate funding.
    International disease prevention; you know oftentime, our 
efforts are seen as simply humanitarian efforts when we fight 
AIDS and other diseases overseas, but we have seen in the 
northeast, the West Nile fever spreading up the coast from New 
York into Connecticut and the opportunistic diseases that 
follow AIDS in Africa will be rapidly brought to the United 
States. So there is both the humanitarian aspect to our 
engagement of these international diseases, and also a self-
preservation effort.
    I want to tell you that I think you have done an 
exceptional job. The Administration has really led us into a 
new era and we need to take this last year of this President's 
Administration and not squander it, but to continue even where 
we face difficulties.
    Thank you very much.
    Mr. Bereuter. Mr. Gejdenson, thank you very much.
    Secretary Albright, we are pleased to have you, we are 
privileged to have you today to make a presentation of the 
Administration's budget request for FY 2001 and other matters 
you want to bring to the attention of the House International 
Relations Committee. You may proceed as you wish.

 STATEMENT OF THE HONORABLE MADELEINE K. ALBRIGHT, SECRETARY, 
                    U.S. DEPARTMENT OF STATE

    Secretary Albright. Thank you very much, Mr. Chairman and 
Members of the Committee. I am very pleased to have the 
opportunity to testify regarding U.S. foreign policy and the 
President's budget.
    And today, I am going to do something that may be without 
precedent for a Secretary of State in these annual around the 
world hearings. I will not only promise to be brief, I will 
keep my promise.
    The membership list of this Committee is long and time is 
always short and I think I have learned my lesson here that you 
deserve to ask the questions. Moreover, you have my written 
testimony which I am sure you will study carefully, perhaps at 
bedtime.
    I will take only about 5 minutes to highlight some areas 
where it is vital that we work together in the year ahead. For 
example, we must do all we can to see that the tide of 
democracy around the world remains a rising tide. In recent 
decades the number of countries with elected governments has 
more than doubled, but many transitions have stalled due to 
economic crisis, ethnic division, rising crime or leaders whose 
commitment to democracy is only skin deep.
    This year we are investing significant resources in four 
key democracies: Colombia, Indonesia, Nigeria and Ukraine. Now 
each of these countries is unique in its culture and history, 
but each is also important in its region and at a pivotal point 
in its democratic growth.
    Second, I ask your support for peace. We need your steady 
backing as we strive to help the parties move forward in their 
search for a comprehensive settlement in the Middle East. We 
also need your support for efforts with our partners to help 
Southeast Europe, including Kosovo and eventually Serbia, 
integrate itself into the continent's democratic mainstream. 
And we need your help in working with the U.N. and African 
leaders to halt the terrible conflicts in Sierra Leone and the 
Congo.
    Third, I ask your support to protect American security, 
including the President's request for funds to insure the safe 
handling of nuclear materials and expertise within the former 
Soviet Union. We need your patience as we work with our allies 
in Seoul and Tokyo to assure stability on the Korean peninsular 
where 37,000 American troops stand watch. And we need your help 
in establishing common ground on how to protect our citizens 
against ballistic missiles and preserve U.S. leadership on arms 
control. We need your backing on resources to make our 
diplomatic missions more secure and to counter international 
terror and drug traffic.
    Fourth, I ask your support for prosperity. No nation has a 
greater stake than ours in an open and inclusive global 
economic system within which American genius and productivity 
receive their due. We need your help to build such a system by 
supporting our efforts to assist Americans doing business 
overseas as Congressman Gejdenson has just stated. Help us to 
promote responsible labor and environmental policies around the 
globe and we need your help in broadening the participation in 
the world economy by approving permanent normal trade relations 
with China, the Africa Growth and Opportunity Act, the 
Caribbean Basin Initiative and the Southeast Europe Trade 
Preference Act.
    Fifth, I ask your support for the values that Americans 
cherish. Let us strive together to increase respect for human 
rights, bring war criminals to justice, advance the status of 
women and girls, preserve the environment and increase our 
contribution to fighting killer diseases, including HIV/AIDS. 
And let us support the President's plan to provide debt relief 
for the most heavily indebted poor countries and his request to 
provide full funding without unrelated restrictions for 
international family planning which reduces the number of 
abortions and saves human lives.
    And finally, I ask your support for all the people, 
platforms and programs that enable us to represent America's 
interest around the globe and I ask your support for American 
leadership. Today, our rich and powerful nation devotes a 
smaller percentage of its wealth to assisting overseas 
development than any other industrialized country. During the 
past decade, our rate of investment has declined by 50 percent 
and over the past half century by more than 90. As the new 
century dawns, we are allocating only one penny out of every 
Federal dollar we spend for the entire array of international 
programs.
    And I am very grateful to the statements already made in 
supporting our full budget. But the truth is here if we look at 
this the one single penny can spell the difference between hard 
times and good times for our people, war and peace for our 
country, less and more freedom for our world. In summary, I ask 
your help in using America's prestige and power in the right 
way, for the right reasons in order to achieve the right 
results for our citizens and for our many friends abroad.
    And now I will stop and I look forward to responding to 
your questions and to hearing your views.
    Thank you.
    [The prepared statement of Secretary Albright appears in 
the appendix.]
    Mr. Bereuter. Without objection, the Secretary's written 
statement will be made a part of the record. I will turn the 
chair back to the Chairman at this point.
    Chairman Gilman [presiding]. Madam Secretary, we regret the 
interruptions. In November, the Overseas Presence Advisory 
Panel submitted their report on a range of issues related to 
our overseas representation. That report calls upon our 
President to set up an interagency group to work on issues that 
will help modernize our overseas presence.
    Could you tell us, Madam Secretary, what has been done with 
regard to those recommendations and within the State Department 
who is in charge of implementing the Panel's recommendations 
and have you established any priorities among those 40 
recommendations that were included in the report and any 
prospects for success?
    Thank you, Madam Secretary.
    Secretary Albright. Thank you. Well, first of all I was 
very pleased to have the Panel's recommendations and I welcome 
their emphasis on the urgency of improving our capital plan, 
the importance of investing in human resources and the 
indispensable nature of universal representation.
    I strongly agree with the Panel's focus on the need to 
assure stronger interagency teamwork. And I noted with dismay 
the way that the Panel Members responded to the substandard 
condition of our many overseas facilities and their emphasis on 
improving our employees' quality of life. As they traveled 
around, they saw what many of you see and what I see, that some 
of the places where our people are stationed are neither safe 
nor useful in terms of their work.
    We are now reviewing all this at the State Department in 
terms of trying to figure out how all the recommendations fit 
together. But let me also make the following point, Mr. 
Chairman. The recommendations from this Advisory Panel are not 
simply about the State Department. They affect all agencies 
operating overseas and I think it is very important that we try 
to see this as an interagency effort with the support of the 
White House and Congress. In the Department, the Undersecretary 
for Management is handling it specifically, but I must tell you 
that it is a subject with which I am very familiar and I am 
spending a lot of time because I really do believe that we need 
to at this particular moment spend a great deal of time and 
money trying to resolve the problems that they set out.
    Chairman Gilman. Thank you, Madam Secretary. Your 
testimony, Madam Secretary, identifies a number of very 
important priorities for the new year, including a growing 
global economy. However, some of us are disappointed and 
surprised to see that the energy crisis now threatening 
economic growth around the world and gripping large parts of 
our own nation, particularly the northeast, is not on the list 
of the State Department's priorities. The Organization of 
Petroleum Exporting Countries, OPEC, keeping more than 6 
percent of the crude oil capacity off the market and energy 
prices now reaching $30 per barrel, we find that our reserves 
are at their lowest levels since the late 1970's.
    American energy consumers, small businesses and hundreds of 
independent truckers are demanding prompt solutions. For 
example, with OPEC, should we be reviewing our current security 
relationship with all of the OPEC member states and their close 
allies perhaps suggesting to them they should not assume that 
we will bail them out the next time their security is 
threatened as they threaten our own economy? And what actions 
are we taking to insure that OPEC gets the right message before 
its forthcoming March meeting to determine new production 
quotas for the coming year, Madam Secretary?
    Secretary Albright. Let me say that this is obviously an 
issue of great importance to Americans and one that as 
Congressman Gejdenson already mentioned is something with which 
we all ought to be highly concerned.
    State Department and Department of Energy officials 
testified before this Committee last week and we have 
consistently made clear in our public statements and in our 
discussions with individual OPEC producers our opposition to 
the OPEC cartel's efforts to coordinate and set world oil 
prices. I can tell you that in discussions that I have already 
had with a variety of Middle East leaders this has come up and 
Assistant Secretary Ned Walker is traveling the region as we 
speak on a number of issues and this is obviously one that is 
high on his agenda, but we are also working with the Department 
of Energy on this issue.
    Chairman Gilman. Thank you, Madam Secretary. We are 
concerned that our policy toward Iraq is in disarray. There 
have been no international inspections in Iraq for over a year. 
Virtually, none of the assistance that Congress has made 
available to the Iraqi opposition has actually been delivered.
    Madam Secretary, can you tell us whether the Administration 
remains committed to removing Hussein from power and can you 
tell us when significant portions of the $97 million in 
military assistance and $8 million in political support funds 
are actually going to be delivered to the Iraqi democratic 
opposition? And can you estimate for us the date on which U.N. 
Inspectors will be able to return to resume monitoring Iraq's 
weapons programs?
    Secretary Albright. Let me start out by saying that our 
policy toward Iraq has not changed. We believe that a tight 
sanctions regime is important for the containment of Iraq so 
that it does not pose a threat to its neighbors and we work 
very hard in New York in order to get the new Security Council 
resolution on this subject to try to get the Inspectors back in 
on conditions where they can do the job correctly, not just to 
go in there.
    The United Nations has just named a new head of UNMOVIC 
which is the successor to UNSCOM, Dr. Hans Blix, who has a 
proven record of understanding how inspections should go on and 
they are in the process of organizing themselves. The question 
is whether Saddam Hussein will accept the Inspectors, but we 
have other ways of checking what is going on.
    On the Iraq Liberation Act, let me just say the second part 
of our policy states that we are committed to regime change and 
to assisting the opposition both inside and outside Iraq. We 
have been working very hard with the opposition and are 
discussing providing it first with nonlethal material and 
training. They are making progress, the Iraqi opposition in 
organizing themselves and we have been working with them. I 
have met with large numbers of them so our position has not 
changed. We believe that we should be involved in containment 
and regime change.
    Chairman Gilman. Thank you and Madam Secretary, in 
conclusion I want to note that General Vung Pow, the leader of 
the Hmong people who fought alongside our troops during the 
Vietnam Wars is present with us today and we welcome General 
Vung Pow.
    [Applause.]
    Madam Secretary, just this morning we received distressing 
news alleging that the Vietnamese troops are working closely 
with the Lao government forces to wipe out Hmung freedom 
fighters and their supporters. We are very distressed by those 
reports and we ask you, Madam Secretary, to please look into 
this matter.
    Secretary Albright. I will, sir.
    Chairman Gilman. Thank you. Mr. Gejdenson.
    Mr. Gejdenson. Thank you. Madam Secretary, following up on 
the Chairman's questions on the Iraqi resistance, you know, to 
listen to some in Washington you would get the sense that there 
is a large, unified, broadly supported opposition where we 
would only have to give them weapons they could move in and 
remove Saddam Hussein. Is it fair to say that at this point we 
are far from a stage where there is a large unified organized 
opposition that is viable? And further that the danger may be 
at this point if you simply handed them weapons that they would 
very quickly be decimated and those weapons would end up in 
Saddam Hussein's hands?
    Secretary Albright. Well, let me say that it is a large 
disparate group and one of the things that Frank Richardony 
(whom I have asked to coordinate all of this), one of the 
things that he has been doing is working with them in order to 
get themselves more organized. They were able to have a 
national congress; the Iraqi National Congress held its first 
executive meeting since 1994 and a first mass assembly since 
1992 in 1999 thanks to the work that we had been doing.
    I think there are those who believe that one could insert 
some kind of a group into Iraq and make sure that that is the 
way you overthrow him. We think that that would require 
regional support which does not exist now, and more 
fundamentally it would also require the support and protection 
of U.S. troops. So while one might well wish to have something 
like that happen, I think it is not a reality and your 
statement also, Congressman Gejdenson, is true. That at this 
stage, we have to give them assistance to the extent that they 
can well absorb it rather than have it go into the wrong hands.
    Mr. Gejdenson. Let me just take one moment to commend you 
for raising environmental and labor issues with our allies. I 
think what happened at the World Trade Organization in Seattle 
is an indication that this is something broadly felt in the 
American public, that just as we deal with intellectual 
property in international agreements, trade and environmental 
and labor issues need to be included.
    I, frankly, even though this is a great difficulty of the 
Syrian-Israeli negotiations, I still think it is a key and I 
hope again the Administration continues its efforts there.
    Let me go on to ask you about the situation in Ngarno-
Karabach. There had been some progress and then, of course, the 
tragic assassination that occurred. Can you give me a sense of 
where we are today in that region?
    Secretary Albright. Yes. In fact, President Aliev of 
Azerbejan was in the United States yesterday and met with 
President Clinton and with me. We have made very clear our 
interest in having that situation resolved and there have been 
some talks. It is important that the Minsk Group which is part 
of the OSCE process really be able to produce with them some 
additional movement.
    I think that, as you pointed out, Congressman, the tragic 
assassinations in Armenia had created some problems in getting 
the process going, but we talked about it when we were in 
Istanbul with the President and we keep a very close eye.
    Mr. Gejdenson. What is your sense of the situation in 
Pakistan? Obviously, I think many of us in Congress have felt 
tremendous frustration, one obviously first with the coup; 
second now with the assault on the judiciary; the connection, 
at least, with some elements of terrorist operations in the 
region coming out of Pakistan and obviously the connection with 
the Taliban. What are the things you are looking for from the 
Pakistanis in cooperation say in anti-terrorism activities as 
well as a return to democracy?
    Secretary Albright. Well, first of all, I think that we 
have to remember the very important relationship that we have 
had with Pakistan and one that unfortunately has been 
interrupted by both the nuclear tests as well as by the action 
of General Mesharaf. We have consistently urged now General 
Mesharaf to move in terms of some measurable milestones of a 
return to civilian government and we are watching very 
carefully how he reforms the electoral commission on the 
parties and holds local elections.
    We want to see some kind of a public show and not just 
show, but real action in terms of returning to democracy. And 
we will continue to support grassroots democracy in Pakistan. 
We have made quite clear to them that we are concerned about 
some of the activities in terms of terrorism and we have that 
under continual review.
    We have been concerned about the fact that groups like the 
Harakutl Mujahedin which we believe was involved in the recent 
hijacking of Indian Airlines 814 operate in Pakistan and that 
they have been a transit point for terrorists, so we are 
concerned and we hope that we can see some action both in terms 
of democracy and dealing with the terrorists' threat.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Gejdenson.
    Mr. Leach?
    Mr. Leach. Madam Secretary, I want to ask a nonpolicy 
question, but an institutional one and that is whether in your 
view you have adequate resources to run the Department of the 
State. We have more embassies. We have had more embassies than 
we have had in our history. We have more countries being 
created and yet over this Administration State Department 
funding has been pretty level, not keeping up with inflation.
    Do you think that is adequate? Would you recommend that 
more resources ought to be given to the United States Foreign 
Service?
    Secretary Albright. Congressman, I have been very concerned 
about the funding of the State Department and quite appalled by 
the fact that in 1985 our budget was $22.4 billion and we are 
coming to you today to request $22.8 billion and given what we 
know about what has happened to money----
    Mr. Leach. I am sorry. I am not as interested in the 
totality of the foreign aid. I am more looking at just the 
State Department itself.
    Secretary Albright. The operations?
    Mr. Leach. Which is about a tenth of that figure.
    Secretary Albright. Right. And let me say what I have been 
trying to do, we hit rock bottom at the end of the 1980's and 
early 1990's in terms of funding for the State Department 
operations in Foreign Service and I have been systematically 
trying to raise that amount.
    Yes, we could certainly use more and one of the issues that 
we now have to deal with is the question about security so that 
a large portion of our operations budget also by rights has to 
go to security, but it is really robbing Peter to pay Paul. We 
need secure buildings, but we need people in them and so we 
certainly--I have never felt that we have adequate resources. 
It is a problem that we are very grateful that there have been 
some statements already about full funding of what the 
President has requested, but I do believe that we have been 
systematically underfunded, but this has been going on for a 
long time, as I said the late 1980's and early 1990's, and I 
have been trying very hard to get us out of that trough.
    Mr. Leach. I appreciate that. I would only stress, if you 
would look at the President's request it is not [underfunded]. 
If you take out the security, we are basically about where we 
were in 1992 or 1993 in terms of funding, without inflationary 
impacts. And just as an individual--I mean it is my strong view 
that all Americans can have credible doubts about levels of 
foreign aid and that is a matter of judgment, but no one should 
have doubt whether the United States should be supremely well 
represented abroad. And I am very concerned that the level of 
funding that you have requested for the American officers is 
inadequate and as the trite phrase is of an increasingly 
complicated world, an increasingly sophisticated, an 
increasingly intertwined world, we ought to be upgrading 
significantly the capacities of the professional foreign 
service. And that cannot be done without resources and I am not 
convinced that the Department has weighed in with its request 
to Congress as adequately as perhaps it could. And I just want 
to express----
    Secretary Albright. Congressman, let me say that the 
Department has weighed in up to here and we have been working 
very hard to get increases. I happen to believe that American 
diplomats should be treated as well as the American military 
and I fully approve of the treatment of the American military 
without whom we could do nothing.
    So I think that our American diplomats should have the 
respect and the needs that they have in order to do their work 
properly and I thank you very much for your comments.
    Chairman Gilman. Thank you, Mr. Leach. Mr. Lantos?
    Mr. Lantos. Thank you, Mr. Chairman. Madam Secretary, let 
me first ask you about Austria and then Syria. We have a very 
serious, very threatening, long term trend which is developing 
in Austria and I think it is important for us to understand the 
antecedents. Austria portrayed itself very successfully as 
Hitler's first victim when in point of fact Austria was 
Hitler's first ally and while the Germans have cleansed 
themselves to a remarkable degree of their Nazi past, the 
Austrians have never done that. As a matter of fact, their 
election of the infamous Waldheim as President after his lies 
became public knowledge is an indication of how xenophobic and 
uncleansed that society in fact has been.
    Now we have Haidar getting 27 percent of the vote. I think 
it is important to realize that not all the people who vote for 
him are neo-Nazis, but I think it is also important to 
understand that all the people who are neo-Nazis are voting for 
Haidar and all the people who are profoundly opposed to a new 
and democratic and integrated Europe are voting for Haidar.
    Haidar claims that he is not responsible for his parents 
which at one level is true, but it is also true that just as 
John McCain brought to his public persona his family as did 
some of our other presidential candidates, in Haidar's case his 
father joined the Nazi party in 1929, his mother in 1930. He 
grew up in an atmosphere of hate, dripping with hate. He makes 
statements which are way, way beyond anything acceptable. To me 
the most sickening statement is his reference to concentration 
camps as punishment camps as if, in fact, the million and a 
half children who were killed in these concentration camps had 
to be punished somehow.
    Now it is very important as we deal with this delicate and 
complex issue that we walk a fine line. The European countries 
have taken a very strong stand against Haidar. You have 
recalled temporarily our ambassador and some of us have had an 
opportunity to have lengthy conversations with her as well as 
with the Austrian ambassador here.
    I would like to ask you on the Austria issue, do you feel 
that what is happening in Austria with the xenophobic, 
extremist, racist political party now part of the government 
has ramifications on some of the neighboring countries? For 
instance, in Hungary, a similar party is now overjoyed at 
Haidar's admittance into the government of Austria. There are 
similar elements throughout the region and I think the way we 
treat the Haidar phenomenon will have long term ramifications 
for the development of democracy in the area.
    With respect to Syria, I would like to ask you to comment 
on what appears to be Assad's newest approach, namely since he 
did not see the meetings in this country between Mr. Barak and 
his foreign minister bringing immediate fruit, he has now 
revved up his surrogates, the Hezbollah in southern Lebanon and 
has begun the pattern of violence and terrorism. I would be 
grateful if you would tell us what you plan to do in this 
respect.
    Secretary Albright. Thank you. Let me say on Austria, 
Congressman Lantos, that your summary of the situation I would 
agree with and I will not question any of the aspect of it 
because I personally agree with what you have said. I have been 
in touch even before when Chancellor Shussel was Foreign 
Minister Shussel to tell him how concerned we were and that it 
was most unfortunate that he had not been able to create his 
coalition with the Socialist Party. And when I was in Moscow, I 
actually had a conversation with Shussel on the phone. He then 
sent me the preamble to their agreement which has a lot of good 
words in it. What we have said to them, both personally as well 
as through now Ambassador Hall who has returned to Vienna 
temporarily and will be coming back again, is that we will be 
holding them to their actions and that words are not enough.
    On a series of issues that have to do with their past, I 
have asked Stu Eizenstat, who even though he is now 
Undersecretary of Treasury continues to be my personal 
representative on the Holocaust issues, to be in touch with 
officials in Austria in order to deal with compensation funds 
and all the issues that are of importance.
    As far as the rest of Europe is concerned, I have had very 
good and important discussions with fellow foreign ministers on 
the general concern that they have for the rise of right 
extremist right wing parties and the collapse of some 
legitimate conservative parties, this is an even greater 
problem. I also recently had a very good conversation with 
Foreign Minister Guremech of Poland who will be hosting in June 
a conference on the community of democracies which we had 
basically thought originally could be on evolving new 
democracies. But I have asked them to take up the issue of 
Austria as a problem of existing democracies which might be 
subjected to these kinds of points. So believe me, this is very 
much on my agenda. I am going to Zagreb tomorrow in order to be 
present at the inauguration of the new Croatian President which 
is a great victory and at that time I will be talking with 
other foreign ministers who are there on this very subject.
    On Syria, let me say that we were very disappointed in the 
fact that the Blair House talks and then Shepherdstown did not 
yield immediate results. As you know better than anyone this is 
a very difficult and complex situation and we have wanted to 
and will continue to try to work at lower levels to bring about 
progress on that track as well as on the Palestinian track. At 
the same time we have been very concerned about the rising 
activity of the Hezbeollah. I have been in touch with Foreign 
Minister Shara several times to tell them that they need to 
control, use their influence to control the Hezbollah.
    We had managed to get a monitoring group meeting on 
subjects such as the understandings between Israel and Lebanon, 
and on how to deal with that zone. We were all set. They were 
meeting and then there was another Hezbollah attack. It is 
impossible to negotiate or have meetings under those 
circumstances. So I have talked to Shara. We have made our 
views known to the Syrians and we will continue to do so while 
we try to keep these tracks going.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Lantos. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. Madam Secretary, 
thank you for your testimony and for your energetic and 
dedicated service to our country. As the Chairman of the Asian 
Pacific Subcommittee I want to associate myself with the 
questions and concerns of Mr. Gejdenson related to Pakistan. I 
noted in your comments secondly that you said in September we 
had reached an understanding with the North Koreans that they 
will refrain from long range missile flight tests as long as 
negotiations to improve relationships are underway. I would 
just say for your information, but also to the North Koreans in 
effect, if they test Taepo Dong II I think they have chosen 
path two of confrontation under Secretary Perry's report to the 
Congress and to the Administration.
    I have two questions, Madam Secretary. A senior assessment 
team was sent to Indonesia to take a look at types of 
assistance and activities that would be appropriate, and they 
recommended a half billion dollars, $500 million in the next 3 
years. You have been personally involved. You have been to 
Indonesia. My first question would be do you support the full 
funding of the assessment team's recommendations over the next 
3 years, one half billion dollars?
    Secondly, I was interested as I know you were in the 
recommendations that were forthcoming and now have arrived from 
the Overseas Presence Advisory Panel. The report is available 
to us just recently. I think we have to change the whole 
framework or structure in the way we rehabilitate and construct 
embassies for security and other reasons. They made some very 
interesting recommendations there. I would like to work with 
you on that.
    But they also recommended the establishment of an 
Interagency Overseas Presence Committee. Since you have in the 
embassies today representatives of so many Federal agencies and 
they recommend implementing the accountability review board's 
recommendations on security, I would like to get your response 
to the Indonesia question and to these items in this Overseas 
Presence Advisory Panel report.
    Secretary Albright. On Indonesia, let me first say as I 
mentioned in my testimony it is one of our target countries 
because I think that there are huge possibilities for movement 
and it is important for the region. We have just received this 
assessment and we are going to be in consultation on this. In 
anticipation of their report, we have increased economic 
assistance funding for FY 2000 to $125 million, primarily in 
USAID development assistance and ESF funds and are requesting 
$144 million in FY 2001. So we are working actively and I thank 
you very much for your support on this.
    Mr. Bereuter. Madam Secretary, I would like to ask for your 
personal involvement in this Indonesian issue.
    Secretary Albright. I assure you that you have it. I have 
spent a lot of time on it and will continue to do so which is 
why I chose it as one of our countries.
    On the report, let me say again that I am very pleased we 
have the report by these really remarkable people who took a 
lot of personal time, traveled around, saw things.
    We are looking at how to implement it. One of the major 
problems here is how to have an interagency approach to it and 
I have now written to my fellow cabinet members who are somehow 
involved in this about the need for us to work together on what 
we would call the right sizing of our missions and how the 
State Department serves as a platform, but a number of other 
agencies are there with us and we are going to be looking at 
it.
    I think the questions that we have, have to do--I am very 
glad that they supported universality of representation because 
I think an American presence, no matter what size and countries 
is very important. But as we, for instance, rebuild the Nairobi 
embassy we have turned it into a regional hub in order to 
service in support ways throughout East Africa. So we are 
looking into rebuilding. We are taking all their 
recommendations very seriously and I look forward to working 
with you on this. This is a major opportunity for the 
Department of State and therefore the United States to be able 
to rethink how we do business and we have to do business 
differently. The whole telecommunications revolution makes that 
imperative.
    Mr. Bereuter. Thank you. Thank you.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Bereuter.
    Since the Secretary's time is limited and since we have so 
many Members who want to intervene, I am going to ask our 
Members to please limit themselves to one question and we will 
have to limit ourselves to 3 minutes each in order to give 
every Member an opportunity to be heard----
    Mr. Burton. Mr. Chairman, Mr. Chairman, parliamentary 
inquiry?
    Chairman Gilman. Yes?
    Mr. Burton. Many of us got here very early today because we 
had a number of questions we wanted to put to the Secretary and 
we have waited here for a long time. I realize she has a very 
busy schedule, but we do not have many opportunities to talk 
with her and I hate like the dickens for any Member to have 
their time cut short when these questions are very important, 
especially when we are talking about appropriating large sums 
of money for foreign policy. She should make herself available 
so that we can ask these questions.
    Secretary Albright. Sir, I am available. I will be happy to 
answer your questions.
    Mr. Burton. Mr. Chairman, she said she would be available 
and I would like to have----
    Chairman Gilman. The Secretary has agreed to stay until 
12:30 and we will be calling on the Members in the order in 
which they were present by seniority at the time the gavel came 
down and for those who came in after the gavel, we will call on 
them in order of their appearance.
    Mr. Burton. Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Berman.
    Mr. Berman. Well, thank you, Mr. Chairman. I have one 
question, two parts. [Laughter.]
    Chairman Gilman. Mr. Berman?
    Mr. Berman. I am getting ready to go.
    Chairman Gilman. You have already used 1 minute. 
[Laughter.]
    Mr. Berman. You and the President have spent an incredible 
amount of time trying to get the Middle East peace process 
going again. You have done a superb job and handled yourself 
very deftly, and a lot of us are very grateful for this 
investment of time.
    Should the present bump in this process be resolved, should 
agreements be concluded, it is likely that a lot of countries, 
particularly the United States, as well as obviously the 
participating countries, will be asked to pick up some 
substantial expenditures.
    Essential to accomplishing this is to approach it on a 
bipartisan basis, that there be early consultations between the 
Administration and the Congress. I know you have already 
started doing that on your own, but most of all the American 
people have to understand why peace in the Middle East is an 
American priority, why it is in America's national interest, 
and why it is worth an investment of the incredible time you 
and the President are putting into it and of our financial 
resources. I am wondering if we can just start that process by 
you speaking to that issue.
    Secretary Albright. First of all, I think that anybody who 
has followed events in the Middle East in this century or last 
century knows the importance of the region to the United States 
and to Europe.
    And I will not repeat that whole history, but it is an area 
that is strategically important to the United States for a 
variety of reasons. Plus, the indissoluble link between this 
country and Israel that has existed since 1948 that has had 
bipartisan support is something that needs to be continued. It 
is a democracy with whom we have very close ties. If we can 
manage to get the Syrian track, the Palestinian track and the 
Lebanese track done in the near future, I think it would be a 
tremendous boon to the American people and I hope that we are 
able to do that.
    At the same time we know that in the past when there have 
been agreements they have required some kind of financial 
assistance from the United States and even other countries. We 
know that if we should be able to achieve progress in these 
tracks we will incur some major security costs for a future 
peace and while it is premature to really be talking about 
numbers of any kind, I do think that the American people need 
to know how important the region is to us for both humane, 
human values, principled reasons and security reasons. I hope 
very much, Congressman Berman, to have the opportunity to come 
here and actually talk about what we need for a comprehensive 
peace.
    Mr. Berman. The second part of the question is related to 
the Middle East as well. Just what is your evaluation of what 
is going on in Iran? Elections are coming up. You have made 
some initial moves. You have welcomed a dialogue. You have 
taken them off the drug list. We see the reformers moving. We 
see the establishment reacting, but we do not see any 
fundamental change, it seems to me, on either development of 
weapons of mass destructive or support for terrorism. Where do 
you think things are?
    Secretary Albright. Well, first of all, clearly what Iran 
is, is a country and a society that is in some flux. They will 
have elections to the majelus on the 18th and we continue to 
follow and be intrigued by the moves of some of the reformers 
and President Khatami and how he is dealing with what is 
clearly an upsurge in support for his kind of approach which is 
being supported by people of the middle class, younger people, 
women. So we are watching that.
    We are concerned, however, about the fact that they are not 
supporting the Middle East peace process. They are evidently 
supporting terrorism in various places and they continue to try 
to acquire weapons of mass destructive and that is something 
that we are monitoring and we are working with those countries, 
in fact, that we are concerned----
    Mr. Berman. Does Khatami have any control over foreign or 
military policy in Iran?
    Secretary Albright. Well, in some way it looks as though 
there are two parallel governments that are going on, but I 
hesitate to comment too actively until we see the results of 
these elections. They could have a large influence on the way 
things go and we have said that we are prepared to have a 
dialogue on issues, on all the issues of concern and as you 
know there have been statements where Khatami has given 
interviews. We have tried to respond and so we have essentially 
a policy by interviews at the moment, but we are looking at 
ways should there be some change that might lead to something 
different. But we are concerned by the three points that you 
have raised, support for terrorism, acquisition of weapons of 
mass destruction and lack of support for the Middle East peace 
talks.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Berman.
    Mr. Burton?
    We will continue right through the voting. It is a vote on 
rule. Please come back as quickly as you can.
    Mr. Burton?
    Mr. Burton. Thank you, Mr. Chairman. Madam Secretary, I 
appreciate your request for cooperation with the Congress and 
toward that end a lady named Linda Shenwick who worked at the 
United Nations was fired because she was a whistle blower. She 
talked about waste, fraud and abuse, and the State Department 
under your leadership was instrumental in having her removed. 
Fifty-three Members of Congress, myself included, along with 
Chairman Gilman, wrote you a letter on November 5th and we have 
not received a reply. We would like for you to talk to your 
secretary and get a reply to us on the reasons why Ms. Shenwick 
was removed.
    In addition to that, in Colombia we have a problem down 
there that Chairman Gilman and I and others have been talking 
about for 4 or 5 years and I think in February 1998 you said no 
additional helicopters were necessary after you talked to the 
drug czar. And of course, now we are going to send $1.3 billion 
down there because the drug war is about out of control. We 
appreciate that and we hope that it will be pressed 
aggressively because that entire region is at risk.
    I had a hearing in California about 3 or 4 weeks ago 
regarding the Metroken Papers and Mr. Metroken and a GRU Member 
who are now in the Witness Protection Program in the United 
States. Mr. Metroken left the KGB, and was a person who left 
the KGB in our Witness Protection Program. He said that in 
Europe and in the United States there are many sites where they 
believe the Soviet Union buried communications equipment, 
military equipment and possibly, small nuclear devices.
    As far as I know, the State Department has not looked into 
that. Now we know that two sites have been uncovered in Europe, 
one in Switzerland and one in Belgium, so this is not just 
baloney. It really occurred in Europe. We believe it may have 
occurred here in the United States. I would like to ask the 
State Department to look into that as quickly as possible and 
press the Russians for an explanation about that and where the 
sites might be.
    Now Khazakstan is out of control right now. We understand 
that the government over there has repressed people. They are 
violating human rights, putting people into prison. There is no 
access to the opposition to state run media and the only 
printing press in the country that the opposition had has been 
destroyed. And if your Department could look into that I would 
appreciate it.
    Now regarding Vietnam, this is something we have not talked 
about in a long time. We still have 2,047 POW/MIAs missing from 
the Vietnam War. When President Clinton agreed to normalize 
relations with Vietnam, we were supposed to get a complete 
accounting as every President prior to him has requested. Two-
thousand forty-seven are still unaccounted for. We have 43 that 
the Vietnamese knew were alive. We do not have an accounting on 
those. We need to have those as well.
    And finally, regarding Iraq, since August 1998 we have not 
had inspectors on the ground and I believe it may not be 
intentional, but I believe the American people are being misled 
into believing that we know what is going on. Iraq has the 
ability to produce biological, chemical and nuclear weapons and 
unless we have inspectors on the ground, we cannot find that 
out. Spy satellites will not get the job done. We need 
inspectors on the ground. We have not had them there in over a 
year and a half and I wish you would look into that. I have 
some other questions I will submit for the record and if you 
would care to comment on any of those, I would appreciate it.
    [The response by the Department of State follows:]

    I apologize for the delay in responding to your letter. I am aware 
of your interest in these issues and wanted to take the time to review 
them carefully. A response, dated May 3, 2000, has been sent to you.

    Secretary Albright. Thank you very much.
    Let me just say on Ms. Shenwick's case I do not think it is 
really appropriate for me to comment--to respect her privacy--
and we are trying, the State Department is cooperating fully 
with the process established by Congress for investigating her 
whatever allegations there are. But let me just say that 
neither I nor anyone else in the State Department is trying to 
persecute her and it is my personal policy and the policy of 
the Department of State to treat all employees fairly. And I 
will work on the subject.
    Mr. Burton. A response on Ms. Shenwick will be appreciated. 
Fifty-three Members of Congress wrote you a letter 2 or 3 
months ago and we would like to have a response.
    Secretary Albright. Then on the issue of Colombia, let me 
say that we have looked very carefully now on and have been 
supportive of Plan Colombia which President Pastrana was able 
to design which has a comprehensive approach to the problems 
there: narcotrafficking, the peace process, the economic issues 
and social structure. We have come to you requesting a 
supplemental of $1.6 billion over 2 years. I was down in 
Cartegena about 3 weeks ago and spoke with President Pastrana's 
team. We have been looking at how the police and the military 
work with each other, and are going to be supplying equipment 
and assistance. I think that we have a very good balanced 
package and I look forward to working with you on that.
    On Tajikistan, we will look into what you have been saying. 
We obviously have some concerns about some of the activities 
there. On Vietnam, when I was in Vietnam, I have been there a 
couple of times, I have specifically gone once to the agency 
that does the POW/MIA tracking and was quite impressed with the 
way they do their work. When I was there last time I brought 
back some remains so this is something that is very much on my 
mind. We raise it every time with your former colleague, now 
Ambassador Peterson, who has obviously taken a great personal 
interest in this and I can assure you that we will continue to 
do so.
    On Iraq, let me say that we have worked very hard in order 
to get inspectors back in. Chairman Blix is now working on 
putting together an inspection team. I want to make sure that 
it is a real team. We do not want anything that says they are 
able to inspect when they are not and we are in the process of 
monitoring that now. I agree with you. We need to have better 
access and Saddam Hussein will not have his sanctions removed 
if there is not a real inspection team able to do its 
monitoring. Believe me, it is very much something that we work 
on on an hourly basis.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Burton.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Madam Secretary, 
I confess I do not have the eloquence and ability as would my 
good friend from California, Mr. Lantos, in offering his 
personal commendations to you and the outstanding job that you 
are doing on behalf of our country. I would like to offer my 
personal compliment to you and your associates on the 
tremendous job and the responsibility that you bear in this 
important position in our government.
    I want to thank the Administration also for all the events 
that have transpired affecting the situation that we are now 
confronted with on East Timor. I think I would be remiss if I 
did not offer my personal sense of appreciation to the leaders 
of the government of Australia for the initiative and the 
leadership that they have demonstrated in taking the lead and 
responsibility on this important work of this part of the world 
to bring about a better sense of stability on East Timor. They 
are now making preparations for a truly democratic and free 
country.
    I have a question in two and a half parts, Madam Secretary. 
We have talked about East Timor. It is behind us more or less 
in terms of building a democratic government in that area of 
the world, but one area that really troubles me, Madam 
Secretary, is West Papua New Guinea. As you are well aware, 10 
years prior to the military takeover of East Timor, the same 
military regime conducted not only a tax, but literally 
conquered West Papua New Guinea by the sword in killing, 
torturing, and murdering well over 100,000 West Papua New 
Guineans.
    Madam Secretary, if we are planning to offer some kind of 
economic aid to the Indonesian government to provide 
stability--realizing the importance of that all--I am really 
bothered by the fact that here we still have West Papua New 
Guinea being given the worst treatment, very similar to what 
was given to East Timor. Yet we seem to be forgetting now, 
putting it under the rug so to speak, what we should be doing 
to the West Papua New Guineans and giving them their freedom, 
their right of self determination. At least, what could the 
United Nations do to correct the inequities and the things that 
have transpired and what happened to West Papua New Guinea some 
20 years ago? I would like your position on these. What is the 
Administration's position with West Papua New Guinea?
    [Mr. Bereuter presiding.]
    Secretary Albright. If I might there was one question of 
Congressman Burton's I did not answer which was about the 
allegation about Soviet weapons and I just wanted to say that 
we take that seriously and we will stay in touch. I did not 
want him to think that I had not answered that.
    On your questions, first of all, I do think that the 
international community should take credit for having moved 
fairly rapidly on East Timor and there are so many tragedies 
going on there. Today's paper, I think describes the lack of 
institutional structure there and we are working very hard to 
make that happen.
    On Papua New Guinea, West Papua New Guinea, let me just say 
that this is something that is obviously of major concern to 
us. I, 2 weeks ago, had some Indonesian officials in and we 
talked about the fact that they need to find a peaceful 
resolution to that problem as well as Ache and we have 
encouraged all the parties to focus their efforts on some kind 
of a political solution. Recently, the State Department co-
hosted a conference on justice and reconciliation to try to 
deal with it and these three Indonesian cabinet members and 
selected NGOs were part of that. I think that I just would like 
to assure you that this is something that we talk about a great 
deal. Ambassador Gelbard in Jakarta has raised this issue and 
will continue to do so because there is great injustice.
    I think the problem though is Indonesia is a huge, multi-
ethnic country, spread over a large area of land. They need to 
figure out how to deal with the multi-ethnicity, which could be 
a great strength for Indonesia.
    Mr. Faleomavaega. It seems that NATO has proven its 
capabilities, especially in bringing stability to the region, 
in Europe. Has there ever been any movement by any of the 
leaders in Asia or the Pacific Rim countries to organize a 
regional security organization similar to NATO? Will there be a 
possibility of doing a similar situation for the Southeast 
Asian region?
    Secretary Albright. Well, when I was in college which was 
many hundreds of years ago, actually there was an organization 
called SEATO. We learned all the alphabet soup at that stage 
and I am very interested that you should be asking this because 
ASEAN has a regional forum that deals with security issues. I 
have thought that it would be worth exploring something larger. 
We need to look at that. What I find very interesting is that 
recently as a result of the Korean problems which Congressman 
Bereuter had referred to earlier, Japan, the United States and 
South Korea are cooperating more in a trilateral approach. I 
think it is out there, but it is not there yet, but at this 
what is lovingly known as the ARF, we talk about security 
problems because I think there is a sense that something could 
be done.
    Mr. Faleomavaega. Thank you, Madam Secretary.
    Mr. Bereuter. Thank you very much. Madam Secretary, I would 
like to send you a written request regarding the Montreal 
Biotechnology Protocol and appreciate your answer. It is very 
important to agriculture and food producers.
    The gentleman from New Jersey is recognized for 5 minutes.
    Mr. Smith. Thank you very much, Mr. Chairman. First of all, 
Madam Secretary, I apologize for running out. I had to testify 
on MFN before the Ways and Means Committee, so I apologize not 
hearing your full statement.
    Let me just begin by thanking you and the Administration 
for signing H.R. 3427, the Embassy Security Act which had about 
100 disparate measures. I introduced it. It was co-sponsored by 
many Members of our Committee, 287 pages. And also the Torture 
Victims Relief Act which will help mitigate some of that misery 
of people who have been tortured.
    I have a number of questions. I would just like to pose 
them and ask you if you would respond. The first dealing with 
China. As we know, we are in the midst of a brutal crackdown by 
the Chinese government. Just last Thursday, 150 Asians 
converged to arrest an 80-year-old Catholic Archbishop in 
Fujian Province, Jon Yon Shu Dow. We know that Bishop Shu and 
many others have suffered, and pastors. The 10-year-old Pnacha 
Lama and the Fulong Gong are now being smashed, to use the 
words of the Chinese dictatorship. Five thousand Fulong Gong 
practitioners have been sent to labor camps and an additional 
2,000 have been rounded up in the last week and a half alone. 
We know that the Administration argues that trade will lead to 
an improvement. We have had 7 years of significant regression. 
Amnesty International sits where you sit every year and says 
just that. It is bad and getting worse. And Wei Ji Chung made a 
very, very powerful bit of testimony again right where you sit 
before my Subcommittee and said that when we are strong and 
when we link trade, there is an improvement. When we make nice 
for the Chinese dictatorship the torture begins in earnest and 
people are worse off in the Lau Gai and in the prisons.
    Secondly, in Vietnam and Laos, I was just in Vietnam on a 
human rights mission. There is a decline there as well in 
religious freedom. As a matter of fact in Laos, there is now 
a--and I have an actual copy of it, a statement that has to be 
signed by people to renounce foreign religion. In other words, 
anyone who is affiliated with anything outside of the Laotian 
borders is called upon to sign this and there are threats and 
there are beatings and imprisonment for those who do not.
    And finally, with regards to Chechnya, I have had as 
Chairman of the Helsinki Commission, held a hearing on Chechnya 
just a few weeks ago and I would note that based on that and a 
call that has just been made by Mr. Brezhinski, Haig and 
Kampelman we know that the Administration has said the right 
things and we applaud you for that with regards to the brutal 
crackdown in Chechnya and the indiscriminate killings under the 
guise of anti-terrorism, but they have called for three 
specific steps that they are asking the Administration to 
follow and I would ask you if you would ask you if you would 
consider responding to those one.
    One, oppose the release of World Bank and IMF loans to 
Russia as long as the war in Chechnya continues. Two, initiate 
consultations with the G-7 nations regarding suspension of 
Russia from the annual summit. And three, call upon the United 
Nations to appoint a special rappateur for Chechnya. I yield to 
the gentlelady.
    Secretary Albright. Thank you. First of all, on China let 
me say that I am as appalled as you are by what has been going 
on in terms of human rights and dealing with the Falan Gong and 
the religious problems. We have introduced a resolution in the 
Human Rights Commission and we will be making that case very 
strongly. What I disagree on is that trade should be linked to 
it because I believe that trade is one of our very best wedge 
points in terms of opening up China and I was very interested 
in a piece yesterday in front of the New York Times where a 
young woman talked about the opportunities that were opened to 
her as a result of being able to use computers and internet and 
I do think that opening it up is, we could spend a lot of time 
talking about this, but I can assure you that I care as much 
about it as you do.
    Mr. Smith. I understand. If you just yield for 1 second. 
Rather than permanent normal trade relation, there is a body of 
evidence that suggests that they could still accede into the 
WTO with annual MFN which at least preserves the right of 
Congress and the Administration to take a look every year and 
hopefully keep the pressure on that government.
    Secretary Albright. I believe, sir, that we can keep the 
pressure on them anyway, but that the permanent normal trading 
relations is important in terms of opening up China to us for a 
market and I think that it is not only economically sound, but 
good in terms of national security, but we will have time to 
talk about that.
    On Vietnam and Laos, let me say again I am concerned about 
what you say and we are working very closely. I now have a 
religious--advisor on religious affairs, Bob Sipel. We talk and 
think about how to deal with this particular issue all along.
    On Chechnya----
    Mr. Smith. Gentlelady yield on that point? We had the 
hearing with Bob Sipel. As a matter of fact, that legislation 
went through our Subcommittee.
    Secretary Albright. Yes.
    Mr. Smith. And we worked--thank you for your help in the 
end on that. But those two countries were not listed. China 
was, but those two countries were not listed and my hope is 
given this deterioration if they would be listed, it would be 
very helpful.
    Secretary Albright. We will take a look at that, sir.
    On Chechnya, let me say I was just in Russia. I had a 
reasonably good meeting with Acting President Putin on 
everything except Chechnya where they basically see this as a 
major terrorist threat and do not see it in the way that we do 
which is the horrors that have been visited on the civilian 
population there.
    I think though something I think that earlier Congressman, 
Chairman Gilman had talked about where were we going with 
Russia. I think the very important part here with Russia is to 
realize that we have a large relationship with them which 
includes a number of facets and that it is to our national 
security benefit to have them to get them to reform 
economically. Therefore, whatever steps we take need to be 
viewed from that regard and I believe that it is a huge mistake 
to try to recreate a Russian enemy. That is easy enough. What 
we need to do is manage our relationship with them. I think the 
U.N. actually is involved. They have just sent an assessment 
team there. I have talked to Foreign Minister Ivanov yesterday 
about giving greater access to that U.N. team as well because 
of your interest in OSCE to make sure that the OSCE mission as 
they agreed to in Istanbul would be able to go in.
    Mr. Bereuter. The time of the gentleman has expired. The 
gentlelady from Georgia, Ms. McKinney is recognized.
    Ms. McKinney. Thank you, Mr. Chairman. Madam Secretary, I 
have two questions. In my hands I have a press release dated 
February 15th, yesterday, issued by Roberto Geriton, Special 
U.N. Human Rights Representative to the Democratic Republic of 
Congo. The Geriton report is on the situation in the Eastern 
Congo. He is concerned about the situation of Monsignor 
Archbishop of Pukafu. He says that many human rights 
organizations are now speaking of the cruel and inhumane 
treatment occurring to citizens under the territorial control 
of RCD Goma and RCD ML, factions under the control of our 
allies, Uganda and Rwanda. He goes further to say that if the 
allegations against our allies in the Tori District, they 
constitute crimes against humanity. He demands that the 
detainers of Monsignor Catalico explain his whereabouts and why 
he has been arrested. He further states that they must open an 
investigation into the massacres that have taken place under 
their control and they must have their troops respect the 1949 
Geneva Convention stop conducting the areas under their control 
as if they have seceded from the country such as the adoption 
of a new flag other than the Congolese flag which is recognized 
internationally and to let the Congolese under their control 
participate in a national dialogue as is stipulated in the 
Lusaka Peace Agreement.
    Madam Secretary, I requested a briefing yesterday from the 
State Department to know what the U.S. has done to emphasize in 
more than rhetorical terms to our allies that their invasion of 
Congo is unacceptable, that the United States stands with the 
rest of Africa and not with them, that de facto partition of 
Congo is unacceptable and that their continued presence is 
creating ethnic hatred heretofore unknown in the Congolese 
context.
    Unfortunately, yesterday I did not get satisfactory answers 
to my questions. In fact, I learned instead that we still have 
a military relationship with these countries, that we have not 
yet voiced our concern about the situation of the Archbishop of 
Bukavu and that we continue to cover up and make excuses for 
our successive policy failures with respect to this region.
    Madam Secretary, can you tell me how your stewardship of 
the Great Lakes peace will be any different than the failed 
policies of the past that seemingly have abetted the current 
climate of ethnic hatred, genocide, revenge genocide, crimes 
against humanity and the violation of international law?
    My second question is could you tell me what you are doing 
to help settle outstanding law suits that have been filed by 
African American employees against the Voice of America?
    Secretary Albright. On the first question, let me say that 
I think you were present in New York when I chaired the meeting 
at the Security Council with the heads of State that were 
intimately involved with the problem of the Congo and how to 
really carry out fully the Lasaka Accords. I believe that we 
have done a great deal in order to try to deal with the 
horrible situation in the Great Lakes region and are trying to 
work with the parties which is why we have been requesting a 
support for a peacekeeping operation in Congo. And the human 
rights problems that you have raised, we have raised also and 
will continue to do so.
    Ms. McKinney. Madam Secretary, the State Department has not 
yet issued any statement at all on the situation of the 
Monsignor. We have had the Vatican to release a request that he 
be returned to his people. What is the State Department willing 
to do to secure the release of the Monsignor?
    Secretary Albright. I will raise the issue when I get back 
to the Assistant Secretary and I appreciate very much your 
profound interest and knowledge of the region and I thank you.
    On the other issue, Congresswoman, I will have to look into 
it. I do not know the answer. I will get you an answer on that.
    Mr. Bereuter. Thank you, gentlelady. The gentleman from 
California, Mr. Rohrbacher is recognized for 5 minutes.
    Mr. Rohrbacher. Thank you very much and Madam Secretary on 
issues like Ms. McKinney just raised on human rights issues and 
issues that may seem local to some people are of great 
importance to all of us. We pay close attention to that, 
especially when a Member like Ms. McKinney has spent 
considerable time and effort to try to do some good in places, 
some far away places.
    Madam Secretary, a prelude to my question is that last week 
communist China repeated their threat to consider the use of 
force against our democratic friends in Taiwan. They also 
received a warship from Russia capable of firing a nuclear 
tipped missile at an American aircraft carrier, thus posing a 
serious threat to the lives of thousands of American military 
personnel. They continue to arrest and without trial, send to 
labor camps thousands of people whose only crime is some sort 
of a meditation exercise program, the Faulun Gong. They have 
arrested an 80-year-old Catholic bishop and continue in their 
genocidal policy in Tibet. Yet this Administration has 
repeatedly come before this Committee and described communist 
China as America's strategic partner.
    On the other hand, the Administration severely reacted to 
tiny Austria, a democracy where civil liberties are practiced. 
They attacked Austria because a conservative party with a 
platform that is based against illegal immigration is a serious 
concern to those people. In a free election where a 
conservative party received a majority of votes, unfortunately, 
the year that party made some statements which were admittedly 
detestable yet for being concerned about illegal immigration 
and making statements for which he apologized in the past, and 
being part of a free election, this Administration has come 
down really hard on Austria. While the Austrians, as I say, 
this Austrian leader apologized for those statements that he 
made in the past, the communists have never apologized for any 
of their brutality. In fact, they continue to rub our noses in 
their human rights violations and their transfer of weapons of 
mass destruction to rogue states. They are apologizing for 
nothing. Worse, they use the profits from an economic 
relationship where we have established the rules, they have 
enormous profits, billions of dollars of a trade surplus, they 
are using that to buy even more weapons from Russia which will 
potentially pose a threat to many thousands of American 
military personnel.
    Now to compare the condemnation that we had in Austria, to 
democratic Austria, because of a concern about illegal 
immigration and yes, some detestable statements made years 
before that were apologized for, the comparison shows that 
there is something totally out of sync, out of proportion with 
this Administration's foreign policy. And I would like to know 
how you as the spokesman for the Administration's foreign 
policy can justify this totally out of proportion situation 
where we continue to call communist China our strategic partner 
and then come down hard on the people of Austria.
    Secretary Albright. Let me say that as far as China is 
concerned we have said that in the future it might be nice to 
have them in a strategic relationship with us. We do not 
believe that they are a strategic partner at this time. And let 
me just say that our concern with China is very large in terms 
of human rights. I have already stated that we are moving in 
the Human Rights Commission to condemn China and I have done 
that a number of times in public fora as well as to their face 
and I will continue to do that.
    At the same time I believe that we are involved in an 
appropriate policy to try to engage with China on areas of 
trade where they have access to our markets and we do not have 
access to theirs. Therefore it is to America's advantage to 
move forward on having a trade relationship with them never 
forgetting what our basic values are. And I can assure you we 
can all be criticized on many things, but I would not accept 
criticism on my record on human rights.
    The second issue on Austria, let me say there is a 
difference here. This is a country that has been a functioning 
democracy that has a leader who not way in the past, but quite 
recently has made, I think, repugnant statements that he thinks 
he can apologize for one day and then make a slightly different 
version of the next. In my response to Congressman Lantos I 
think I explained what the overall problem here is in terms of 
our concern with the rise of extremist right wing parties in 
Europe. I think there is no reason or way to compare our policy 
toward China, a country of 1.2 billion people that is a major 
power in the region that we need to engage with, to our 
condemnation of some of the actions in Austria, where we have 
not cut off relations we are just making clear that we believe 
that the steps they have taken, and including the Freedom Party 
and the government, does not promote democracy.
    [Mr. Gilman presiding.]
    Mr. Rohrbacher. Thank you, Madam Secretary, and I am very 
happy to hear that we no longer consider China our strategic 
partner as we have heard before this Committee on numerous 
occasions.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Rohrbacher.
    Mr. Hoeffel.
    Mr. Hoeffel. Thank you, Mr. Chairman. Madam Secretary, 
thank you for being here. Many of us in Congress are trying to 
help constituents collect judgments that have been entered in 
U.S. courts against foreign countries who have been sponsoring 
terrorism. Joe Siscipio who comes from my district in 
Pennsylvania and who is here with us today was held for 5 or 6 
years in Lebanon by Iranian terrorists. He has a U.S. court 
judgment against Iran, but he cannot collect. So I have a two-
part question under the Berman rule. Number one: What can the 
State Department or what has the State Department done to help 
American citizens collect their judgments entered in U.S. 
courts against terrorist nations? Secondly, I understand that 
the Treasury Department has a fund that is building that they 
are holding for Iran related to U.S. diplomatic use of Iranian 
buildings here in this country and that rent is being paid, I 
think through the State Department. The fund is being held by 
Treasury for the day that relations are normalized between this 
country and Iran. Could that fund be used eventually to pay 
U.S. citizens for judgments against Iran? Who controls that 
fund? Does Congress have to act? Does State control it? 
Fundamentally, what can we do to help our U.S. citizens that 
have these judgments that cannot presently be paid?
    Secretary Albright. Let me say that we have been very 
concerned about those individual cases where American citizens 
have somehow been victimized by states that support terrorism 
and we are trying to be of assistance in terms of how to 
resolve these. We are prepared to work with these families to 
identify unblocked Iranian assets to help satisfy the judgments 
they have received, but we have to do it in some way that does 
not harm our overall foreign policy interests. And let me just 
say that one of our problems here is that we stand the danger 
of exposing our own diplomatic facilities abroad to similar 
actions by other states if we somehow make our diplomatic and 
consular property available. I know this has been one of the 
suggestions that what the Iranians have had here could somehow 
be attached and it then violates some of the obligations that 
we have under the Vienna Convention on diplomatic and consular 
relations.
    We have been looking at various funds. They somehow are all 
controlled in--they have various specifications with it, but I 
can assure you this is a subject that is high on our agenda and 
we are trying to figure it out in a way that the families can 
be assisted, but at the same time we do not undercut some of 
our international obligations that then expose us to problems 
with other countries.
    Mr. Hoeffel. Can I continue to work with your office to try 
to get this judgment paid?
    Secretary Albright. Yes sir.
    Mr. Hoeffel. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. 
Secretary Albright, it is always a pleasure to have you with 
us.
    Madam Secretary, I have three questions related to the 
issue of Cuba, first, regarding the Elian Gonzales; secondly, 
regarding the POW program known as the Cuba Program where 
Castro agents were sent to Vietnam in 1967 and 1968 to torture 
our American POWs; and the third has to do with the Lourdes 
intelligence facility in Cuba.
    Regarding the Elian Gonzales case there has been a lot of 
contact between the State Department and Castro officials since 
November of last year regarding the case of Elian Gonzales. I 
would like to ask if there are any commitments that our 
government made to the Castro regime or if any assurance has 
been given to the Castro regime regarding Elian Gonzales and 
why there has been so much diplomatic contact from our 
government with the Castro regime since our government says 
that this is purely an INS matter. Regarding the INS 
jurisdiction on this, they have, as you know, refused to grant 
the opportunity of Elian to file for political asylum and we 
know that that court hearing is pending in just a few days. 
Does the State Department no longer consider the Castro regime 
to be a totalitarian regime that violates human rights and if 
we do label them as such why is Elian Gonzales not being given 
the opportunity to file for political asylum?
    Secondly, about the Cuba program, I wanted to ask whether 
you will continue to press the Vietnamese on this issue and if 
you would instruct Ambassador Peterson who is our former 
colleague to pursue this matter. Will you give us the 
commitment that you will do the same with the Castro regime to 
press him on this in order to bring about these tortures to 
justice?
    And thirdly, on the Lourdes intelligence facility with the 
Russian President, have you mentioned to him or raised the 
issue of Lourdes with him? This is an intelligence facility 
that you know is based on Cuba. It continues to pay $200 to 
$300 million a year to the Castro regime for this Lourdes 
facility whose mission is to spy on American citizens for 
military, political, possibly commercial and now we think 
perhaps technological uses. Have you had the opportunity to 
mention this to the Russian President and will you continue to 
press him on this issue?
    Thank you, Madam Secretary.
    Secretary Albright. Thank you. First of all, on Elian 
Gonzales, let me just say that from the very beginning I think 
that we have all been concerned about his well being and have 
sought to insure that the process of reaching a decision in 
this case was undertaken in a very deliberate and considered 
manner. As far as the Department of State is concerned, our 
primary role has been to communicate with the government of 
Cuba and facilitate contact between the INS and Elian Gonzales' 
father, that is what we have been doing and it is basically an 
INS issue. And what we have done is we issued a visa to the two 
grandmothers to facilitate a visit, but this is a case that is 
currently before the Federal District Court and we are awaiting 
the outcome on it. But I think that our main concern here is 
that the child's well being be considered and that the U.S. 
Government has determined this to be a case not about custody, 
but about surviving parents' parental rights. One of the other 
issues is that were there a similar case to that of Elian 
involving an American child abroad, the Department of State 
would expect the foreign government to return the American 
child to the surviving parent wherever that parent may be. And 
I would just point out that just like the case here about 
victims that sometimes are issues about how we protect 
Americans in a similar problem has international repercussions.
    On the Vietnam issue, on October 29th last year, Ambassador 
Peterson personally asked the Vietnamese government for any 
information regarding any foreign personnel, military or 
civilian, who may have participated in the interrogation of 
American prisoners during 1967, 1968; their duties and who 
authorized and funded their participation or presence in the 
prison camps where Americans were held. And the Vietnamese 
promised to research the matter and we have not yet received a 
final answer. We will be in touch with Ambassador Peterson 
again on it.
    On the Lourdes issue, I think that here it is a matter, it 
is an issue of intelligence and not subject to commenting on in 
public and if you want your staff to be in contact, we will get 
you a classified briefing on it.
    Ms. Ros-Lehtinen. Thank you so much, Madam Secretary.
    Chairman Gilman. The gentlelady's time has expired. Thank 
you, Ms. Ros-Lehtinen.
    Ms. Danner.
    Ms. Danner. Thank you, Mr. Chairman. Welcome, Madam 
Secretary, we are pleased to have you here with us today. In 
the supplemental budget for the Year 2000, the President has 
asked for $624 million for Kosovo. At the same time we know 
that when the Senate Armed Forces Committee met an issue came 
to light that the Pentagon had reached into other budgets to 
the tune of $2 billion and taken it out of those other assigned 
areas and put it into Kosovo.
    On both sides of the aisle, over in the Senate, Democrat 
and Republican alike, they questioned the fact that our allies 
are not coming forward with their fair share to--and let us see 
what they said, the United Nations, the European Union and 
other international agencies are not living up to their 
commitments to rebuild the local economy. This has cost us $2 
billion that we have spent on deployment of troops.
    My question is what are we going to do to recoup that $2 
billion or the fair share of it with regard to burden sharing 
so that those dollars go back into the Pentagon budget where 
they are very much needed?
    Secretary Albright. I think there is some confusion here. 
The $2 billion was for military operations, as I understand it, 
and the allies contributed a share of that. What we are 
concerned about at this point is to make sure that the civilian 
operation is fully funded and there have been questions that 
were raised, I believe, by Senator Warner on this subject and 
we think that the Europeans need to pay their fair share.
    The way that it is set up now, the Europeans' share of all 
foreign assistance to Kosovo was 66 percent in FY 99 and they 
have pledged 76 percent of the total for this fiscal year. The 
United States, because of our military capabilities, I think 
there is no doubt that we took the lead in the military part of 
the Kosovo campaign and the Europeans are supposed to take the 
lion's share of the part in the civilian. I have been in touch 
with all the foreign ministers of the countries involved and 
said that they need to come forward with their pledges. It is 
very important. But I think, Congresswoman, the thing that we 
have to remember is it is thanks to the United States and NATO 
that 800,000 or so people in Kosovo did not freeze to death or 
were not tortured or did not suffer the kinds of horrible 
things that were happening a year ago at this time. And I think 
we should be very proud of what we have done in order to try to 
change the situation in Kosovo. We have a great deal left to do 
and I for one am very proud of what our military has done and 
what our civilians are doing there now. I would hope very much 
that the Europeans, in fact, could do their share which needs 
to be larger than ours because we did the lion's share in the 
military part.
    Ms. Danner. Well, to follow through on that the Ranking 
Member, Democrat Carl Levin of Michigan echoed this same 
dissatisfaction and said and I quote, ``I am mystified why our 
NATO allies are not providing more police in their own 
backyard.'' So this was coming from both sides of the aisle, 
not just from Senator Warner, but from Senator Levin as well. 
And once again, I think that in light of the fact that our 
defense budget has gone down proportionately, I think that it 
is very important that we be assured that there is proper 
burden sharing. I certainly agree with you regarding the social 
inequities that have existed in Kosovo and what our military 
has been able to do and that is very well and wonderful, but of 
course, the same thing could apply to Africa where we have not 
gone into. Thank you.
    Secretary Albright. Let me just say that you are absolutely 
right on the civilian police issue. We believe that the 
Europeans need to come forward with larger amounts of civilian 
police. The United States has been contributing to that, but 
the Europeans need to do that. Again, this is a subject that I 
raise all the time. And I do believe with Senator Levin that 
something needs to be done here and we are working on it, but I 
do think that we need to have a sense of great pride.
    Ms. Danner. Thank you.
    Chairman Gilman. Thank you, Ms. Danner. Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. In light of the 
Chairman's instructions concerning time constraints here I 
would like to submit a letter concerning U.S. relationship with 
Khazakstan. I know Mr. Burton raised Khazakstan as well in his 
remarks and I would ask for your attention, Madam Secretary, 
and a response in the near future if you would not mind, 
please, doing that.
    Secondly, last October this Committee held a hearing on the 
implementation of the Hague Convention on the civil aspects of 
international child abduction. It was one of the most 
educational hearings that I have attended in my 5 years in 
Congress and as a father it was one of the most emotionally 
disturbing. And as a Member of the Congress, it was one of the 
most frustrating hearings that I have sat through, certainly as 
any Member who listened to the incredible, painful stories told 
by the parents of abducted children, you could not help but 
walk away from the proceedings with a sense of anger. My 
comments after the hearing is it really made your blood boil.
    I have had the opportunity over the last several months to 
listen to and talk with some of the parents who have been 
victimized by international child abduction. I have become 
quite familiar with the case of one individual, Mr. Tom 
Sylvester from Cincinnati that I represent whose daughter 
Carina was abducted by her mother in 1995 and taken to Austria. 
We have heard Austria come up several times in this hearing 
today and she remains there today. Since that time, Mr. 
Sylvester has faced roadblock after roadblock in his efforts to 
be reunited with his daughter. During this entire ordeal as 
your Department will readily agree, Tom Sylvester has played by 
the rules. He has followed the law. As Assistant Secretary Ryan 
said in her testimony to this Committee and I quote, ``He 
believed in the system.'' Well, if Mr. Sylvester has lost his 
faith in the system, it is certainly understandable and he is 
not to be blamed for that because the system has failed him 
miserably. It has denied him a happy life with his little girl 
who is an American citizen. She was born here.
    During our hearing last fall, there was considerable 
discussion as I recall about a recent Reader's Digest article 
entitled, and I quote the name of the article, ``America's 
Stolen Children, Why Has Washington Turned Its Back on 
Thousands of Abducted Kids?'' That article detailed efforts by 
American parents of abducted children to enlist their 
government's assistance in their quest to see their children 
returned home. Many of those parents believe that their 
government has let them down.
    My colleague, Ohio Senior Senator Mike DeWine, makes this 
point and I quote, ``We go after countries that steal our 
products or violate patent or copyright laws, but not when they 
are supporting the theft of American children. What does that 
say about us as a country?''
    Now Tom Sylvester noted and I will quote Tom, ``Austria 
forsakes international relationships for the sake of its 
nationals whereas the United States forsakes its nationals for 
the sake of international relations.'' He tells of a 
conversation that he had with his former wife who abducted the 
child and now resides with the child in Austria and she said, 
``Tom, the difference between us is that my government protects 
me.'' Those words, Madam Secretary, were very troubling to me 
and I asked our witnesses in October if they could assure me 
that diplomatic niceties would not stand in the way of bringing 
these American children, these American citizens back home and 
I will ask you the same question. I am very frustrated by our 
government's inability to resolve these cases and I am 
wondering if there are not stronger actions that we can take in 
the diplomatic arena to return some of these stolen children to 
their parents. What kind of pressure can we bring to bear on 
countries like Austria and Germany and others that continue to 
thumb their noses at American citizens who have had their 
children stolen? Has the State Department even considered 
taking action that might deny any benefit these offending 
nations might receive in the relationship with the United 
States?
    And finally, Madam Secretary, Tom and Carina Sylvester need 
your help. Their government has let them down, I believe. I 
know I can speak for my colleague from Cincinnati, Congressman 
Rob Portman as well when I say that we would be willing to sit 
down with you and with Mr. Sylvester at any time in any place 
to work on bringing a happy ending to this terrible case. By 
personally engaging in this issue, you would help to build a 
bridge to all the other parents who need our help and you would 
be sending a strong message to all those governments who 
consistently stonewall our efforts to bring our children home. 
And I hope we can count on you for your active help in this 
matter.
    Could you comment, Madam Secretary?
    [Mr. Bereuter presiding.]
    Secretary Albright. Congressman, let me say as a mother and 
grandmother I am as appalled as you are by these kinds of 
things and frustrated. I think that the welfare of American 
children abducted from the U.S. by one of their parents is a 
high priority item for our Department and Attorney General 
Reno. I have both of us been frustrated by this and we have a 
policy, the two Departments, State and Justice, have created a 
policy group and asked for a detailed action plan to improve 
the Federal response to the problem of international parental 
child abduction and our Office of Children's Issues chairs an 
interagency working group coordinating the implementation of 
the plan.
    Over the past year we have doubled the number of staff in 
the Department dealing with these cases so that each child's 
case receives more attention and we can be more responsive to 
the left behind parents. We have entered into another agreement 
with the National Center for Missing and Exploited Children 
which increases its assistance to children and parents in cases 
of children abducted abroad.
    We have, in fact, placed new emphasis on outreach and 
prevention activities. We have sent officers throughout the 
country to meet with parents and lawyers and judges and we are 
instituting a tracking system. I raised earlier when I was 
asked about Elian, this is exactly why we have to be careful in 
the way that issue is dealt with because it could have even 
further implications when it is American children that we are 
trying to deal with. I will be very happy, Congressman, to look 
at this personally and in my discussions with the Austrian 
government, such as they are at this moment, I will raise that 
question.
    Mr. Chabot. Thank you. Can we follow up with a meeting with 
you, Madam Secretary?
    Secretary Albright. Yes.
    Mr. Chabot. Thank you.
    Mr. Bereuter. The gentleman from New York, Mr. Crowley, is 
recognized for 5 minutes.
    Mr. Crowley. Thank you, Mr. Chairman. Welcome, Madam 
Secretary, it is good to see you again. I have one question, 
three parts. A and B I am going to ask first and then C, if 
there is time left. [Laughter.]
    Madam Secretary, Fiscal Year 2001 budget request, I notice 
that you requested $50 million in ESF and $400,000 in IMET 
funding for Indonesia, $135,000 in IMET money for Yemen; 
$75,000 in IMET for Chad as well as funding a host of other 
countries that do not have diplomatic relations with Israel. In 
1994, Rep. Hamilton had language included in State Department 
foreign relations Fiscal Year 1994-1995 and authorization bill 
that stated the Secretary of State should make the issue of 
Israel's diplomatic relations a priority and urge countries 
that receive U.S. assistance to establish full diplomatic 
relations with Israel, Part A. Do you or does anyone on your 
staff have an update on implementation of this provision?
    The second question relates to the funding last year for 
U.N. family planning. Secretary Albright, as you know, I was 
disappointed last year that the Administration's decision to 
allow so-called Mexico City policy to be included in the 
omnibus legislation. I am not here to criticize the President 
and I want to make it perfectly clear I understand the issues 
that were bound last year. But this is a new year and we need 
to move on. However, I am concerned about the precedent that 
may have been set by allowing that to happen. Can you inform 
the Committee why the Mexico City policy that was included in 
last year's omnibus bill is bad for the U.S. policy and should 
not be repeated as well as your position on including such a 
provision again? And then I will get to C.
    Secretary Albright. On the first question, let me say that 
one of the issues that I have been working on as we move 
forward with the Middle East peace process is to try to get 
countries that do not have normal diplomatic relations or even 
contact with Israel to change their policies. And when, for 
instance, the new foreign minister of Indonesia was here he is 
someone who is particularly concerned about religious and 
ethnic strife and he himself is looking into this and I will 
give you an update, get you one. But this is very ch on my mind 
and is a part of creating a different atmosphere for Israel as 
it takes the risks for peace in moving through the peace 
process.
    On the whole issue of family planning, we believe that 
family planning saves lives and protects women's health and 
promotes healthy families and prevents abortions. I think that 
is a policy that fits well within our overall foreign policy 
that would like to see increasing stability and dealing with 
very serious problems throughout the world. Although family 
planning services are more widely available than ever, it is 
estimated that more than 150 million women in developing worlds 
still want to space or limit child bearing, but have no access 
at all to contraceptive methods. We believe for a number of 
reasons that it is suitable for American foreign policy to have 
those kinds of guidelines. I think we are asking for increased 
funding for population programs to $541 million that will 
return us to the FY 1995 levels and I think that that is a very 
important initiative and I will pursue that actively.
    Mr. Crowley. Thank you, Madam Secretary. The political 
process in Northern Ireland has taken some turns for the worse, 
most recently, and the British government has suspended the 
Northern Ireland power sharing executive. Such a drastic 
measure, I do not believe instills confidence in the Republican 
and national side of the aisle here. Now I realize there has 
been much criticism in the press lately and I think unfairly 
about the IRA and the decommissioning process even though the 
Good Friday agreement and the Mitchel review do not require 
actual decommissioning by any date, let alone May of this year. 
However, this turn of events does have me greatly concerned 
about the future of the peace process and the democratic 
institution of Northern Ireland. What is the U.S. government 
doing, if anything, to help the Northern Ireland assembly be 
reinstituted and what is your assessment of the peace process 
at this time?
    Secretary Albright. Well, first of all, let me say that the 
United States has put a tremendous amount of effort into this. 
Senator Mitchel, obviously, taking a lead, but President 
Clinton himself very much involved and talks are actually 
continuing today to resolve the impasse and try to restore the 
institutions including in London between the Irish and British 
prime ministers and with the various political leaders. We 
support these efforts and want to see the parties build on the 
offers made.
    It is really vital that all the parties exercise their 
creativity and their flexibility to restore the momentum toward 
the implementation of all aspects of the Good Friday accords. I 
think the saddest part about this is that the people have voted 
for peace and I think that the leaders need to really be 
flexible and creative and we will continue to work on this. The 
President is making calls, we all are, on the subject.
    Mr. Bereuter. Thank you. The gentleman from Texas, Mr. 
Brady is recognized for 5 minutes.
    Mr. Brady. Thank you. Welcome, Madam Chairman. I have two 
areas of cooperation I would like to bring up today. For you to 
do your job well, America's financial commitments have to mean 
something and those financial investments in peace and 
democracy are growing as we have seen. In Syria, we are looking 
at some very serious numbers for security and peace there. We 
have a number of the Latin American countries with billion 
dollar requests before us and those commitments will grow. The 
funding of Wye River last year was an example of how not to do 
that and how not to fund a very important investment. And so 
this year I would ask, just encourage the budget negotiators 
whoever are the big cheeses that squeeze the numbers are, to 
sit down early with Congress and work out a realistic 
responsible budget plan to give us the resources that we need 
to make our commitments good or out in the world.
    The second area of cooperation deals with one of your 
priorities, fighting international crime. The issue is 
extradition. And you may recall last year this Committee under 
the leadership of Chairman Gilman began an initiative to close 
safe havens for criminals who prey on Americans and then flee 
our country. The world is getting smaller. Crime is getting 
more sophisticated and in addition to violent crime, drug 
trafficking, cybercrime, money laundering and child abduction, 
we have treaties that our outdated. Half of them predate World 
War II. The ones before 1970 have extraditable offenses only 
that are listed and as you would guess in 30 years those crimes 
have become outdated. They are incomplete in that we do not 
have agreements with 40 percent of the world, in effect, we 
have safe havens--nearly half of the world is safe havens for 
our criminals.
    Your Department is going to identify, review the treaties, 
identify some of the factors that contribute to safe havens and 
take a close look at recommendations on how to close them. But 
I need your help in two areas. One, we need to better define 
the problem. Right now we are a bit poking at the fog and that 
the numbers are soft on how deep this problem is. The Justice 
Department estimates that we have 1500 criminals who have fled 
our country and that if history plays out only 1 out of 4 will 
ever be returned here to face justice. That leaves a whole lot 
of families without any justice, survivor's victims who need 
that justice. One, help identify the resources to better define 
the problem for us and then if your office will help us this 
year identify the financial and human resources to aggressively 
and update our existing treaties and establish those in 
countries in which we lack treaties, I will conclude with this. 
I am convinced that while this problem cannot be solved over 
night, it is complex, but there is some encouraging signs 
around the world that the rest of the international community 
understands that we have a common interest in closing these 
safe havens. For America to lead in this area the State 
Department, the Justice Department and Congress has to be a 
very thoughtful, deliberative, determined team to make this 
happen. Attorney General Reno has given us her commitment to be 
part of that team and I think there are a lot of families in 
America who would love to have your commitment to do the same.
    Secretary Albright. Congressman, first of all, on the first 
point about budgeting, we last year did have some supplementals 
and they, in fact, have brought our amount up to around $23 
billion for last year. That is why this year we asked for a 
budget that, in fact, would be realistic, would take into 
account the fact that we had obligations and that is why we 
have asked for a budget of $22.8 billion. But, and I say this 
because all of you have each raised some subject of interest. 
There is no way for us to be able to know where something is 
going to happen as an emergency at any given time. We need more 
flexibility within the State Department budget and trying--we 
are trying to get to a realistic budget number and not try to 
come in low and then expect supplementals. But I have to tell 
you there will probably be requests that we cannot foresee. But 
what we basically need is some more realistic budgeting and I 
appreciate your asking and making that statement.
    On the extradition issue, first of all within a larger 
context I think that the international community is much more 
aware of mutual obligations on issues of dealing with criminal 
activity and I find now in a lot of meetings where I am that 
there is just much more of a sense of our interdependence. On 
the extradition issues themselves, you have been really 
terrific in shining a light on this and we are working very 
hard as to how to pay close attention to developments in each 
country in identifying and resolving systemic problems. We do 
not want to see the safe havens.
    I can tell you that in most of my bilateral discussions 
where there are problems with extradition treaties I raise 
them, but we look forward to working with you on this because I 
think you are right.
    Mr. Bereuter. Several Members have indicated they have 
additional written questions for you, Madam Secretary. Without 
objection the record will remain open for 5 days to receive 
questions and statements for the record and Madam Secretary, I 
hope that you and your staff could give us some prompt replies.
    The gentleman from Massachusetts, Mr. Delahunt is 
recognized for 5 minutes.
    Mr. Delahunt. Yes, thank you, Mr. Chairman and let me 
express my admiration, Madam Secretary, for the fine work that 
you have done.
    Secretary Albright. Thank you.
    Mr. Delahunt. You will leave a remarkable legacy. In your 
opening statement, you reference the fact that Colombia was one 
of your target countries. Let me just ask a series of 
questions. I know time is limited. I have many more, but 
hopefully I can submit them in writing or secure some answers 
from your staff. As you are well aware, there is a large aid 
package that will be considered shortly by Congress. It is a 
considerable amount of money. Have there been benchmarks 
established to measure the efficacy of that assistance and 
could you give us estimates in terms of a time line and what we 
could anticipate in terms of a decline in the level of cocaine 
and heroin that would be coming into this country if this 
package, as it is presently configured, should pass this 
institution?
    Secondly, I am of the conviction that if we are going to 
accomplish something that is both significant, substantial and 
permanent in terms of reducing the flow of drugs from Colombia 
into the United States that stability is critical. To achieve 
stability, the peace process must be successful. I think that 
is the ultimate answer. And recently, as I am sure you are well 
aware, there have been some glimmers of hope. The major 
insurgency group, the FARC, along with representatives of the 
government have spent 10 days in Scandinavia and I am just 
going to quote some comments by FARC representatives, the 
government and Mr. Jan Egellan who is the U.N. Special Envoy to 
Colombia and presumably played a role in making that happen. 
And again, I am sure you are aware that he played a key role in 
the Oslo Accords. His statement from just several days ago, is 
``The whole trip was a breakthrough for building trust. It 
started with a total lack of confidence between the two sides 
and ended with growing trust.'' He said he was ``especially 
impressed with how open they were to address obstacles to 
peace.'' A joint communique from both sides, and again I am 
quoting, stated ``We are in need of an economic, political and 
social model that breaks away from corruption, drug trafficking 
and violence.''
    I am a realist. I understand that these are just simply 
words. But I would suggest there are some hopes. Are we 
monitoring the peace process? Are you aware of the--are you 
monitoring or have you been consulting with other governments 
and the United Nations in this regard? And if so, what are your 
impressions? And if there is substantial progress in terms of 
the peace negotiations, what does this signify in terms of the 
package? Is there flexibility if peace should break out in 
Colombia, God willing. I thank you.
    Secretary Albright. Thank you very much. Let me take this 
series of very important points that you have made and put them 
into context. When President Pastrana was elected, and even 
before he was inaugurated, he came to the United States and met 
with President Clinton. I think we were all quite inspired by 
his desire to move the process forward and had been working 
with him as he tried to figure out how to deal with the very 
important aspects: the peace process, how to deal with the 
narcotraffickers, his economic situation as well as how to deal 
with the paramilitary problems that he had. We had worked with 
him as he developed Plan Colombia and I have been very pleased 
with the way that the package has been put together because it 
has the support of the Colombian people and it deals with all 
these aspects. It is a comprehensive approach. The whole 
package is $7.5 billion and $4 billion of it is being 
contributed by Colombia itself and the European countries. 
There is going to be a donor's table in March that deals with 
this and the World Bank and the IMF have contributed. So there 
is really a sense that this is not just a problem for Colombia, 
not even just a problem for the Western Hemisphere because of 
the way narcotraffickers are now also moving into Europe.
    I went down to Cartegena about 3 weeks or a month ago, and 
met with President Pastrana and his team. Undersecretary 
Pickering is there now and we will be working with them very 
closely in terms of monitoring working with them and being 
supportive of them.
    I have also found quite remarkable the FARC trip around 
Europe. This is very encouraging because it is kind of a sign, 
first of all, that there is a way if people can be brought 
together to talk about this, but for another reason because 
there had been a sense, at least this is what I learned 
earlier, that the FARC did not want any kind of international 
involvement in all of this. I think this shows that the 
international community can, in fact, help.
    On the economic aspects of this package, it has been very 
carefully looked at to see what the system in Colombia can 
absorb in terms of assistance on developing new structures, in 
economic assistance, and the main issue that they have to deal 
with unfortunately is the narcotrafficking aspect of this. So 
$95 million of this is going to the police and then, because 
the police cannot protect itself as it goes into the southern 
region where the greatest coca growing is going on, they are 
going to be protected by the army. Again, when I was there I 
was quite interested in the Army and the police now working 
together and the Army that is going into that because we all 
have concern about human rights issues. There are two regiments 
going in that have been vetted case by case for not having any 
human rights abuses. We will try to measure what you have asked 
in what this does for coca production. All we know specifically 
is that our efforts in Peru and Bolivia were highly successful 
and that there are programs that can work, and believe me we 
are all going to put our effort into it.
    Mr. Bereuter. Thank you, Madam Secretary. There are nine 
Members in attendance who would still like to ask questions. 
The Secretary has extended her time until 12:30. Under House 
rules, I cannot unilaterally reduce the question period, so 
exercise restraint for your colleagues.
    The gentleman from California, Mr. Radanovich.
    Mr. Radanovich. Thank you, Mr. Chairman, and thank you for 
coming to visit with us, Madam Secretary.
    I have three countries, one question, two parts, so if you 
will beg my indulgence I do need to cover a few areas. First on 
Croatia, I applaud you for your decision to make the trip to 
Zagreb here and celebrate the swearing in of Croatia's new 
democratically elected president. I wish to work with you in 
supporting Croatia's desire to be a part of the Partnership for 
Peace Program, and perhaps NATO some day or even the World 
Trade Organization, so I applaud you for that effort.
    The next issue and the next country I would like to discuss 
is Armenia. During this hearing I especially want to associate 
myself with the comments made by my colleague, Mr. Lantos from 
California regarding the new fascist element that is emerging 
in Austria. Given that this is a current event, it now concerns 
me because the Administration's lack of willingness to 
recognize the extermination of 1.5 million Armenians that began 
in 1915, leads me to believe that your registered concerns with 
the country of Austria might be muted. Or, that in effect the 
Administration is soft on genocide policy as I view it and I 
would like you to comment on that. If I can load you up with my 
third country and second question concerning the country of 
Laos. As you know, General Vang Pow is in the audience and 
has----
    [Applause.]
    Forgive me, my concerns are regarding two Hmung American 
citizens, Michael Vang and Wa Lee. Michael Vang is a 
constituent of mine. I am aware that the Wa Lee family is here 
in the audience. I think we have most of the Hmung Americans in 
Washington, probably most of them in this room right now, as 
you just noticed, but finding out the disposition of the 
disappearance, and the circumstances related to it, for Michael 
Vang and Wa Lee raises grave concerns for me. We have gotten 
more information out of the FBI and CIA than we have the State 
Department. We have even learned of Codel's going into Laos and 
Thailand to seek more information on their disappearance, when 
the State Department has withheld evidence regarding the 
disposition of these two people.
    After meeting with the CIA and FBI I have recognized that 
it may be a long time before we find out their disposition and 
the circumstances regarding it. But what I find deplorable is 
that the State Department has not contacted the families of 
Michael Vang and Wa Lee and it has not been forthright in 
giving them any information regarding the details of what it 
knows, even up to this point. I would request, in fact, plead 
with you to contact those families and give them the 
information that you do know.
    Also, I am concerned that while this is occurring (and 
these are American citizens), that the Administration is 
pursuing normalizing trade relations with Laos. The way the 
State Department has handled this leads me to believe that the 
United States is pursuing the normalization of trade relations 
with Laos with such intent that you are willing to brush under 
the rug the disappearance of American citizens, saying that 
they were perhaps insurgents involved with interior affairs in 
Laos. My comment is that it should not be because that is one 
of the bloodiest communist regimes. We have gone Hmong in Laos 
that are disappearing sometimes hundreds of people by the day.
    So I would ask that you please contact those families 
directly and give them the information that you do know. I also 
ask that you not pursue normalizing trade relations while the 
question of their demise is still unknown. Thank you.
    Secretary Albright. Thank you. Let me comment on these, all 
the points briefly. On Croatia, I think that we have a huge 
opportunity to support this new government. I went there and I 
met with them just as the prime minister had come into office 
and I am very pleased to go to the inauguration. It is not 
without some difficulty since the Japanese are coming here and 
I have asked the Japanese foreign minister very kindly to see 
me on Sunday instead of on Friday and I am very grateful to the 
Japanese for having agreed. But I do think that Croatia--really 
not only for Croatia but for the signal it is sending to the 
other countries in the region--is very important and we will be 
looking at PFP WT--all the issues that you raised because as 
they are ready, I think we want to really be of assistance.
    Mr. Radanovich. Terrific.
    Secretary Albright. On Armenia, let me say here that as far 
as our dealing with the issue of what happened there, President 
Clinton has traditionally commemorated Armenian Remembrance Day 
(April 24th) by issuing a statement that mourns the loss of 
innocent Armenian lives and challenges Americans to recommit 
themselves to making sure that this does not happen again. He 
will do so this year.
    When we were in Istanbul for the OSCE summit we again, to 
both the Turks and the Armenians made very clear, and to other 
countries in the caucuses, that we can neither deny history nor 
forget it and we are confident that both Armenia and Turkey can 
seek normal relations. We are trying to figure it out in the 
context of the Ngarno-Karabach issue to deal with this. And we 
have--this is a subject, I can assure you, that is very much on 
our minds.
    On the issue of Laos, let me say I acknowledge that a 
number of your Members have made the importance of this issue 
very clear. We have not tried to hide information. On the 
contrary, we have extensively shared information with the 
families and with the Congress regarding our efforts to locate 
these two. There is a difference though, between sharing what 
we know and simply passing along unsubstantiated reports. In 
this case some highly contradictory reporting leads in a number 
of directions and investigators are unable to confirm any of 
the information. The State Department is the one that brought 
in the FBI and CIA so that we could get some help on this.
    I understand the importance of this and I will keep an eye 
on it and make sure that we pursue it. We are going to explore 
all investigative leads here.
    But I would like to generally answer a question because 
this has come up with a number of countries. I believe that it 
is essential for us to pursue individual cases whether it has 
to do with those who are suffering from terrorist acts or 
extradition or what you are saying, but I think we have to 
figure out the context in which we do it. So for instance, 
normalizing trade relations might be. If it is good for the 
United States, we ought to be doing it and hold various issues 
hostage. We need to pursue both angles and from our perspective 
I will do that.
    Mr. Radanovich. If I may just add, to my knowledge, Madam 
Secretary, and you may want to double check this, the families 
were told that they would be contacted by the State Department 
and have never been heard from since.
    Secretary Albright. We will check on it.
    Mr. Bereuter. The gentleman's time has expired.
    Mr. Radanovich. Thank you, Mr. Chairman.
    Mr. Bereuter. I would say to Madam Secretary we will honor 
your commitment to have you out of here by 12:30, but if you 
can make any kind of informal accommodations to gentlemen and 
ladies in attendance, but not called upon, they include Mr. 
Pomeroy and Mr. Wexler and Mr. Menendez, Mr. Rothman, Ms. Lee, 
Mr. Ackerman, Mr. Payne, Mr. Hilliard, Mr. Tancredo.
    And for the last minute or 2, the gentleman from 
California, Mr. Sherman is recognized.
    Secretary Albright. Let me just say I will stay.
    Mr. Bereuter. You will stay?
    Secretary Albright. Yes, sure.
    Mr. Bereuter. That is very kind of you. I am sure the 
Members appreciate it.
    [Applause.]
    Mr. Bereuter. Mr. Sherman, if you can try to give the 
Secretary an opportunity to answer on your 5 minutes she would 
probably appreciate it.
    Mr. Sherman. Madam Secretary, I want to join with those who 
have thanked you for your service to our country. I have a few 
comments followed by one question with one part.
    You commented on the importance of trade negotiations; (I 
think), that the sole or best standard for evaluating our 
success there is the balance of trade and we do have the 
largest trade deficit in the history of life on the planet. And 
I would hope very much that in our trade negotiations we do not 
focus exclusively on getting countries to change their 
published rules, but rather focus on real results measured by 
the balance of trade.
    I join with you in advocating higher levels of foreign aid 
by the United States around the world. I think it is in our 
interest, but I have to disagree with your argument that 
Americans are spending less on foreign aid than Europeans, the 
Japanese or other developed democracies. In fact, the American 
taxpayer in terms of providing for peace and progress around 
the world is the most generous taxpayer in the history of the 
world because we not only provide foreign aid, but we provide 
the security shield which does more for European security than 
all the armies of Europe, does more for Japanese security than 
its own military and does more to promote the values that we 
share with Japan and Europe than all of the militaries financed 
by their taxpayers.
    I note with regret that the budget submitted by the 
Administration cuts aid for Armenia by 27 percent and increases 
aid for Azerbejan by 77 percent, but I am confident that 
Congress will exactly reverse those ratios anyway. What 
concerns me to a greater degree is that when Congress does 
appropriate funds, I hope that your Department spends those 
funds effectively and expeditiously. We have appropriated funds 
for aid to Ngarno-Karabach and I have some concerns that those 
funds are not being disbursed expeditiously.
    I would also point out that those who advocate aid for 
Azerbejan must explain why the country--one that has so much 
oil wealth that they tell us that we must get on their good 
side because they are so politically important--needs economic 
aid. Only a very badly run government, sitting on so much oil, 
would need to ask for aid and would be unable to attract 
investment and to borrow money to deal with its own people.
    I would hope that your staff would provide some comments 
for the record in response to those comments, but I want to 
focus your attention on the 13 Jews in Iran who are imprisoned 
in Sharaz on trumped up charges of spying. Those charges are 
ridiculous because as you know, no Jew in Iran is allowed 
anywhere near anything of military significance.
    I want to thank you, Madam Secretary, for your strong 
statements about human rights in this regard. Three of these 
individuals have been released, but the other ten and perhaps 
even those three will face charges and trials under extreme and 
unfair conditions which could lead to the execution of some or 
all of these oppressed individuals.
    I note that the Japanese foreign minister is going to join 
you and I think that is fortuitous. My question for you is 
whether you believe that Japan and our other allies should 
continue to do business as usual with Iran to finance 
hydroelectric facilities in Iran while the Jews of Sharaz are 
facing these outrageous charges. Also, if it is important for 
Japan to issue a statement that if justice is not done and 
certainly if there are any executions that all such business as 
normal will cease.
    Secretary Albright. Let me just comment on a couple of 
things that you said before I get to the Iranian Jewish issue. 
Let me just say this, I do believe that American taxpayers are 
very generous, but we are all, as one of them, doing this to 
protect our national interest and what we do to support our 
military is in our national interest. But obviously our foreign 
assistance program--first of all, I think the word foreign aid 
should be banned--we are talking about aid that helps America 
and if we talk about the drug issue as we have been on 
Colombia, we want to make sure that our children are protected. 
So we could have a long discussion on this. We will provide for 
your additional comments.
    On the issue of the 13 Iranian Jews, I have been very 
actively speaking to our various allies and others about the 
importance of making the case to the Iranian government and I 
believe that they have been doing so. I am hoping that there 
will be some positive resolution on this. I will obviously 
discuss this with the Japanese foreign minister when he gets 
here. It is a concern to us and I have made this very clear, 
Congressman. I will continue to do so.
    Mr. Sherman. Thank you.
    Mr. Bereuter. The gentleman from Colorado, Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. Madam Secretary, I 
have a couple of questions about two countries, really, Sudan 
and New South Sudan. I recognize that most people do not 
consider them to be two countries, but I think in fact, 
culturally, politically, religiously, ethnically, every way you 
can think of them, they are. There are certainly two countries 
in my mind.
    As you know, Madam Secretary, the Foreign Ops 
Appropriations Bill for FY 2000 included language in Section 
592 which allowed for the President to provide food assistance 
to groups engaged in the protection of civilian population from 
attacks by regular government forces, associated militias or 
other paramilitary groups supported by the government of Sudan. 
The Appropriations Committee received the required report 
concerning this language last week from the President and was 
notified that the Administration at this time was not going to 
use such authority to provide food aid to opposition forces in 
the south.
    Madam Secretary, the United States has sought to take a 
policy of isolation and containment toward the terrorist regime 
in Khartoum. We have provided assistance through such programs 
as the U.N.-run Operation Lifeline Sudan and USAID's Sudan 
Transitional Assistance for Rehabilitation Program to people 
being affected by this conflict in both northern and southern 
Sudan. While we have sought to help those in need, we have not 
taken a hard line stance against those who are responsible for 
the almost 2 million dead, millions more internally displaced--
namely the government of Sudan in Khartoum.
    Furthermore, the militias which fight beside the government 
troops are responsible for the slave trade which is currently 
taking place in Sudan--responsible for turning young girls into 
concubines. It disturbs me that when we have given the 
Administration a chance to work to protect these people in the 
south from such slave traders and government troops and have 
supported the actions of the SPLM and others within NDA who 
stand guard against northern aggression, that we choose to 
stand idly by.
    Madam Secretary, could you please comment on the rationale 
behind this policy stance. Yesterday I participated in a 
hearing where Secretary Holbrooke (Ambassador Holbrooke) was 
testifying about the aggressive stance the United States is 
taking with regard to the Congo and our position in the U.N.--
the position on the Security Council in actually bringing 
forces to bear inside the Congo in order to eventually bring 
peace to that region and I certainly commend you. I commend the 
Ambassador. I do not understand, Madam Secretary, I truly do 
not understand how we can place so much emphasis in certain 
parts of the world on accomplishing a mutually agreeable goal--
peace--in that area, but so completely ignore the problems in 
Sudan and further ignore the actions of the Congress in trying 
to address them through the provisions of food aid to the 
south.
    [Mr. Brady presiding.]
    Secretary Albright. Congressman, I have spent a lot of time 
on Sudan and just yesterday met with Bishop Cassis who is a 
Roman Catholic bishop and has set up a whole network of schools 
in the south and is working on providing assistance to people 
in the south. I was appalled by things that he told me where 
the government in Khartoum is now deliberately targeting 
schools, according to what he said.
    Mr. Tancredo. And hospitals.
    Secretary Albright. And I agree with you completely about 
how outrageous this is. What we are doing is supporting 
something that is known as the EGAD process which would try to 
bring some kind of a comprehensive peace and we have now been 
getting to have a process that is more invigorated. I met with 
some of the SPLA leaders when I was in Nairobi. We are trying 
to work in terms of supporting civil society and civil 
governance in opposition controlled areas through something 
called STAR, the Sudan Transitional Assistance for 
Rehabilitation program. We are working very hard on what I 
consider one of the worst tragedies in Africa.
    When I was Ambassador to the U.N., I tried very hard to get 
sanctions against Sudan and could not get them. Multilateral 
sanctions. So this is an issue much on my mind. On the food 
aid, I think that we do not require this kind of authorization, 
frankly, and the President has not yet made a decision on the 
issue. We need to figure out how best to get assistance in 
what--one of the hardest problems on the issue of Sudan is kind 
of cross-cutting desires by various ways of looking at it. Do 
we provide humanitarian assistance? How much do we deal with 
the leaders in the south? How do we isolate the government in 
Khartoum? But believe me, I agree with you that it is one of 
the modern horrors and I tried to really work on it. I 
appreciate your interest and support.
    [Mr. Gilman presiding.]
    Chairman Gilman. The gentleman's time has expired. Thank 
you. Mr. Wexler.
    Mr. Wexler. Madam Secretary, on behalf of all the peons at 
the end of the row, thank you very much for sticking around. I 
would like to follow-on some of the remarks Congressman 
Gejdenson started with. I very much appreciate your 
acknowledgment of the important relationship, historically, 
between the United States and Pakistan. But certainly, as you 
know better than anybody, the linkage between Pakistan's 
current government and its terrorist activity is all but 
undeniable. Whether it be in the context of enabling terrorist 
activity or actually allowing it or encouraging it may be 
debatable. I was curious if you could share with us what 
conversations, what deliberations have gone on recently with 
respect to Pakistan's government involvement with terrorist 
activity. What assurances or what assertions have they made to 
you with respect to their involvement? In the context of the 
President's upcoming visit to India, have you suggested or 
outlined any benchmarks or criteria that the President will 
consider regarding whether or not he should include Pakistan in 
his visit in that region?
    Secretary Albright. Let me just say that we obviously, as I 
stated earlier, have the most concern about the fact that 
certain groups operate out of or within Pakistan and have had 
discussions with the Ushar government as we had had previously 
with the Sharif government. This is obviously with our concern 
about terrorism and the way that it affects the whole region. 
It is something that has been very important to us and we have 
been concerned about Pakistan's support for the Taliban who are 
in turn closely linked to Osama ben Lodin. So we are actively 
addressing these issues.
    We have, as I stated earlier, laid out the importance of 
the Musharif government moving back toward some kind of 
civilian democratic system supporting local elections, and 
grass roots democracy in Pakistan. The President has, as I have 
said, made no decision. And obviously, these are all aspects of 
our overall relationship. The President is going to India and 
Bangladesh and no decision has been made on Pakistan.
    Thank you.
    Chairman Gilman. Thank you. Mr. Mendendez.
    Mr. Mendendez. Thank you, Mr. Chairman and Madam Secretary, 
let me applaud you for extending your time. I know how busy you 
are and let me say that in the times that we disagree, I have a 
great deal of respect for your work in the service to our 
country.
    Having said that, let me say a few things that I disagree 
with you on. And one of them is your response--I was not going 
to raise Elian Gonzales, but I think where the Administration 
misses the point is that it is not about Elian and it is not 
about U.S.-Cuba relations. It is about what this country is 
going to do and I think it is setting a dangerous precedent for 
children who are fleeing oppressive regimes. In that context, 
that oppression could be political as it is in the context of 
Cuba. It could be religious. It could be ethnic. It could be 
racial. And whether it be an Albanian child in Kosovo or a 
Jewish child in Moscow of 1987 or Tehran of 2000, I think that 
we have to look at and differentiate what we do with children 
fleeing oppressive regimes, and yes, parental rights are very 
important, but that should also be coupled with the nature of 
the circumstances of the country we are sending that child back 
to. I think that is where a great deal of this debate has 
missed the point. And as an aside to that, I would hope that we 
would be as vigorous in pursuing the Castro regime on American 
families that he divides by not granting them exit visas when 
the United States has granted visas to those families for 
family reunification. He holds himself out to be the great 
provider, the great defender of family rights and yet he 
continuously divides families by not granting them an exit 
visa.
    But the major point I wanted to raise with you is with 
reference to Latin America. For the last 8 years, both your 
predecessor and yourself when you have come before the 
Committee I have vigorously urged that the Department consider 
increases in the development assistance and economic support 
funds for Latin America. I know the constraints of the budget, 
however, the Administration's own requests remain far, far 
below the level that would reflect a genuine interest by the 
United States government in the region. If we want to stop 
illegal immigration, if we want to do something about cementing 
the democratic foundations that we spent billions of dollars in 
the 1980's to create, if we want to do something about 
preserving the rain forests and the biodiversity issues that 
affect us here in the United States in terms of environment, if 
we want to do something about, truly do something about the 
narcotics issue, then we have to begin to seriously look at the 
hemisphere in which 50 percent of the people live below the 
poverty level and think about economic support funds.
    We now come to the debate on Colombia where we are talking 
about $1.6 billion and probably working very late in the 
process. Had we along the way been dealing as we heard from the 
leaders of the countries that came to Congress last week to the 
drug summit, what did we hear each of those leaders where the 
Administration talks about success saying? Assist us in 
economic development support funds so that we can ultimately 
create sustainable development outside of the narcotics-
producing products. And yet, that has fallen on somewhat deaf 
ears.
    So I would hope that the Administration and the Department 
would work with us, particularly as the Colombia package moves 
forward, in creating a Latin America development fund. I mean 
the Department has often come here and said well, that might 
create a ceiling for you. We are just trying to maintain the 
floor underneath our feet in this process because it is the one 
place that continuously gets drained. And we believe that this 
is a good time.
    And lastly, we hope and we appreciate your commitment and 
work with the Congressional Hispanic Caucus on the question of 
diversity issues, but we are alarmed that this budget 
eliminates the line item for minority recruitment. We do not 
see how that ultimately promotes the interest of meeting that 
diversity.
    Chairman Gilman. Thank you.
    Secretary Albright. I think I have already said on Elian's 
case, it is a case in court and that I think is the comment 
that I make on it at this time.
    On the question of support for Latin America, let me say 
that generally I would like to see us have a larger pie. We 
need to have more money. We have stated that here. I would be 
very pleased to pursue that. I also am very concerned about the 
fact that we have been celebrating Latin American democracy, 
but each of the countries in one way or another has a variety 
of threats to that because of the economic situations within 
them. And I would very much like to have more, there is no 
question. But I think as I listen to all of you, everybody has 
their part of the world and what this says to me is we need a 
bigger pie and we operate within the constraints that we have 
and when people think that 1 percent of the budget is too much, 
that kind of causes me to pause and hope very much that we 
could all get our act together to be for a larger budget, 
generally, on that.
    And on the diversity issue, let me just say that I think we 
are moving in the right direction on this and the authorizing 
bill did earmark $2 million. We are spending it and we are 
trying to see some positive results. It is something that I am 
committed to as Secretary of State.
    Chairman Gilman. Thank you, Mr. Menendez, the gentleman's 
time has expired. Mr. Rothman.
    Mr. Rothman. Thank you. Madam Secretary, it is always a 
great pleasure to be with you and thank you for agreeing to 
stay. I think history will record your service here as 
Secretary of State as being one of the most effective and 
competent Secretaries of State we have ever had.
    I am going to list about ten issues, but I only want to 
talk about one. Northern Ireland, Armenia, North Korea, Iran, 
Iraq, Colombia, Wei Og, Cyprus, Pakistan, strategic oil reserve 
to help the Atlantic Coast States bring down the price of home 
heating oil prices, Cuba. Those are subjects I am interested 
in.
    It is a marvel how you know so much about a hundred times 
this list, but I suppose that is what it takes to be Secretary 
of State.
    Nonetheless, I want to talk about Syria. And I wanted to 
take this opportunity to rant a little bit about Syria and then 
hope that you will pass the message on to Mr. Assad. The 
message is that I am and I believe the American people are 
disgusted and outraged at the way he continues to behave as a 
brutish thug of a dictator and the murderous individual that he 
is. He is obviously not concerned about the well-being of his 
own people since he has kept his people under a totalitarian 
thumb--his--for decades. They are between 30 and 50 years 
behind the rest of the western societies in their development 
because of his rule. He has used innocent men, women and 
children in his own country, in Lebanon and Israel and the 
surrounding region as pawns willing to sacrifice them, to 
slaughter them or to see that they are slaughtered to serve 
some political power objective of his own which serves only 
himself to keep him as the total supreme dictator, without 
regard to the well-being of even his own people.
    His latest effort to use (to reintroduce) terrorism as a 
tool in his negotiating kit, to achieve to some end that I know 
not is abhorrent, is immoral. To use the Lebanese and the 
Israelis and to sacrifice those men, women and children, 
soldiers and civilians alike for some unknown purpose. He could 
have peace today with Israel on terms that any reasonable 
individual, knowledgeable about the history of the region could 
accept. He could have had it 10 years ago, 20, 30 years ago. 
And I would like you to pass a message on to that thug 
dictator, ruthless individual, Mr. Hafez al Assad, that the 
United States Congress and the American people will not forget 
his behavior. I do not care what it is like in his neighborhood 
where he can use the slaughter of innocents to prop himself up 
and then hope the next day because of some power relationship 
or of some monied interests we will all forget about it. The 
American people and the United States Congress will not forget 
his immorality and his ruthlessness and his failure to come to 
terms and make peace in that region. Particularly, his failure 
to make peace with America's number one ally in the region (not 
just strategic), the State of Israel who has often been likened 
to a democratic aircraft carrier in the midst of the Middle 
East, a strategic friend of the United States. We will not 
forget and if peace occurs later than sooner that will be just 
as long as we remember it, however long we will add to our 
memory and it will inure to not only him, but to his son. We 
will not forget the way Hafez al Assad is failing to achieve 
peace in the region and we will hold him accountable and his 
son accountable and his people accountable and they will 
suffer.
    Secretary Albright. Could I just comment with one sentence 
which is that the late Prime Minister Rabin said that you make 
peace with your enemies and not your friends.
    Chairman Gilman. Thank you, Mr. Rothman, the gentleman's 
time has expired.
    Mr. Payne.
    Mr. Payne. Thank you very much. I too would like to 
compliment you, Madam Secretary, for the outstanding work that 
you have been doing. I think that your team that you led at the 
United Nations with Ambassador Holbrooke in the month of 
January and his chairmanship of the Security Council bringing 
in President Mandela, dealing with the Burundi situation, 
having the seven heads of state from Central Africa together to 
talk about the peace process, having Vice President Gore speak 
at the U.N. on the crisis, the pandemic of HIV/AIDS and of 
course, your presiding at that meeting of the presidents, I 
think set a fine tone to the United Nations. It sends a message 
that the United States is, in fact, now becoming more engaged 
in Africa and it has high priority. So I would like to commend 
you for the leadership you have shown and your team, Dr. Rice 
and all the others who have been doing an outstanding job. 
Secondly, I would also like to mention the Summit on Africa 
where you will be participating and I think that Administration 
support for this very important week meeting is also important 
as we move into this new millennium talking about the problems 
of the world.
    I do want to say that I am a bit disturbed that the food 
aid Mr. Tancredo talked about, the possibility of having 
assistant food aid outside of OLS was rejected by the 
Administration. We think that the people are entitled to food, 
and the government of Sudan is still bombing. Sixteen children 
were killed by the Nuba Mountains just a day or 2 ago by the 
anti-Nnasada dropping bombs on civilian people, and the 
government does not seem to want to change. We are also 
disappointed that gum arabic was allowed again by the corporate 
people that want to use the product in their products that they 
produce and that we are not going to hold up the ban on gum 
arabic. Also disturbing is that I hear there is a possibility 
of our embassy opening in the Sudan. I would hope that that is 
not true because I think if moves are made by a country then we 
should have a carrot and stick approach. Therein you basically 
give accommodations for some positive signs, but I think it 
would be a move in the wrong direction because Sudan has 
actually increased its brutality toward its people with 
slavery, as we have heard from Congressman Tancredo. So I would 
like to know what we intend to do there. Just quickly, if you 
could tell me in a nutshell the status of the Ethiopia-Eritrea 
crisis around Botomma and where the OAU framework stands 
relating to either country approving it; the prospect of the 
peacekeeping in both the DRU and the Sierra Leone and finally, 
the surprise coup d'etat. I mean it was not a surprise to me, 
but many countries around the world and in Africa were 
surprised that there was a military coup d'etat on Christmas 
Eve in Cote d'Ivoir, that President Bethier was overthrown, and 
that General Gay is now in charge.
    Do you see that country moving toward elections in the near 
future?
    Secretary Albright. Congressman, I want to thank you very 
much for the cooperation that we have had, I think, in moving 
forward on the Africa agenda and I am very pleased with the 
kinds of actions that we have taken. We had a session on Africa 
in the Security Council 2 years ago at the ministerial level. 
We have continued that up there, and I think this January was a 
very important continuation in our attention to Africa at the 
United Nations.
    I believe that to move back from the bottom up here on 
Ethiopia-Eritrea, we obviously have been very concerned about 
the lack of resolution and the fact that the OAU framework has 
not been followed up. Tony Lake is on his way back there. I 
also am very concerned about an imminent food crisis famine in 
Ethiopia again and we have bene talking to AID about making 
sure that assistance--food assistance--is prepositioned.
    On Sierra Leone, we have asked for an increase in the size 
of that peacekeeping operation because it needs to be really 
enlarged to effectively do its job. I think of the various 
terrible things that I have seen in Sierra Leone: I went to a 
clinic--to reach out to shake hands with somebody and then not 
have a hand at the end of it is quite a stunning sign of the 
horrors there.
    On Congo, we are asking for a peacekeeping operation there, 
as you know, and we believe that it is essential that we 
support that, because Congo is not only large, but it is 
surrounded by nine countries. It is essential that we really 
participate in that as Congressman McKinney made the point.
    On Sudan, I find this one of the most troubling situations. 
As I said, there is no easy answer to this in terms of what 
process to support, how to make sure that in ordering 
assistance to one group of people, it is not cut off from 
somebody else, how the SPLA operates, how we support the EGAD 
process, how we should deal with the Khartoum government, and 
if we should even see whether there is something going on in 
the Turabi Bashir arguments.
    So we are looking at all of this with Dr. Rice who is a 
leader in that, and we will keep you informed on it. And I just 
want you to know that there is no lack of attention to it, but 
there is difficulty in dealing with the various aspects of it 
that are quite confounding to all of us, and we appreciate 
cooperating with you on it.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Payne.
    Madam Secretary, we want to thank you for your patience and 
your generosity with your time. Let me make one final point, 
Madam Secretary. One of the hallmarks of your tenure at the 
helm of the Department of State has been your steadfast 
protection of the prerogatives of your Agency. It is in that 
regard that I would like to rise to you my concern about the 
recently signed declaration of principles for defense equipment 
and industrial cooperation between the U.S. and the U.K. That 
agreement which, as you know, is not legally binding, was 
negotiated between our Department of Defense and the British 
Ministry of Defense. Neither the State Department nor any other 
U.S. agencies with equities in that document were involved. 
That makes me even more nervous when I understand that it is 
the intent of DOD to engage in similar negotiations with 
Australia, with France, the Netherlands, Germany and some other 
countries. That agreement itself is full of verbiage which goes 
to the heart of your responsibilities, so let me particularly 
note my concern about the language on export controls. I do not 
support a blanket munitions exemption for licenses for the U.K. 
That declaration is the latest manifestation of the so-called 
globalization efforts of our good friends over at the Pentagon. 
I have significant reservations about those efforts and I hope 
you do too. As the Administration winds down I strongly urge 
you to stay engaged on that subject and I can assure you that 
the Pentagon, even with the departure of John Hamry, is 
proceeding full steam ahead.
    Secretary Albright. Well, let me say this is an issue that 
I have been involved in. I think the process needs to be one in 
which the State Department does not give up any prerogatives 
and I thank you for raising it.
    Chairman Gilman. And again, we thank you, Madam Secretary, 
for your being with us.
    We will now conclude our hearing, Madam Secretary, Members 
and we will immediately reconvene into a brief business meeting 
pursuant to notice, very brief. I will ask our Members to 
remain in their seats and at this time we will consider our 
Committee's views of estimates on the President's Fiscal Year 
2001. And Madam Secretary, thank you again.
    Secretary Albright. And I would like to thank you and the 
Members for all your kindness and your kind words about what I 
have done.
    Let me just say that I have been many things in life, a 
Senate staffer, a professor and a talking head, and a campaign 
advisor, and a wannabe, and all kinds of things, and I try very 
hard in my daily work because I now have the responsibility to 
subject my views to a reality check. Through it all I believe I 
have been a consistent supporter of the goodness of American 
power based not only on our power, but on our principles and 
values, and I thank you very much for your help.
    Chairman Gilman. We are very proud of your work, Madam 
Secretary.
    [Applause.]
    Secretary Albright. And I still have 11 months to go.
    [Whereupon, at 1:04 p.m., the Committee was adjourned.]




                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Prepared Statement of the Honorable Madeleine K. Albright, Secretary, 
                        U.S. Department of State

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Responses by the Department of State to additional questions submitted 
 by the Honorable Doug Bereuter, a Representative in Congress from the 
                           State of Nebraska

                           Biosafety Protocol
Question:
          Included in the Biosafety Protocol is a ``precaution'' 
        provision which gives foreign nations the right to bar imports 
        of any biotechnology product they say might be a threat to the 
        environment or safety. Does that mean that no sound scientific 
        reason is needed to bar the import of American biotech 
        commodities? Already, we find the European Union and others 
        prohibiting the import of American commodities that the U.S. 
        Food and Drug Administration has asserted are as safe as 
        conventional crops. Given the very broad latitude of this 
        provision, what assurances do we have that this provision will 
        not be used as a new protectionist barrier against U.S. 
        agricultural products?
Answer:
    The Biosafety Protocol's language on precaution does not, in any 
way, condone a departure from science-based decision making nor does it 
authorize decisions contrary to a country's WTO obligations. The 
precaution language must be understood in the context of the Protocol's 
science-based risk assessment provisions. Moreover, the Protocol's 
precaution language is conditioned by a provision which clearly states 
the Protocol does not alter a country's obligations under other 
existing international agreements, such as the WTO agreement.
    The precaution language in the Protocol basically states the truism 
that countries' regulatory systems often have to act on the frontiers 
of knowledge and in the absence of full scientific certainty, yet this 
language is part of a science-based approach to regulation, not a 
substitute for it, and it sets no new legal standard.
Question:
          The EU has not approved any U.S. agricultural biotech 
        products since the Spring of 1998 despite the fact that many 
        products have already cleared EU scientific reviews. As a 
        result, U.S. corn farmers have already lost over $200 million 
        for each of the last two years in sales. More recently, the EU 
        has threatened to limit up to $800 million in U.S. corn based 
        products because they may contain GMO varieties still 
        unapproved in Europe. Does the Administration have a short-term 
        game plan to resolve this issue?
Answer:
    The Administration is actively engaging the EU in order to gain 
reasonable market access for U.S. agricultural exporters. We are trying 
to encourage responsible regulatory approaches worldwide that address 
concerns effectively without unduly disrupting global food trade. 
Achieving this careful approach was also our goal in negotiating the 
Biosafety Protocol.
    In addition to engaging the EU government directly, the 
Administration's strategy also includes three other aspects. First, we 
have a public diplomacy effort to educate the EU public regarding the 
potential environmental and health benefits associated with 
biotechnology. Second, we are actively resisting EU efforts in 
multilateral fora to establish as a principle of international law and 
practice their so-called ``precautionary principle,'' including on food 
safety issues in the OECD and Codex Alimentarius. Third, we are 
participating in science dialogues between the EU and US. These efforts 
include working with the EU on biotechnology issues through the U.S.-EU 
Senior Level Group (SLG) dialogue and consultative forum of eminent 
stakeholders. We hope both the forum and the SLG will raise confidence 
in biotechnology, leading to greater acceptance of our agricultural 
products.
    Opening agricultural markets in the EU remains an important issue 
for this Administration as we understand farmers and exporters require 
and deserve predictability and fair treatment in trade systems. We will 
continue to press for an expeditious resolution, yet we are aware that 
the EU public continues to have significant concerns regarding the 
risks of biotech products.
Question:
          Given the new ``precaution'' provision in the Biosafety 
        Protocol, how do we intend to successfully address our 
        legitimate GMO trade concerns if the EU simply invokes this new 
        ``precaution'' clause citing its self-determined safety 
        concern--a concern which, in accordance with the protocol, does 
        not have to be based on sound science?
Answer:
    The precaution language in the Biosafety Protocol does not 
authorize or encourage capricious action. Further, the Protocol 
includes a clause that states the Protocol is not meant to affect a 
country's other existing international rights and obligations, such as 
those relating to the WTO. Moreover, the precaution language must be 
understood in the context of the Protocol's science-based risk 
assessment provisions.
    That said, no agreement can prevent countries from trying to 
justify regulatory decisions that are not science-based. However, the 
Protocol's language on precaution does not, in any way, replace 
science-based decision making nor does it authorize decisions contrary 
to a country's WTO obligations.
                               __________
Responses by the Department of State to additional questions submitted 
  by the Honorable Matt Salmon, a Representative in Congress from the 
                            State of Arizona
Question:
          At the heart of the Oslo process lies the basic, irrevocable 
        commitment made by Arafat that, in his words, ``all outstanding 
        issues relating to permanent status will be resolved through 
        negotiations.'' A declaration of statehood outside of Oslo 
        would, and again I quote from the House and Senate-passed 
        resolution, constitute a fundamental violation of Oslo and 
        would introduce a dramatically destabilizing element into the 
        Middle East, risking Israeli countermeasures, a quick descent 
        into violence, and an end to the entire peace process.''
Answer:
    During their recent visits to Washington Prime Minister Barak and 
Chairman Arafat reiterated their commitment to conclude a Framework 
Agreement on all permanent status issues as soon as possible, and a 
comprehensive agreement by September 13, 2000. Both sides are working 
seriously and intensively, and President Clinton came away from his 
meetings with Prime Minister Barak and Chairman Arafat with a sense 
that both were committed to moving forward rapidly to reach agreement. 
After two serious, productive, and intensive rounds at Bolling Air 
Force Base in Washington, the negotiations will resume in Eilat.
    We have told both sides that all permanent status issues should be 
resolved through negotiations and that we oppose any unilateral action, 
including a unilateral declaration of statehood, that prejudges the 
outcome of those negotiations.
Question:
          Will the Administration abide by H.Con. Res. 24 and refuse to 
        recognize a unilaterally declared Palestinian state? What 
        action is the Administration prepared to take regarding the 
        renewed effort by the Palestinian authority to declare a state 
        outside of negotiations with Israel?
Answer:
    We have told both sides that all permanent status issues should be 
resolved through negotiations and that we oppose any unilateral action, 
including a unilateral declaration of statehood, that prejudges the 
outcome of those negotiations.

           Palestinian Terrorists Who Have Murdered Americans
Question:
          Why has the Administration failed to post even a single 
        reward in the cases of the Americans murdered by Palestinian 
        terrorists in Israel?
Answer:
    We take very seriously the need to bring to justice the individuals 
responsible for the death and injury of American citizens in terrorist 
incidents in Israel, the West Bank and Gaza. And we understand the 
concerns of the victims' families and their supporters who suggested 
that the Department of State offer rewards and publicize them on the 
Department's REWARDS FOR JUSTICE webpage.
    We are working actively to determine the best strategy, including 
the possible use of rewards, which would advance the ongoing 
investigations of these cases and protect other interests of the United 
States.
Question:
          What is your reaction to the rash of anti-Semitic statements 
        issued by the Syrian press and top Syrian officials? Do you 
        believe any real peace talks can take place while the Syrian 
        press and Syrian officials continue to slander and libel 
        Israel?
Answer:
    I have categorically condemned Syrian anti-Semitic statements and 
stressed their unacceptable nature. We have repeatedly noted to our 
Syrian interlocutors that these kind of defamatory statements are 
offensive, and have an extremely negative impact in the U.S. More 
important is the deleterious effect on public opinion in Israel, which 
in turn complicates an already difficult search for peace between those 
two countries.

            Costs of a Peace Treaty Between Israel and Syria
Question:
          Although there is a current pause in negotiations, could you 
        share with us your estimates regarding the costs that were 
        discussed with the Israeli team of an Israeli-Syrian peace 
        treaty and what would be the US role in it? Also, did Syria 
        have similar talks regarding an aid package and what would be 
        your reaction to a Syrian request for an aid package, either 
        civilian or military, taking into consideration the fact that 
        Syria appears since 1979 regularly on a list of countries which 
        the State Department identifies as supportive of international 
        terrorism and its part in the latest escalation in Lebanon? 
        Given the difficulties surrounding the Wye River Package last 
        year, what do you think will happen if a peace agreement is 
        reached this year?
Answer:
<bullet> LThe U.S. strongly supports a negotiated peace between Israel 
and Syria. Although negotiations are currently at a pause, we are doing 
everything we can to encourage the parties to advance the process.

<bullet> LUnder the present circumstances, it is premature to discuss 
possible assistance to Syria in the context of a negotiated peace 
agreement. It is simply too early to enter into a speculative 
discussion on this issue.

<bullet> LIt's true that Syria remains on the U.S. terrorism list, and 
it is therefore precluded from receiving direct U.S. government 
assistance. We have made it clear what Syria needs to do to be taken 
off the list.

<bullet> LWith respect to Israel, while there will undoubtedly be major 
security costs in any future peace agreement with Syria, it is too 
early to assign a price tag to such an agreement or to speculate about 
the contribution of the U.S.

<bullet> LWe recognize that Congress needs to be involved at an early 
stage and will consult closely with you before any commitments are 
made.
                               __________
Responses by the Department of State to additional questions submitted 
  by the Honorable Kevin Brady, a Representative in Congress from the 
                             State of Texas

                   EX-IM Bank Tyumen Oil Transactions
Question:
          Madame Secretary, I was pleased to learn in your testimony 
        that the State Department is fully supportive of the work of 
        our trade promotion aqencies including the Export-Import Bank. 
        Controversy has arisen in the past regarding possible Ex-Im 
        loans in Russia, particularly regarding a $500 million loan 
        package for that country's troubled oil industry. I understand 
        that the Department expressed some ``rule of law'' concerns in 
        regard to this project and I would like to hear the current 
        status of your review of the project. I understand that there 
        are some Texas-based companies who are getting worried that 
        further delays on this project could lead to the export of 
        American jobs to foreign contractors.
Answer:
    On March 31, I revoked a Chafee determination that had put a hold 
on two Ex-Im loan guarantees benefiting a Russian company, Tyumen Oil 
(TNK). On April 6, Ex-Im approved the loan guarantees. Last December, I 
had asked Ex-Im to delay approval of the guarantees until we could 
investigate some serious allegations concerning abuse of investor 
rights by TNK in a bankruptcy case. My decision reflected the high 
priority we attach to the rule of law in Russia. I later determined 
that it was appropriate to allow the loan guarantees to proceed when 
the parties to the bankruptcy case took substantial steps towards a 
satisfactory resolution, and the Russian Government undertook to 
address the underlying broader problems. The Administration was in 
close touch with U.S. companies affected during the period the 
guarantees were on hold.
                               __________
Responses by the Department of State to additional questions submitted 
  by the Honorable Dan Burton, a Representative in Congress from the 
                            State of Indiana

                                Colombia
Question:
          A. Recent press reports indicate President Pastrana will 
        refuse to extradite a FARC leader who gave the order to murder 
        three American NGO human rights workers a year ago. Has our 
        Administration protested this arrogant declaration, or is there 
        even any concern on your part?
          B. How can President Pastrana expect to get an aid package 
        from the U.S. when he has said he will protect a known murderer 
        from extradition to America?
          C. Is the Administration considering withholding the aid 
        package until President Pastrana guarantees he will extradite 
        this murderer when captured?
Answer:
    The Department of State is very concerned about all aspects of the 
murders that occurred last year. Our understanding from the Government 
of Colombia is that President Pastrana did not/not say (as the 
Associated Press article claimed) that he would not extradite the FARC 
leader who allegedly gave the order for the March 4, 1999 murder of 
Ingrid Washinawatok, Terence Freitas, and Lahe'ena'e Gay, the three 
U.S. citizen NGO workers. We understand that President Pastrana did say 
that the FARC leader would be tried and punished in Colombia. The FARC 
leader has not been detained and remains at large, presumably with his 
unit in Colombia.
    The USG is very satisfied with the cooperation we have received 
from the Government of Colombia, and President Pastrana in particular, 
on the matter of extraditions, especially for narcotics related crimes. 
The GOC in November 1999 extradited two Colombian nationals to the U.S. 
on international narcotics trafficking charges. There are about 50 more 
cases pending. We expect continued cooperation on these cases that will 
lead to additional extraditions.
Question:
          Has there been any progress on the status of the three New 
        Tribes Missionaries kidnapped by the FARC over seven years ago?
Answer:
    In October 1999, acting on a tip from a FARC defector, Colombian 
military and forensic experts excavated a site in northwestern Colombia 
where it was alleged that the men's remains were buried. The search 
turned up no evidence of any remains, but Colombian authorities are 
continuing to investigate. The GOC has been very responsive to our 
requests for assistance on the case of the three New Tribes Mission 
members, Dave Mankins, Mark Rich, and Rick Tenenoff, who were kidnapped 
by the FARC on January 31, 1993. We understand the Government of 
Colombia will conduct similar searches when presented with other 
possible sites.
Question:
          How much of the 1997, 1998 & 1999, 506(a) drawdown equipment 
        has been delivered to the Colombian National Police?
Answer:
    All of the equipment from the 1997 drawdown has been delivered with 
the exception of 125 flight-crew survival vests, which are expected to 
be shipped in April, 2000. Deliveries to the CNP from the 1998 drawdown 
are complete with four exceptions. None of the binoculars from the 1998 
drawdown have yet been shipped. Partial deliveries of UH1H spare parts, 
Meals-Ready-to-Eat and field/flight equipment from the drawdown have 
been made. The remaining portions of gear and MREs are expected to be 
shipped on February 28, 2000. The equipment from the 1999 drawdown has 
not been shipped.
Question:
          When will the remaining 506 items be delivered?
Answer:
    The Administration is working to get the items down to Colombia as 
quickly as possible. Deliveries for three items remaining from the 1997 
and 1998 drawdowns should be completed in March and April, 2000. 
Deliveries of items from the 1999 drawdown will begin shortly.
Question:
          Has the .50 caliber ammunition shipment, initially delivered 
        to the State Department, reached the CNP yet, or is it still 
        sitting somewhere in the U.S. awaiting shipment to Colombia?
Answer:
    The 50,000 rounds of .50 caliber ammunition that State obtained for 
use in training the Colombian National Police on the GAU-10 system was 
not delivered to the State Department. The truck transporting the 
ammunition was misdirected to the Department by the shipping company. 
When it arrived, it was redirected to its proper destination and the 
ammunition arrived at the CNP hangar on January 13. 10,500 rounds were 
used in training and there are approximately 37,000 rounds left.
Question:
          Is the floor armor standard for a UH-60 Black Hawk 
        helicopter?
Answer:
    There is no DOD standard floor armor for the UH-60. The floor armor 
in the CNP Blackhawks has been fabricated to provide maximum coverage 
and to meet the Army's 25 ``G'' crashworthiness specification for all 
internal aircraft elements.
Question:
          Why did the State Department order the wrong size floor 
        armoring when they knew what kind of helicopter it was to be 
        put on?
Answer:
    The State Department did not order the floor armor. The floor armor 
was one of the ``mission kits'' that Sikorsky was required to provide 
under its State Department-financed contract with the U.S. Army for the 
CNP Blackhawks. Sikorsky subcontracted the requirement to Protective 
Materials, Inc. Problems with the armor are being worked out between 
those two firms in coordination with the U.S. Army and the State 
Department.
Question:
          Why did it take an extra 100 days to get weapons and floor 
        armoring delivered to go on the CNP Blackhawks when the money 
        was available at the same time funds for the helicopters was 
        available?
Answer:
    The delivery schedule for the armored floor ``mission kit'' 
resulted from Army/Sikorsky negotiations of the contract for 
modification of the Blackhawks. The dimensions of the armor could not 
be determined until all configuration issues were resolved. The 
Department was advised on July 9, 1999 of the July 2 Colombian National 
Police decision to purchase GAU-19 miniguns for the Blackhawks. 
Engineering analysis to determine the exact location of ammunition 
cans, gun mounts, etc. had to be conducted before a template for the 
armor could be developed.
    Acquisition of weapons could not commence until the CNP reached a 
decision on how many of which types of miniguns to buy. As these 
weapons are not ``off the shelf'' items, manufacturers' production 
schedules dictated the delivery schedule.
Question:
          Why would the State Department let the CNP Black Hawks fly on 
        missions (after leaving them grounded for 100 days initially) 
        without floor armor, thus endangering the lives of the CNP 
        officers on board and risking the aircraft being shot down?
Answer:
    While the Department has provided the Blackhawks to the CNP, it is 
the CNP who decides when and for what purpose the aircraft will be 
used. The aircraft were not ``grounded'' and were available for a wide 
variety of operations as soon as they arrived. The State Department 
neither suggested nor concurred in the CNP operational employment of 
the Blackhawks.
Question:
          How much experience handling FMS cases and equipment 
        procurement does the current NAS officer in charge of ordering 
        equipment for the CNP have?
Answer:
    The NAS logistics advisor has over 15 years of experience with FMS 
cases and equipment purchases.
Question:
          Did you call Secretary of Energy Bill Richardson in 1999 and 
        ask him to create a job for Linda Shenwick?
Answer:
    No.
Question:
          If you did not call Secretary Richardson, who did?
Answer:
    In the spring of 1999, the Department engaged in settlement 
negotiations with Ms. Shenwick's attorneys, mediated by the Office of 
Special Counsel. It was the Department's understanding in these 
negotiations that it was important to Ms. Shenwick that she remain in 
New York City. Accordingly, the Department concentrated its efforts on 
developing settlement offers involving New York City jobs. Department 
officials and representatives of the Office of Personnel Management 
contacted federal agencies that had a presence in New York City to 
ascertain whether or not they had vacant SES positions or a need for an 
additional SES position in their agencies. The Department also explored 
detailing Ms. Shenwick to another federal agency or to a non-
governmental organization in New York City, and offered to negotiate 
terms by which it would support Ms. Shenwick for a mutually-agreeable 
position in the United Nations.
    Deputy Assistant Secretary for Personnel Alex De La Garza called 
his counterparts in the Department of Energy, requesting them to 
consider whether they would be interested in creating an SES position 
in that agency in New York City for Ms. Shenwick. The Director General 
of the Foreign Service and the Director of Personnel, Edward W. Gnehm, 
Jr., made a follow-up call to Secretary Richardson to make him aware 
that the Department had approached his staff with this request. The 
Department of Energy created an SES position as senior Program Advisor 
to the Director of the Environmental Measurements Laboratory, 
Department of Energy, in New York City. The Departments of State and 
Energy solicited the views of the Office of Personnel Management 
regarding the newly-created position. OPM reviewed the position 
description and concurred in writing with the Energy Department's 
determination that the position met the criteria for placement in the 
SES. OPM also observed in that letter that placement of Ms. Shenwick in 
this position fostered executive mobility, a key goal in OPM's 
strategic plan:

        [e]xecutive mobility is a good way to promote executive 
        learning. Executives who are mobile have a broad perspective on 
        Government-wide issues. Their fresh insights can contribute to 
        better management of agency programs and ultimately enhance our 
        Government's ability to successfully deal with the challenges 
        of the 21st century. Fostering executive mobility is a key goal 
        in OPM's strategic plan, and we appreciate the Department's 
        [Department of Energy] support of this initiative.

Ms. Shenwick, however, rejected this offer and terminated the 
settlement negotiations.
Question:
          Did the State Department offer to transfer a SES slot to the 
        Department of Energy to cover the Shenwick transfer?
Answer:
    Yes. Although a transfer of an SES slot is done by OPM, and not 
directly between the Departments of State and Energy, the Department of 
State was willing to give up one of its SES positions (a net loss to 
the Department) in order to achieve a settlement agreement with Ms. 
Shenwick.
Question:
          Did the State Department offer to fund that slot for five 
        years?
Answer:
    No. The Department agreed only to provide one of its SES slots to 
facilitate the offer. The Departments of State and Energy sent a letter 
to the Office of Special Counsel in which we underscored the 
unconditionality of this offer:

          The Department of Energy has unconditionally offered an SES 
        position to the Department of State employee, Linda Shenwick. 
        The Department of State will release one of its SES allocations 
        to the Office of Personnel Management who will allocate it to 
        the Department of Energy for the purpose of facilitating this 
        offer.
          No conditions between the two Departments attach to the 
        unconditional offer to Ms. Shenwick. Specifically, the 
        Department of State has not promised the Department of Energy 
        that it will provide the Department of Energy with funding, 
        including any [missing copy ????]
Question:
          What was the total amount of funding the State Department 
        offered to the Department of Energy for Linda Shenwick's SES 
        slot?
Answer:
    None. The Department agreed only to provide one of its SES slots to 
facilitate the offer. The Departments of State and Energy sent a letter 
to the Office of Special Counsel in which we underscored the 
unconditionality of this offer:

          The Department of Energy has unconditionally offered an SES 
        position to the Department of State employee, Linda Shenwick. 
        The Department of State will release one of its SES allocations 
        to the Office of Personnel Management who will allocate it to 
        the Department of Energy for the purpose of facilitating this 
        offer.
          No conditions between the two Departments attach to the 
        unconditional offer to Ms. Shenwick. Specifically, the 
        Department of State has not promised the Department of Energy 
        that it will provide the arrangement under the Economy Act, in 
        return for its offer of a senior position to Ms. Shenwick.
                                 russia
Question:
          In early 1998 President Clinton stated ``Today, there is not 
        a single Russian missile pointed at America's children.'' Is 
        this statement accurate? Are you aware of any Russian strategic 
        exercise being conducted to simulate nuclear attacks on the 
        United States?
Answer:
    The President's statement was and remains accurate. He and 
President Yeltsin agreed to de-target their respective missiles in 
1994, and there has been no change in that arrangement. De-targeting is 
not a panacea; the missiles in question can be re-targeted. Exactly how 
quickly is classified, but I believe it would be a matter of minutes, 
not hours. Nonetheless, we are pleased that other nations have now 
adopted this practice; for example, the United States and China agreed 
not to target each other in June of 1998. Such moves can only make the 
world a safer place.
    As for strategic exercises, Russia has greatly reduced its 
strategic forces over the last few years, and continues to reduce 
further. Nonetheless, the forces that they plan to retain are 
maintained, kept secure, and occasionally exercised, albeit with less 
frequency than in the past. We have seen nothing in terms of Russian 
exercises lately is inconsistent with their de-targeting commitment or 
their strong and active commitment to continuing the process of 
reductions under the START treaties.
Question:
          Why do Russians oppose our proposal to develop tactical, 
        theater and strategic ballistic missile defenses? Do they 
        genuinely feel threatened by them, or is their opposition 
        merely a tactic to keep us from seeing to our own defense?
Answer:
    The Russians do not oppose U.S. programs for tactical or theater 
ballistic missile defenses (TMD). The Russians acknowledge the 
increased threat from theater ballistic missiles, and are developing 
TMD systems themselves. In September 1997, the U.S., Belarus, 
Kazakhstan, Russia, and Ukraine signed agreements that help clarify the 
distinction between ABM systems limited by the Treaty and TMD systems 
that are not constrained by the ABM Treaty, per se.
    The Russians oppose U.S. deployment of a National Missile Defense 
(NMD). An NMD system would be prohibited by the ABM Treaty, which 
includes an explicit agreement ``not to deploy ABM systems for a 
defense of the territory of the country''. The U.S. and Russia agree 
that a modification of the Treaty would be required to allow NMD 
deployment. Russia currently opposes such a modification to the Treaty.
    Russia's concern about our NMD proposals can be summarized in four 
main arguments:

          (1) The current ABM Treaty limits are critical to progress in 
        strategic arms reductions. A deployed U.S. NMD system, they 
        argue, prevents Russia from further strategic arms reductions, 
        and might require them to increase the numbers or quality of 
        their weapons.
          (2) Removing the ABM Treaty limits on territorial defense 
        calls into question the quantitative basis of strategic 
        stability in all other strategic arms control agreements 
        (START, INF, etc.), and may require that Russia reconsider all 
        of them.
          (3) Because the proposed U.S. NMD system could be, in the 
        Russian view, rapidly expanded to pose a greater threat to 
        Russian deterrent forces, even a limited system is unacceptable 
        today. In their view, the development of a broad sensor suite 
        that covers all trajectories from Russia to U.S. provides a 
        significant base for a system that could threaten their 
        deterrent forces.
          (4) The risk of ballistic missile attack to the United States 
        from the ``states of concern'' does not warrant deployment of a 
        national missile defenses. Rather, they argue that a 
        combination of deterrence and non-proliferation efforts could 
        limit the risk from these nascent long-range missile 
        capabilities.
Question:
          To what degree should we be concerned about Russian-Chinese 
        initiatives to forge their own ``strategic partnership'' in 
        opposition to what the Russians call a unipolar world and the 
        Chinese call ``hegemonism,'' but which in either case means a 
        deliberate program of reducing US power and influence?
Answer:
    In general, we welcome the development of peaceful, constructive 
relations between Russia and China. Their improving relationship has 
led, for example, to resolution of long-standing border issues and the 
reduction of military forces within close proximity of each-other, 
which we believe is in their interest and ours.
    At the same time, we are well aware of some of the challenges posed 
by this relationship. In particular, we closely monitor military 
cooperation (including arms sales) between the two countries. And, of 
course, we are alert to instances where China and Russia share--and may 
coordinate--positions in opposition to those of the US. We believe, 
however, that both Russian and China take essentially pragmatic stands 
and, indeed, that they continue to have important differences in their 
perceived national interests. Thus, we do not see their contacts as 
necessarily posing any fundamental challenge to U.S. interests in the 
region or globally.
    Finally, we seek better relations with both Russia and China 
through engagement on a wide range of issues. our policy is aimed at 
encouraging the integration of both Russia and China into the 
international economic system, while attempting to promote their 
adoption of market-based economies and democratic values. We believe 
that continued engagement with both countries will have a constructive 
and direct impact on how they approach the U.S. and the world.

                      Cuba: Fernando Garcia Bielsa
Question:
          Madame Secretary I am disturbed by reports that as the White 
        House was preparing to grant clemency to 16 imprisoned 
        terrorists, it pressured the State Department to grant a visa 
        to a notorious Cuban intelligence operative, named Fernando 
        Garcia Bielsa in 1999. This visa would allow Mr. Garcia Bielsa 
        to work under diplomatic cover at the Cuban Interests Section 
        just blocks from the White House. Ironically, Mr. Garcia Bielsa 
        is a high-ranking Cuban Communist Party official in charge of 
        supporting the very terrorist groups to which the prisoners 
        belonged.
          Reports allege that President Clinton asked the State 
        Department to issue a visa to him in spite of the evidence in 
        intelligence reports linking him with the FALN, and other 
        groups. I was particularly impressed by reports that the FBI 
        strongly objected to granting a visa to Mr. Garcia Bielsa. Yet, 
        apparently when the State Department pressured the FBI, the 
        bureau dropped its objections.
          It has been reported that Fernando Garcia Bielsa serves as 
        the Chief of the American Department of the Cuban Communist 
        Party Central Committee. The American Department, known by its 
        initials DA, has a long tradition of being Castro's main 
        instrument for coordinating terrorism in the Western 
        Hemisphere, including agent-of-influence activity and support 
        for Puerto Rican terrorism against the U.S.
          Madame Secretary, although I did receive a response to a 
        letter that I and four other members of Congress sent you on 
        September 30, 1999 noting our sincere concern about these 
        reports, can you please give me an update on the status of Mr. 
        Garcia Bielsa?
Answer:
    A visa was issued to Mr. Garcia Bielsa on February 7. We have been 
informed that Mr. Garcia arrived in the United States on March 6.
    The decision to issue Mr. Garcia Bielsa a visa was reached in 
accordance with applicable laws which provide for consultation with and 
concurrence from appropriate law enforcement agencies. We did not 
disregard the information the FBI provided us concerning Garcia Bielsa. 
However, the FBI withdrew its initial objection to Garcia Bielsa's 
posting to the Cuban Interests Section in Washington. Mr. Garcia Bielsa 
was found to be eligible and admissible, and thus the visa was issued.

                             Cuba: Spy Ring
Question:
          As you are aware, recently a couple from the 1998 Cuban spy 
        ring were sentenced to more than three years in prison for 
        attempting to infiltrate U.S. military installations for the 
        Cuban government. Mr. Joseph Santos and his wife Amarylis 
        Silverio Santos were given a four year and 3\1/2\-year sentence 
        respectively. According to reports, authorities said the couple 
        attempted to infiltrate the U.S. Southern Command. In all, 14 
        people were accused of trying to penetrate U.S. military bases, 
        infiltrate anti-Castro exile groups and manipulate U.S. media 
        and political organizations. Authorities describe the spy ring 
        as the largest Cuban espionage operation uncovered in the 
        United States in decades.
          Madame Secretary, has the Department of State expelled from 
        the United States all of the Cuban personnel whom the FBI 
        specified as having had contact with the captured spies? Are 
        any such persons in the United States today?
Answer:
    Those diplomats at the Cuban Mission to the United Nations in New 
York who the FBI was able to identify as having direct links to the 
captured spies either departed voluntarily from the United States 
before we could expel them or were expelled by the State Department. No 
one whom the FBI could document as having direct contacts to these 
spies is in the United States.

           Cuba: Cuban Soldiers and American POWs in Vietnam
Question:
          Madame Secretary, last year this Committee held a hearing 
        whose subject matter disturbed me greatly. From recently 
        declassified Defense Department documents and press reports 
        this Committee learned that credible evidence existed that 
        Castro sent Cuban agents to torture and interrogate up to 19 
        United States military officers while imprisoned in Hanoi from 
        1967-1969. We heard first-hand accounts of Castro's brutality 
        from Captain Raymond Voliden and Colonel Jack Bomar of what 
        life was like in the ``Zoo.''
          There are no statute of limitations on crimes against 
        humanity during time of war. And, I am hopeful that the 
        evidence this Committee now has, not to mention what the 
        Administration has known for some time, will warrant 
        indictments to be handed down against Castro and his thugs. I 
        call on the Administration to release not only information 
        regarding this POW issue before more barriers are dropped with 
        Cuba, but ALL information regarding American POW's in Vietnam 
        to the public.
          Madame Secretary, has the State Department ever confronted 
        the Cuban government about these reports? Now that there is 
        credible evidence available from the Department of Defense, 
        does the State Department plan a review of this issue? If so, 
        will it ever confront the Cuban government about it?
Answer:
    These are very serious charges and the United States Government has 
extensively investigated these allegations through the appropriate 
intelligence and investigative agencies to include the Federal Bureau 
of Investigation, the Central Intelligence Agency, the National 
Security Agency, and the Defense Intelligence Agency. Additionally, the 
Senate Internal Security Subcommittee conducted its own investigation 
into this issue from July 1973 to September 1974. Despite these 
efforts, the returned POWs were unable to positively identify their 
torturers, and no one has been able to produce hard evidence that the 
torturers in question were, in fact, Cuban. In an effort to shed 
additional light on the issue, and in concert with the Department of 
Defense lead on POW investigations, the State Department has instructed 
our Embassy in Vietnam to raise the issue with the Vietnamese 
Government. We are awaiting their reply. We will not hesitate to 
approach the Cuban Government if we can obtain specific, reliable 
information that Cubans were involved in the torture of American POWs 
in Vietnam.

                               Nicaragua
Question:
          Madame Secretary, as you know, currently, there are about 
        1,000 U.S. citizens with property claims registered with the 
        Nicaraguan government based on property seized by the former 
        Sandinista government.
          Recently, I and some of my colleagues sent members of our 
        staff to Nicaragua to participate in a fact-finding mission. In 
        addressing the question of U.S. property claims, Ambassador 
        Oliver P. Garza stated that about 40 property claims are 
        settled every month. However, our staff learned that due to the 
        long and involved process of settling claims, many of the 
        claimants are willing to accept settlements worth significantly 
        less than the market value of their confiscated property. 
        Furthermore, I am concerned that the Nicaraguan government is 
        not complying with their own Supreme Court's ruling in favor of 
        U.S. claimants.
          Though it is my understanding that the State Department has 
        increased its efforts on American claimants, more must be done 
        to ensure that U.S. citizens receive just compensation for what 
        is rightfully theirs. I have been engaged for many years on 
        this important issue, and the Nicaraguan government should not 
        be allowed to continue unfairly settling claims made by U.S. 
        citizens.
          Madame Secretary, what is the State Department's long-term 
        plan to settle this issue once and for all?
Answer:
    Seeking resolution of U.S. citizens' claims for confiscated 
property in Nicaragua remains the most important bilateral issue 
between our government and the Government of Nicaragua (GON). Our 
overall strategy for doing so is twofold. First, we will continue to 
work directly with all U.S. citizens in their efforts to obtain a 
satisfactory claims resolution from the GON. As your staff members 
learned, Embassy Managua is the only U.S. Embassy worldwide in which we 
have established a Property Affairs Office, dedicated specifically to 
assisting U.S. citizens in their efforts to gain an acceptable 
resolution of their claims. To date, 813 American Citizens have 
registered claims with the Embassy's Property Office and are receiving 
its active support.
    Second, we continue to push the GON to explore alternate means of 
resolving claims, including land swaps and awarding claimants shares in 
newly privatized state enterprises. The GON has settled to U.S. 
citizens' satisfaction a small number of claims through land swaps. It 
has also introduced legislation that will permit other alternate means 
of resolution and has drafted a bill that would allow the GON to 
transfer shares in state-owned companies to qualified property 
claimants. The Embassy is actively encouraging faster progress in all 
these areas.

                              El Salvador
Question:
          In late 1996, officials at LAFISE's El Salvador office 
        uncovered evidence that forged company checks had been paid at 
        two local banks. Shortly thereafter, the head of LAFISE's El 
        Salvador office, Mr. Sigfried Guth Zapata, was murdered in what 
        appeared to be a contract killing. Since then, LAFISE has 
        pursued a civil case against the two banks which paid the 
        forged checks, and the Salvadoran National Civilian Police 
        (PNC) have been investigating the murder of Mr. Guth Zapata. 
        LAFISE has also filed a criminal case against the two banks for 
        failure to cooperate in the civil suit. Recently, the judge 
        presiding the case ruled against LAFISE. This action taken by 
        the judge has caused tremendous consternation in El Salvador. 
        The President of the Supreme Court of El Salvador, Mr. Jorge 
        Eduardo Tenorio, has called for an investigation of the 
        proceedings as well as of the judge.
          Consistent with the State Department's obligation to protect 
        U.S. companies and citizens abroad, I would like to know your 
        opinion regarding this case. Do you believe that the U.S. 
        interests in this case have been treated fairly and in a 
        transparent fashion?
Answer:
    We take very seriously our obligation to assist U.S. business 
overseas, and officials at Embassy San-Salvador and in the State 
Department have met with LAFISE representatives to discuss their 
concerns. The U.S. Ambassador has met with both the Salvadoran Vice 
President and the President of the Salvadoran Supreme Court (the head 
of the judicial branch in that country) to tell them we expect this 
case to be handled transparently. There are apparently two inquiries 
underway into the matter: one being conducted by the Salvadoran 
Legislative Assembly and another by the judicial branch. We have not 
yet seen the results of either inquiry. We understand LAFISE has 
appealed the adverse ruling from the lower court; obviously the U.S. 
Government cannot take a position on the specifics of pending 
litigation, but we will do all that we can to ensure LAFISE receives 
the benefit of transparent and impartial justice.

                                 China
Question:
          Madame Secretary, I am also deeply concerned about recent 
        reports of strategic writings by China's military and party 
        leaders that show China is making plans for war, according to a 
        new Pentagon study. I have learned that some 600 translations 
        of internal Chinese writings by 200 authors reveal China's 
        strategy to defeat a superior foe, using both military and 
        nonmilitary means, such as propaganda, deception and covert 
        action. That foe is clearly intended to be the United States.
          The translations also reveal the extreme distrust of the 
        United States by China's military and party leaders. Chinese 
        generals state that the United States intentionally bombed the 
        Chinese Embassy in Belgrade, Yugoslavia, last May as part of a 
        long-term strategy to prompt an arms race that will cause 
        China's collapse. The Chinese statements from the mid-1990s 
        through last year discuss issues normally couched in secrecy 
        inside China. They appear in the book ``China Debates the 
        Future Security Environment,'' published in January, 2000 by a 
        gentleman who is affiliated with the Pentagon's Office of Net 
        Assessment for the National Defense University (NDU) in 
        Washington.
          It is very clear that the Chinese strategists plan to use a 
        combination of Marxist-Leninist doctrine and ancient Chinese 
        tactics against the U.S., and, for now, China seeks to avoid 
        head-on confrontation until around 2030, when the Chinese 
        expect U.S. power to decline significantly.
          Madame Secretary, in light of China's ambitious military 
        plans and obvious gross violations of human rights, do you 
        truly believe it is wise that the Administration ask Congress 
        to consider granting China permanent Most-Favored-Nation (MFN) 
        trading status?
Answer:
    We cannot predict China's future, but we can help give them the 
opportunity to move in the right direction. Deciding in advance that 
China will inevitably be a foe is a prescription for a self-fulfilling 
prophecy. Alternatively, China's integration into institutions of the 
international community, such as the WTO, make it more likely that 
China will become a responsible member of the rules-based international 
community and play a constructive international role in the future.
    While we clearly have differing views of one another and of our 
intentions toward one another, we believe that our relationship with--
specifically our engagement of--China has a direct impact on China's 
approach to the U.S. and the world.
    We appreciate the concern that many Members of Congress have with 
regard to China's intentions toward Taiwan as outlined in the PRC's 
White Paper on Taiwan. Senior Administration officials, in Washington 
and Beijing, have reinforced our abiding interest in the peaceful 
resolution of cross-strait differences. We have said that we reject the 
use of force or the threat of the use of force to resolve the Taiwan 
Question. We have stated again our policy in the Taiwan Relations Act 
that we ``consider any effort to determine the future of Taiwan by 
other than peaceful means . . . at threat to the peace and security of 
the Western Pacific area and of grave concern to the United States.''
    We have urged China and Taiwan to take steps that foster dialogue, 
reduce tensions and promote mutual understanding.
    We have also restored direct dialogue between our two militaries to 
promote better understanding of our intentions. In December, the deputy 
chief of China's People's Liberation Army general staff was in 
Washington for defense consultative talks. In early March, CINCPAC 
commander Admiral Blair visited China.
    We want to use the military-to-military dialogue to ensure that 
there are no misperceptions of our intentions or our capabilities. In 
fact, these talks are a way of ensuring that we deter through 
engagement, not through other means.
    As for China's human rights policy, this year we made an early 
decision to introduce a China resolution at the United Nations 
Commission on Human Rights. That decision was based on the fact that 
China's human rights record deteriorated during the past year and that 
its actions were contrary to internationally-recognized human rights 
standards. We are making demarches in capital cities, forcefully making 
the case for the resolution and to gain widespread support for it.
    In addition, we released a hard-hitting report on China in our 
annual human rights country reports. We pulled no punches. We hold the 
Chinese to the standards to which they, themselves, have committed. In 
addition, we designated China a ``country of particular concern'' in 
our report for International Religious Freedoms Act.
    However, we believe that we must engage with China on both human 
rights and economic rights.
    Specifically, with regard to PNTR, the President submitted a bill 
to Congress on March 8 to extend normal trade relations to China on a 
permanent basis. The President will certify that when China becomes a 
WTO contracting party, ``the terms and conditions of China's accession 
to the WTO are at least equivalent to those agreed between the United 
States and China on November 15, 1999.''
    We are confident that when the bill is considered on its merits, 
Congress and the American people will realize that it is in the 
interest of the United States to pass PNTR. only in this way will we be 
able to enjoy the full benefits of China's accession to the WTO.
    Our broad agenda in China is designed to pursue American interests 
and to effect positive change there. Trade and the WTO will help 
reinforce trends toward a more open economy and contribute to a more 
open society in China.

                                 Taiwan
Question:
          Madame Secretary, in the wake of China's determined military 
        modernization and Taiwan's threatened security, how will you 
        advise the President when this long-overdue legislation reaches 
        his desk?
Answer:
<bullet> LThe Administration strongly opposes the Taiwan Security 
Enhancement Act (TSEA) (H.R. 1838) because it would seriously diminish 
Taiwan's security and undermine the overall U.S. objective of stability 
in Asia.
<bullet> LShould this bill be passed and sent to the President in its 
current form, I and his other senior advisors would recommend that it 
be vetoed.
<bullet> LThis bill would mandate a number of new security and military 
arrangements with Taiwan that could create dangerous, false, and 
inaccurate expectations on both sides of the Taiwan Strait. Movement 
toward a more formal U.S. military relationship with Taiwan could have 
serious unintended negative consequences, such as diminishing prospects 
for cross-Strait dialogue and the peaceful resolution of differences. 
Diminishing the prospects of the cross-Strait dialogue would be 
fundamentally detrimental to Taiwan's security interests.
<bullet> LSeveral of the bill's provisions also raise constitutional 
concerns related to the President's broad authority to control the 
disclosure of information about foreign negotiations and other 
sensitive national security and foreign relations information, his 
authority as Commander in Chief, and his ability to carry out his 
responsibilities for the conduct of the nation's foreign relations.
<bullet> LThe Administration remains firmly committed to fulfilling the 
security and arms transfer provisions of the Taiwan Relations Act 
(TRA). At the same time, we continue to press the PRC to exercise 
restraint on military deployments, make progress in cross-Strait 
dialogue, and initiate confidence-building measures with Taiwan.

                              North Korea
Question:
          As part of any future talks with North Korea, do you plan to 
        pursue this issue on behalf of the many U.S. claimants? If in 
        fact the North Koreans do not comply, can you please explore 
        the use of its frozen U.S. assets as partial settlement of the 
        claims filed by U.S. companies?
Answer:
    The United States is keenly aware of the problems faced by 
companies with claims against the DPRK. The existence of these claims 
is indeed an important element that must be taken into account as we 
move forward in our dialogue with North Korea. As part of the solution 
to this problem, we recognize the potential usefulness of conducting a 
claims settlement negotiation as we move down the road to improved 
bilateral relations.
    We intend to continue to pursue in our talks with the DPRK full 
payment of debts owed to, U.S. companies. We have not, however, reached 
the point in the dialogue where we believe a claims settlement 
negotiation would lead to a successful resolution of those claims. 
While, in the past, we have successfully negotiated the settlement of 
U.S. nationals' claims in connection with frozen assets, issues 
surrounding disposition of assets frozen under the North Korean 
sanctions program and resolution of U.S. nationals' claims against 
North Korea are extremely complex. We welcome your suggestions in this 
regard, and we will continue to consider the extent to which it would 
be possible to use the frozen assets in our efforts to resolve issues 
with the DPRK.
              India--Civilian Control Over Nuclear Weapons
Question:
          Madame Secretary, at present, relations between civilian and 
        military control of nuclear weapons in India is still nascent. 
        India has a long history of civilian control of the military, 
        and nuclear weapons are said to be still in civilian hands. 
        Release of the weapons is strictly limited to orders between 
        the Prime Minister and the head of India's Atomic Energy 
        Commission. If the nuclear program spreads and becomes 
        operational, the military will have to become more involved. 
        But the nuclear doctrine is unclear. India does not have a 
        deputy Prime Minister (equivalent to a vice president). And in 
        an era of coalition politics, (21 parties now form the 
        government), authority for action is still to be decided. 
        Finally, I understand that one of the chief nuclear subjects in 
        the recent London talks between U.S. Deputy Secretary of State 
        Strobe Talbott and Indian Foreign Minister Jaswant Singh was 
        supposed to be ``command and control'' in a nuclear crisis.
          Madame, Secretary, can you tell this Committee at what length 
        this issue was discussed in London? Does India have a plan for 
        weapon control? For example, will the Army, Navy, and Air Force 
        each control their own weapons? Or will orders be given by a 
        separate strategic command? Will this be discussed during 
        President Clinton's trip to India in March?
Answer:
    One of the most important themes in our discussions with India and 
Pakistan has been to urge them to take steps to avoid a destabilizing 
and expensive nuclear and missile arms race. In this connection, we 
have urged both countries not to deploy nuclear weapons or missiles. We 
have stressed that.the best way for them to ensure against accidental 
(or other) use of nuclear weapons is not to deploy them. Deputy 
Secretary Talbott has pressed his Indian interlocutors to explain how 
they propose to constrain their nuclear and missile programs to avoid 
an arms race.
    We don't believe either India or Pakistan has actually deployed (as 
the U.S. would use that term either nuclear weapons or missiles for 
delivering them. Last August, the Indian Government released an 
unofficial draft ``Nuclear Doctrine,'' prepared by a civilian advisory 
board. The draft specified that India would build only a ``minimum 
credible deterrent'' under firm civilian control; it also contained 
worrisome language about a triad of delivery systems and rapid 
response. In response to U.S. expressions of concern, Indian officials 
assured us that the draft does not represent government policy.
    Indian political leaders and senior officials have told us that 
India's nuclear weapons are, as a matter of both policy and law, kept 
under strict civilian control. We have no reason to doubt that this is 
the case.
    We anticipate that nonproliferation will be one of the major 
subjects addressed during the President's visit.
    If you desire further information at a classified level, let us 
know and we'd be happy to provide it.

                                Pakistan
Question:
          Madame Secretary, I hope that President Clinton considers 
        including Pakistan in his trip to South Asia this March. Now, 
        more than ever, Pakistan needs our engagement. Madame 
        Secretary, Pakistan is a country confronted with a multitude of 
        challenges. It has.been reported that the general has promised 
        to restore a ``true'' democracy to Pakistan. I have also 
        learned that General Musharraf's goal is to create a 
        representative government whose power base is located at the 
        grass-roots level. Decentralization of power, he says, will not 
        only help him eliminate fraud and corruption, but it will 
        empower the local districts to make their own decisions. In 
        fact, he has, so far, kept his pledge to bring democracy to the 
        grass-roots level with a call for impartial local elections by 
        this fall.
          Numerous reports indicate that General Musharraf envisions 
        Pakistan as a ``moderate Islamic state'' that is eager to 
        orient itself to the West with a plan to stabilize the 
        country's fragile economy by means of structural reforms, 
        privatization and measures to attract domestic and foreign 
        investments. Finally, regarding its relations to India, I 
        understand that one of the general's first orders was to 
        withdraw Pakistani troops from areas in and around Kashmir.
          However, I am interested in the recent comments regarding the 
        December hijacking of an Indian plane made by a senior U.S. 
        official (name unknown). ``The HUM (Harkat ul-Mujahideen) is, 
        in our view, a terrorist group and we urge the government of 
        Pakistan to shut down it activities and to sever any links with 
        that organization and to ban it.'' In response, on January 27, 
        2000, your spokesman noted that the State Department believed 
        Pakistan had no previous knowledge of this hijacking, nor did 
        Pakistan support it. Furthermore, the response said that the 
        State Department has ``reason to believe that the hijackers 
        were affiliated with the HUM'' and ``'that agencies of the 
        Pakistani government have provided general support to a number 
        of groups operating in Kashmir, including HUM.''
          Can you please explain these conflicting remarks and provide 
        me with the current position of the State Department with 
        regards to Pakistan and the December hijacking of an India 
        plane by a militant Islamic group? Also, can you please further 
        define the terms, as used, in the context of your spokesman's 
        January 27th response: ``'affiliated,'' and ``general 
        support?'' I would appreciate any information you may be able 
        to provide that would explain the Department's position on the 
        ``relationship'' between Pakistan and HUM.
Answer:
<bullet> LThe President and I and other Administration officials have 
gone to Pakistan in order to keep open our lines of communication with 
the Pakistani leadership. Such visits have allowed us to make clear to 
Pakistan our views on key issues like democracy, non-proliferation, 
terrorism, and regional peace and security. Only by maintaining such 
contact can we hope to have influence on these issues with the 
Government of Pakistan.

<bullet> LWe have no evidence that the Government of Pakistan had 
foreknowledge of, or was involved in carrying out, the hijacking of the 
Indian Airlines flight in late December 1999.

<bullet> LWe believe there is evidence suggesting the HUM was involved 
in the hijacking or had ties to the hijackers. The fact that the 
hijackers demanded and obtained the release of Maulana Masood Azhar, a 
former high-ranking official of the HUM, suggests some link between the 
hijackers and the organization. However, the identity of the hijackers 
has not yet been confirmed.

<bullet> LThe Pakistan Government has allowed members of groups that 
the United States has designated as terrorist organizations, including 
members of the HUM, to live and move in and through its territory and 
provides material and financial support to militants who train in 
Afghanistan and fight in Kashmir.

<bullet> LIn order for a state to be designated a state sponsor of 
terrorism, I must determine that its government has repeatedly provided 
support for acts of international terrorism.

<bullet> LI have not made such a determination with respect to 
Pakistan. However, the list of state sponsors is under continuous 
review.

                             ``Silk Road''
Question:
          Madame Secretary, last year the House passed the Silk Road 
        Strategy Act of 1999 which seeks to promote free market 
        policies in the new republics of Central Asia and the Caucasus 
        and to encourage foreign investment, increased trade and other 
        forms of commercial ties between the countries of these regions 
        and the rest of the world. These are praiseworthy objectives, 
        and legislation expressing U.S. support for the fledgling 
        democracies of the Silk Road region deserves priority 
        attention. Consequently, I supported the goals of the Silk Road 
        Act.
          At the same time, however, many companies from OECD 
        countries, including the United States, have substantial direct 
        investments in several of the Silk Road countries and are not 
        being accorded fair treatment. Investment contracts are not 
        being honored, export permits are not being issued and de facto 
        nationalizations of foreign investment have occurred. In 
        several instances, formal complaints have been lodged by 
        investors through U.S. and other embassies in the region.
          In an effort to discourage this kind of mistreatment, 
        Congress* amended the bill to include language conditioning 
        U.S. assistance on the fair treatment of foreign investors. 
        Specifically, the amendment required the State Department to 
        produce an annual report that includes ``a description of the 
        progress being made by the United States to resolve trade 
        disputes registered with and raised by the United States 
        Embassies in each country, and to negotiate a bilateral 
        agreement relating to the protection of United States direct 
        investment in, and other business interests with, each 
        country.'' In fact, my amendment has already gotten the 
        attention of the government of Kazakhstan, which on August 26 
        initiated their own review of outstanding disputes in an effort 
        to resolve them.
          I was pleased to sponsor this amendment, however more needs 
        to be done to protect investors. I believe the Silk Road 
        countries must show significant progress in resolving trade 
        disputes registered with and raised by the U.S. Embassy. U.S. 
        investors are being mistreated in many of the Silk Road 
        countries, and if U.S. aid is not conditioned on fair treatment 
        of U.S. investors, Silk Road countries will continue to 
        mistreat and renege on commitments to U.S. investors.
          This is a good start, but without conditions, beneficiary 
        governments will likely conclude that they have a green light 
        to renege on commitments to foreign investors, jeopardizing 
        hundreds of millions of dollars of investments. In this regard, 
        a number of pension plans have investments in companies doing 
        business in countries such as Kazakhstan. The average American 
        worker participating in a pension is adversely affected as 
        well, and this must stop.
          Madame Secretary, what is the State Department's plan for 
        addressing this important issue, beyond the annual report it is 
        now required to produce? Can you please provide my office with 
        a complete list of U.S. companies that have approached the 
        department with a request to assist in the resolution of an 
        investment or trade dispute in each Silk Road country? I would 
        appreciate it if you could include the reason for the dispute 
        as well as the name of the company. Finally, I understand that 
        the report was due on January 31 and has still not arrived. Can 
        you give me a timetable on when Congress might expect the first 
        annual report?
Answer:
    The Department of State and the U.S. Embassies in the field are 
vigorously supporting U.S. investors in the Silk Road region. In 
addition to providing critical and time sensitive information about the 
investment climates in the Silk Road countries to potential investors, 
we have been actively assisting U.S. investors involved in investment 
and trade disputes in the region.
    Our long-run strategy is to assist the Silk Road countries to 
implement reforms designed to create more open and transparent market-
oriented economies, which will offer not only stronger protections for 
investors, but more investment opportunities as well. We are 
encouraging these reforms through our assistance programs, as well as 
by negotiating Bilateral Investment Treaties (BIT) with individual 
countries. These instruments are particularly important means of 
establishing U.S. investor rights and defining mutually accepted means 
for dispute resolution.
    Of the Silk Road countries, the USG has BITs in force with Armenia, 
Georgia, Kazakhstan and Kyrgyzstan. The USG has also signed BITs with 
Azerbaijan and Uzbekistan, to which we hope the U.S. Senate will 
provide its advice and consent to ratification. The U.S. Government is 
not currently in BIT negotiations with Tajikistan or Turkmenistan.
    The State Department sent a preliminary version of the FY 1999 
Annual Report on NIS Assistance to the SACFO, HACFO, SFRC and HIRC on 
February 1. The final bound version of the report was received from the 
printers on March 7 and immediately forwarded to the same committees. 
The FY 1999 report contains a brief overview of progress made in 
resolving investment and trade disputes and negotiating bilateral 
investment treaties with the Silk Road countries. The first full report 
addressing the requirements of the Silk Road Strategy Act will be 
included in the FY 2000 Annual Report on NIS Assistance.
    For more information about investment-related disputes in Silk Road 
countries, I refer you to the 1999 Report of U.S. Citizen Expropriation 
Claims and Certain Other Commercial and Investment Disputes. The 
Department of State submitted this report, which is required by Section 
527 (``Helms Amendment'') of the FRAA, Fiscal Years 1994 and 1995 (P.L. 
103-236), to both the SFRC and HIRC in November 1999.
    This report contains detailed descriptions of ongoing and resolved 
investment-related disputes that have been brought to our attention. 
While the Section 527 report provides descriptions of the disputes, the 
names of U.S. citizens have not been provided due to Privacy Act 
concerns. This will also be an issue we will have to consider when 
preparing the FY 2000 Annual Report on NIS Assistance. Of course, the 
Department can provide this information to you on a confidential basis, 
in accordance with the Privacy Act's exception for disclosure to 
Congress.
Question:
          Things are going from bad to worse in Kazakhstan, a major 
        recipient of U.S. foreign aid. Corruption has increased, 
        foreign investors are mistreated, critics of the regime are 
        jailed by kangaroo courts, and the Administration has accepted 
        the lamest of excuses about last year's shipment of 40 MiG 
        aircraft to North Korea.
Answer:
    We share your desire to help Kazakhstan build the foundations of a 
democratic state and market-oriented economy. In our view, long-term 
stability depends on action to strengthen democracy and promote the 
growth of civil society, including respect for fundamental human 
rights. A prospering economy is, an equally important pillar of 
stability. Although Kazakhstan has made progress on economic reform and 
is back on its IMF program, we believe additional steps are needed. 
During the meeting in December of our binational Joint Commission 
President Nazarbayev made a number of important commitments in these 
areas that were recorded in the commission's final report. The visit I 
hope to take to Kazakhstan in April will provide an opportunity to 
discuss implementation of the broad bilateral agenda agreed upon in the 
framework of the Commission, in the interest of a stronger and more 
productive relationship between the United States and Kazakhstan.
    Regarding the 1999 transfers of Kazakhstani MiG-21 fighter aircraft 
to North Korea, as part of an intensive dialogue in the wake of the 
transfers, the GOK provided extensive, concrete nonproliferation 
commitments and agreed to take specific steps to ensure that no such 
transfers occur in the future. In large part as a result of these 
commitments and cooperation, we decided to impose a combination of 
statutory and administrative sanctions against the Kazakhstani and 
Czech entities and individuals directly involved in the transfer, but 
waived sanctions against the Kazakhstani government as a whole. We 
continue to monitor Kazakhstani arms transfers closely and are working 
with the GOK to ensure that it fully adheres to its nonproliferation 
commitments.
    With respect to the recent outcome of the trial of two suspects 
charged with the transfer, we have formally expressed to the GOK our 
surprise and disappointment at the verdicts and at former Minister of 
Defense Altynbayev's reinstatement and have urged that the GOK continue 
to pursue charges against those responsible.
Question:
          Last November, former Prime Minister Kazhegeldin, now in 
        exile, called for a ``national dialogue'' to advance democracy 
        and economic reform in Kazakhstan. While the Administration 
        claims to have pressed President Nazarbayev on human rights 
        during his visit last December, a Nazarbayev spokesman told the 
        Kazakhstani press that the subject of human rights never came 
        up. Why doesn't the Administration come out clearly in support 
        of a national dialogue along the lines of the one proposed by 
        Mr. Kazhegeldin? It would be helpful if the Administration 
        pushed Nazarbayev to provide an hour a week on state-run TV for 
        the opposition, and offered to replace at least one of the many 
        opposition printing presses that Nazarbayev's goons have 
        destroyed. Madam Secretary, when will this Administration stand 
        up for democracy and stop coddling dictators like Nazarbayev?
Answer:
    Certainly we support political dialogue, although we don't intend 
to tie ourselves down to one politician's view of how it should be 
carried out.
    Promotion of democracy and human rights is fundamental to our 
policy toward Kazakhstan. We're doing all we can to support the 
development of non-governmental institutions there, but like helping 
anything take root and grow, it requires time and some patience. We 
also support prompt implementation of the many excellent 
recommendations contained in the OSCE election report.
    In that regard, we're following with particular interest the OSCE's 
proposal to initiate, a roundtable process in May of this year. The 
OSCE is trying to bring together the Kazakhstani Government and the 
opposition (including parties not in the parliament), plus media and 
NGOs, to address the recommendations of the final OSCE report on the 
elections.

                             Western Sahara
Question:
          There have been reports that the United Nations, at the 
        encouragement of the United States, may decide not to hold the 
        referendum for self-determination for the people of Western 
        Sahara. As you know, the U.N. brokered a cease-fire between 
        Morocco and the POLISARIO in 1991, and a settlement plan was 
        agreed to by both sides. As a result, the United Nations 
        Mission for the Referendum in Western Sahara (MINURSO) was 
        established to undertake a number of tasks, including 
        monitoring a cease-fire, verifying the reduction of Moroccan 
        troops in Western Sahara, and ensuring the confinement of 
        Moroccan and POLISARIO troops to designated locations. MINURSO 
        was also responsible for identifying and qualifying voters for 
        the referendum to be held in the territory. In 1995, the 
        identification process stalled. To resuscitate the process, 
        Secretary General, Kofi Annan, appointed former Secretary of 
        State James Baker as his Personal Envoy to the region to 
        resolve the question of identification. Secretary Baker was 
        successful in getting both sides to agree on the mechanics of 
        returning refugees, de-mining, the release of prisoners, and 
        procedures for the identification and registration of voters 
        (the Houston Agreement). To date, approximately $500 million 
        has been spent on peacekeeping and the Settle Plan.
          I would like to know if the United States continues to stand 
        firmly behind the U.N. Settlement Plan and the Houston 
        Agreement which call for a free, fair, and a transparent 
        referendum in Western Sahara?
Answer:
    Since the UN Mission to the Western Sahara (MINURSO) was 
established in 1991, the Department of State has supported the 
implementation of the Settlement Plan that was negotiated between the 
Kingdom of Morocco and the Frente Popular para la Liberacion de Saguia 
el-Hamra y del Rio de Oro (POLISARIO Front) under the auspices of the 
United Nations. This plan laid out the mechanisms for resolving whether 
the territory would become independent or a province of Morocco based 
on a vote of the native population. In essence, it required the 
identification of eligible voters, the return of refugees to the 
territory, and a vote under the auspices of the United Nations.
    We have supported the Settlement Plan in the belief that a free and 
fair referendum offered the best solution to the problem of the Western 
Sahara. Since the parties' agreement to the plan nine years ago, we 
have consistently urged them to end the delaying tactics both sides 
have employed. In 1997, we strongly supported the efforts of the 
Secretary General's Personal Envoy James Baker to reinvigorate the 
then-stalled process through his mediation of the Houston Accords, 
which resolved some of the parties' differences over voter 
identification. In 1998, we again supported his proposal that the 
parties agree to another package of measures designed to move the 
Settlement Plan forward. We have repeatedly, at the highest levels, 
made known our impatience with the unwillingness of the parties to 
fulfill their commitments, both with regards to voter identification 
and return of refugees. All the while, the United States has continued 
to vote in favor of extending MINURSO's mandate because its successful 
maintenance of the peace is an important contribution to regional 
stability.
Question:
          As Secretary of State, do you believe that the referendum 
        process, as agreed to by Morocco and the POLISARIO, can be 
        implemented in a reasonable period? If not, please explain what 
        obstacles exist that are hindering the referendum process.
Answer:
    There is little likelihood that the referendum can be held within 
the next year. The UN Secretary-General has expressed doubts it could 
be held before 2002, at the earliest. As he stated in his February 16 
report to the Security Council, there are two main obstacles hindering 
the referendum process: the appeals process and refugee repatriation. 
MINURSO faces the prospect of receiving as many as 140,000 appeals 
filed by those excluded from the list of eligible voters, which could 
take a long time to process. Moreover, the parties disagree on the 
issue of the admissibility of the appeals. Furthermore, the parties 
have not agreed to a protocol for the repatriation of refugees.
Question:
          Is there any other settlement plan for the Western Sahara, 
        other than the existing referendum arrangement, that the U.S. 
        has been asked to endorse? If so, what does it entail and how 
        does it differ from the current referendum process?
Answer:
    We have not been asked to endorse any other Settlement Plan. 
Secretary-General Annan intends to ask his Personal Envoy, James A. 
Baker, to consult with the parties to explore ways and means to achieve 
an early, durable and agreed resolution to the dispute over the Western 
Sahara. We support Baker's efforts and we urge the parties to cooperate 
fully with his mission.
Question:
          Have there been discussions within the State Department 
        regarding the United States adopting a higher profile in the 
        Western Sahara dispute?
Answer:
    No. The Secretary General's Personal Envoy, former Secretary of 
State James Baker, the current SRSG, William Eagleton, and his 
predecessor, Charles Dunbar, are American. We also have provided 15 
U.S. military observers as part of the MINURSO cease-fire monitoring 
contingent. But there are no plans to increase U.S. involvement.
Question:
          Section 803 of the Foreign Affairs Reform and Restructuring 
        Act, which was signed into law as part of the Consolidated 
        Appropriations Act, 2000, mandates that the Secretary of State 
        shall submit to Congress two reports one--by January 1, 2000 
        and one by June 1, 2000--``describing specific steps taken by 
        the Government of Morocco and the POLISARIO to ensure that a 
        free, fair and a transparent referendum in which the people of 
        the Western Sahara will choose between independence and 
        integration with Morocco to be held by July 2000.''
          As of February 9, 2000, your office had not submitted the 
        required report on the Western Sahara to Congress. How do you 
        explain the delay in submitting the report to Congress?
Answer:
    The Report was delivered to Congress on February 11. I have 
attached another copy of the report.

                  Report to Congress on Western Sahara
    Pursuant to Section 803 of P.L. 106-113, the Admiral James W. Nance 
and Meg Donovan Foreign Relations Authorization Act of 2000 and 2001, 
below is a report regarding Morocco, the POLISARIO, and U.S. Government 
efforts to prepare for a referendum on the Western Sahara.
    Since the UN Mission to the Western Sahara (MINURSO) was 
established in 1991, the Department of State has supported the 
implementation of the Settlement Plan that was negotiated between the 
Kingdom of Morocco and the Frente Popular para la Liberacion de Saguia 
el-Hamra y del Rio de Oro (POLISARIO Front) under the auspices of the 
United Nations. This plan laid out the mechanisms for resolving whether 
the territory would become independent or a province of Morocco based 
on a vote of the native population. In essence, it required the 
identification of eligible voters, the return of refugees to the 
territory, and a vote under the auspices of the United Nations.
    We have supported the Settlement Plan in the belief that a free and 
fair referendum offered the best solution to the problem of the Western 
Sahara. Since the parties' agreement to the plan nine years ago, we 
have consistently and repeatedly urged them to end the delaying tactics 
both sides have employed. In 1997, we strongly supported the efforts of 
the Secretary General's Personal Envoy James Baker to reinvigorate the 
then-stalled process through his mediation of the Houston Accords, 
which resolved some of the parties' differences over voter 
identification. In 1998, we again supported his proposal that the 
parties agree to another package of measures designed to move the 
Settlement Plan forward. We have repeatedly, at the highest levels, 
made known our impatience with the unwillingness of the parties to 
fulfill their commitments, both with regards to voter identification 
and return of refugees. All the while, the United States has continued 
to vote in favor of extending MINURSO's mandate because its successful 
maintenance of the peace is an important contribution to regional 
stability.
    At present, the Moroccan Government and the POLISARIO Front 
disagree over two key issues that bear directly on the implementation 
of the Settlement Plan: the appeals process and refugee repatriation. 
Unless the parties reach agreement on these issues, the referendum 
could be delayed well beyond July 2000.
    Despite these disagreements, MINURSO recently achieved a notable 
success by completing the voter identification process, an issue of 
dispute since the beginning of the Settlement Plan in 1991. The parties 
had agreed that eligibility to vote in the referendum would be based 
primarily on the Spanish Census of 1974 of the Sahrawi population in 
the then Spanish Sahara. This resulted in a lengthy dispute over the 
eligibility of the tribal groups who are ethnically Sahrawi but resided 
in the Moroccan provinces bordering the territory, which were conferred 
by Spain to Morocco prior to 1974. These tribes are referred to as the 
``'contested'' tribes. By the end of December, MINURSO had succeeded in 
identifying a total of more than 190,000 eligible voters from both the 
``contested' tribes and the tribal groups resident in that portion of 
the territory that did not convey until 1975, referred to as ``non-
contested''.
    Subsequent to the disagreement over voter identification, a new 
dispute has arisen over interpretation of.the protocols to the UN 
agreements regarding what constitutes valid grounds for appeals. 
According to a December 6 report by the UN Secretary General, 
logistical problems posed by the large number of appeals and the 
divergent views of the parties on the admissibility of such appeals 
``seem to allow little possibility of holding the referendum before the 
year 2002 or even beyond.''
    The Secretary General made this assessment as a result of the 
filing of nearly 80,000 appeals following the publication on July 15, 
1999 of the first part of the provisional voter list. This list 
contains the names of eligible applicants interviewed by MINURSO during 
the identification of the ``non-contested'' tribesmen carried out in 
1994-95 and 1997-98. Most of those who were determined ineligible to 
vote in the referendum have filed appeals. The majority of the appeals 
assert that new witnesses will provide new evidence of eligibility as 
required by the provisions of the protocol both parties agreed to in 
May 1999.
    MINURSO anticipates a similar wave of appeals based on the second 
provisional list of voters, which was published January 17, 2000. This 
list is made up of eligible applicants from the approximately 65,000 
members of the ``'contested tribal groups'' whose identification 
MINURSO completed in December. Since only a small percentage of the 
applicants from these tribal groups were determined to be eligible, 
MINURSO could face a doubling of the total number of appeals should all 
those excluded choose to file. Were MINURSO to accept the bulk of the 
appeals, their processing would be, in effect, a new round of voter 
identification.
    The parties disagree on the admissibility of the appeals. The 
POLISARIO Front maintains that a large number of the appeals could be 
eliminated if MINURSO adhered strictly to the procedures that were 
``agreed-upon,'' according to their interpretation. Morocco, for its 
part, argues that all applicants have the right to an appeal and that 
the appeals must fulfill the requirements of admissibility. In response 
to this situation, the Secretary General recommended the extension of 
MINURSO's mandate until February 29, 2000 to allow time to complete the 
voter identification process, publish the second provisional list of 
eligible voters, and assess the situation regarding appeals.
    There has been little progress during the past year on the issue of 
refugee repatriation. The parties have not agreed to the draft refugee 
repatriation protocol presented to them by the office of the United 
Nations High Commissioner for Refugees (UNHCR) in early 1999. 
Similarly, they have not begun implementation of the draft plan of 
action for confidence-building measures the UNHCR submitted to them in 
August 1999, despite agreement in principle to do SO.
    In 1998, UNHCR initiated a pre-registration process to determine 
how many refugees would be willing to repatriate. It completed the 
exercise in December 1999, after pre-registering more than 87,000 
refugees. According to the UNHCR, the vast majority of the refugees 
said they feared for their safety should they return to the Moroccan-
controlled area of the Territory west of the berm (a Moroccan-
constructed defensive fortification that divides the Territory), and 
were willing to be repatriated only to areas east of the berm. Although 
interested in participating in some of the confidence-building 
activities--such as visits to Laayoune--they were uncertain it was safe 
to do so. As for the Moroccan Government, it has only recently granted 
UNHCR permission to establish a presence in areas outside Laayoune and 
eased restrictions on UNHCR's freedom of movement within the Territory.
    Given the unresolved issues surrounding the appeals and refugee 
repatriation processes, there is therefore little likelihood that the 
referendum to determine the future of the Western Sahara will take 
place in July 2000 as currently scheduled. When and if MINURSO is able 
to proceed with preparations for the referendum, the Settlement Plan 
stipulates that MINURSO will be responsible for ensuring that the 
referendum is free and fair and that free access to the territory for 
independent international observers and media is guaranteed.

                                Morocco
Question:
          Since assuming the throne, King Mohammed of Morocco has faced 
        many challenges at home and from abroad. Like his father, he 
        should be commended for keeping Morocco's contacts with Israel 
        open. This was witnessed most recently by Morocco's hosting of 
        a visit of Israel's Foreign Minister. To his credit, King 
        Mohammed also fired Driss Basri, the Interior Minister, who was 
        viewed as a real obstacle to political and administrative 
        reforms.
          In your opinion, what are the greatest challenges facing King 
        Mohammed at home and from abroad, and will those challenges 
        affect U.S. policy in the region? (NEA)
Answer:
    In his short time in office, King Mohammed has indeed demonstrated 
that he is one of the most progressive leaders in the Arab world. He is 
deeply popular and is making the most of his father's legacy to achieve 
significant progress on democracy. With record foreign investment, 
declining debt, and a stable currency, by most financial measures 
Morocco's economic fundamentals are solid. Indeed, on these criteria 
Morocco would meet the strict numbers set within the EU for currency 
union. However, significant economic and social challenges remain, and 
these present the greatest challenge to the new king. Unemployment, 
particularly among young university graduates, remains high. Infant 
mortality and illiteracy remain significantly worse than they should be 
for a nation at Morocco's stage of development. With the majority of 
the national budget slated for debt service and the bloated public 
payroll, the government needs to budget carefully to address these 
serious problems.
    The United States is focused on these issues. We maintain a 
bilateral USAID mission in Morocco that has four strategic objectives: 
health, water, education, and economic development, all with a cross-
cutting focus on women and girls, and on public-private partnerships. 
In addition, under the US-North Africa Economic Partnership (USNAEP) 
program, we are working with Morocco, Tunisia, and Algeria to increase 
business with the United States as well as regional trade and 
investment.
    Although the King's primary challenges are domestic, he does face 
several important foreign policy challenges. Preeminent among these is 
Morocco's relationship with neighboring Algeria. The borders between 
these two key Maghreb states remain closed, and, despite new leadership 
in both Rabat and Algiers, there has been only slight movement towards 
political rapprochement. Many observers also see the Western Sahara, 
the principal nationalist issue in Morocco, as an issue strongly 
influenced by Moroccan-Algerian relations. The United States is working 
to convince both Morocco and Algeria that their long-term economic and 
political interests would be best served by enhanced bilateral 
relations between them.

                                 Egypt
Question:
          As the Middle East moves closer toward peace, I believe it is 
        important that we keep all of the parties actively engaged in 
        securing a just and lasting peace. During your December 1999 
        visit to Egypt, you commented about their pioneering role in 
        the Middle East peace process and the importance of our 
        strategic partnership with them.
          What issues or concerns, if any, about current U.S. Egyptian 
        policy has the Government of Egypt raised with your office, and 
        what has been our response?
Answer:
    Last year marked the twentieth anniversary of the signing of the 
Israeli-Egyptian peace treaty, which remains the cornerstone of all 
subsequent regional peace efforts. Egypt, whose late president Sadat 
boldly initiated the first Arab-Israeli talks, is still a leader in the 
peace process. President Mubarak is actively engaged in supporting the 
peace process, and is a crucial figure in rallying Arab opinion. 
Mubarak has continued Sadat's determined commitment to peace, even when 
others are at their most pessimistic. The recent visits by Israeli, 
Palestinian and Syrian leaders to Egypt and Egypt's co-sponsorship of 
the Sharm el-Sheikh Accord show that all parties involved seek--and 
need--Egypt's vital support.
    The Camp David Accords also marked the beginning of the strategic 
bilateral partnership between the United States and Egypt, a 
partnership which is vital to achieving our strategic goals of peace 
and stability in the Middle East. Egypt is our essential Arab partner 
in the pursuit of both. Egypt has the demographic, cultural, economic, 
and political weight and potential to lead, as it did in Camp David and 
after the invasion of Kuwait. No other Arab state can provide this 
``multiplier effect'' to our policy goals of peace and security, and 
Egypt's influence touches not only on Arab-Israeli peace and Gulf 
security, but also to Sudan, Somalia, Ethiopia, Libya, the Arab League, 
the OAU, the OIC, and the Islamic world generally. Egyptian support is 
necessary to promote U.S. strategic interests across the entire region.
    Egypt contributed more troops to the Gulf War coalition than any 
other Arab nation, and, while sensitive to the needs of the Iraqi 
people, Egypt continues to serve a vital role in supporting our efforts 
to prevent Saddam Hussein's re-integration into the international 
community; like ourselves, Egypt stresses Saddam's need to comply with 
the relevant UNSC resolutions. Egypt's current efforts with Qadhafi 
were critical in Qadhafi's decision to turn over. the Pan Am 103 
suspects.
    As to the second part of the question, without going into the 
substance of our diplomatic exchanges, I would note that we and Egypt 
occasionally and naturally have our different perspectives and 
emphases; however, when disagreements arise, we work them out. Both 
countries are firmly committed in the peace process and the 
irreplaceability of each other as allies. When the U.S. is facing 
challenges in restraining the parties who reject the peace process, 
combating international terrorism, rallying African and Arab support in 
international fora, or allowing unhindered passage for our naval and 
air forces, Egypt continues to be a solid partner for the U.S.
Question:
          Why is it that the United States supports Greek Cypriot 
        inclusion into the European Union, even though the status of 
        the Island remains unresolved, but yet we do not support and 
        actively pursue European Union Membership for our strong 
        reliable NATO ally, Turkey? Is that not a violation of 
        international law?
Answer:
<bullet> LThe United States' policies with respect to the EU accession 
bids of Cyprus and Turkey are fully consistent with international law.

<bullet> LThe United States has supported the start of EU accession 
talks with the Republic of Cyprus, the State entity recognized under 
international law to comprise the entire island.

<bullet> LAt the same time, the United States continues to try to 
facilitate a comprehensive settlement on the island.

<bullet> LWe are pleased the parties will resume UN-led talks in New 
York on May 23.

<bullet> LWith respect to Turkey, the United States strongly supported 
its European Union candidacy bid and welcomed the EU decision at the 
December 1999 Helsinki Summit to make Turkey an EU candidate.

<bullet> LWe continue to support closer relations between Turkey and 
the European Union.

                                Chechnya
Question:
          In the mid-1990's, President Clinton equated the war in 
        Chechnya to the American Civil War. In December 1999, NATO 
        commander General Wesley Clark compared Moscow's brutal war in 
        Chechnya to Belgrade's war in Kosovo. Which comparison is more 
        apt and why?
Answer:
    During Serb military operations in Kosovo, it was clear that a 
political decision was taken by senior Serb leader to target civilians 
on the basis of their ethnicity.
    Russia's military operation in Chechnya, however brutal, is not 
analogous. Last August, Chechen field commanders launched an armed 
incursion into the neighboring Russian Republic of Dagestan in August. 
Their stated aim was to establish an independent Islamic state.
    In September, the Russian Government initiated air strikes on 
Chechnya followed by a ground operation in October. The Russian 
Government?claimed that it acted because of the threat from radical 
Chechen elements. It also linked the action to apartment bombings in 
Moscow and other Russian cities (although Chechen involvement in those 
bombings has never been proven). While the U.S. supports Russia's 
territorial integrity and right to protect its citizens from terrorism, 
we have strongly criticized the conduct of its military campaign in 
Chechnya.
    Innocent civilians, both ethnic Russians and ethnic Chechens, have 
suffered greatly during the conflict in Chechnya. Russia's use of force 
has caused many civilian deaths and more than 200,000 have fled the 
fighting.
    Russia, like the United States, must live up to its commitment to 
distinguish between civilian and military targets during conflicts.

                        China-Libya Cooperation
Question:
          The Pentagon last month discovered a new customer for Chinese 
        military technology. Sensitive intelligence revealed China 
        plans to build a hypersonic wind tunnel in Libya as part of 
        Tripoli's program to build missiles. The wind tunnel would be 
        used to design rockets and simulate missile flight. In 
        addition, Chinese officials also arranged for Libyan 
        technicians to travel to China for missile-related training and 
        education. (INSIDE THE RING, he Washington Times, Bill Gertz 
        and Rowan Scarborough, 1/27/00.) China continues to proliferate 
        sensitive technology to help the missile programs of rogue 
        nations. In 1993 the administration raised sanctions against 
        China after they promised to stop proliferating missile 
        technology. This is just the latest example of China's 
        disregard of their promise. This technology would tremendously 
        boost the Libyan missile program and endanger North African and 
        European security. If the Chinese do go through with the sale 
        of wind tunnel will the administration pose sanctions on China 
        for violating U.S. missile sanctions law?
Answer:
<bullet> LIt would be inappropriate to comment publicly on alleged 
intelligence matters.

<bullet> LChina committed in 1994 to ban sales of ground-to-ground MTCR 
(Missile Technology Control Regime)-class missiles. We have no evidence 
to indicate that it has violated this pledge. We are, however, 
concerned about Chinese entities' sales of missile related equipment 
and technology.

<bullet> LWhether any particular transfer was sanctionable under U.S. 
law would depend entirely on the information available to us about that 
transfer. Should we acquire information that sanctionable activity had 
occurred, we would fully implement U.S. law.
                               __________
Responses by the Department of State to additional questions submitted 
by the Honorable Joseph Crowley, a Representative in Congress from the 
                           State of New York

                   Aid Package for Syria and Lebanon
Question:
          As you know, I have been a strong proponent for a negotiated 
        peace in the Middle East and a long-time friend of Israel. I 
        have been watching the developments in the Middle East very 
        closely, and although I am concerned, I am still hopeful that 
        an agreement can be reached between Syria and Israel. That 
        being said, my constituents have raised many issues with me 
        regarding such an agreement. In particular, they have concerns 
        with what such an agreement would entail in terms of U.S. 
        assistance to Syria and Lebanon. At this time, what sort of aid 
        package might the Congress need to consider for Syria and 
        Lebanon? And, would any military assistance be put forward in 
        such a package?
Answer:
<bullet> LThe U.S. strongly supports a negotiated peace between Israel 
and Syria and Israel and Lebanon. Although negotiations are currently 
at a pause, we are doing everything we can to encourage the parties to 
advance the process.

<bullet> LUnder the present circumstances, it is premature to discuss 
possible assistance to Syria or Lebanon in the context of a negotiated 
peace agreement. It is simply too early to enter into a speculative 
discussion on this issue.
Question:
          Last year, I traveled to Colombia to examine the damage 
        caused by the earthquake that caused so much destruction and 
        ripped apart so many lives. While in Colombia, I had the 
        opportunity to meet with many Colombian officials and discuss 
        current and pressing issues, such as counter narcotics 
        assistance and judicial reform.
          In looking at the President's proposal for assistance to 
        Colombia, I see that a great emphasis has been placed on 
        counter narcotics assistance, and some emphasis has been placed 
        on social and economic reforms. While I support this aid 
        package, in principle, I do have some concerns.
          Why has such an emphasis been placed on counter narcotics? 
        While a key issue, social and economic reforms should play an 
        equally important role. Does the Administration really consider 
        its requested funds sufficient to help resolve some of the 
        pressing social and economic issues in Colombia?
Answer:
    The Administration concurs wholeheartedly that the narcotics 
industry is one of a handful of issues plaguing Colombia. In fact, Plan 
Colombia is predicated on the linked nature of that nation's key 
problems. The needs for social reform, economic reform, effective 
counternarcotics efforts and an end to the decades-long insurgency all 
affect each other and must be addressed together. That is why Plan 
Colombia cannot be understood simply in terms of the U.S. contribution 
alone. Public discussions on Plan Colombia, unfortunately, have focused 
on the content of the USG's proposed assistance and have equated the 
two. We need to recognize, however, that the proposed USG package 
represents only 21 percent of Plan Colombia's estimated price tag of 
$7.5 billion. While a significant share of our package will go towards 
counternarcotics efforts, these United States funded programs are meant 
to complement the remaining $6 billion of Plan Colombia programs funded 
by the Government of Colombia and other donors. Those programs are 
overwhelmingly directed at social and economic reform.
    Our assistance for Plan Colombia is intended to meet the needs that 
these other sources can not. It is based on the shared hope of 
achieving peace and prosperity in Colombia through the overall 
reduction of illicit drug production and trafficking, thereby allowing 
the Colombian government to establish democratic control and provide 
services and infrastructure throughout its national territory. Clearly, 
it is also intended to reduce the supply of drugs coming into the 
United States by assisting the Government of Colombia in its efforts to 
confront the cocaine and heroin industries. This focus on the so-called 
``stick'' of enforcement will allow other sponsors to provide support 
for the ``carrot,'' economic and social projects.
Question:
          Additionally, I could find no reference in the President's 
        package to the safety of Colombian citizens. I am greatly 
        concerned that as the Colombia government strengthens its 
        efforts in counter-narcotics, the FARC, fearing revenue losses, 
        will increase kidnapping and terror activities against 
        Colombian civilians. Has the Administration given any 
        consideration to this possibility? If so, does it have any 
        plans for dealing with it?
Answer:
    The internal armed conflict and the social disruption caused by 
drug trafficking remain the greatest obstacles to democracy, human 
rights and the rule of law in Colombia. Therefore, our policy in 
Colombia is to support President Pastrana's efforts to find a peaceful 
resolution to the country's longstanding civil conflict and to work 
with the Colombians--along with our regional partners--on fighting 
illicit drugs.
    The United States Government strongly supports President Pastrana's 
efforts to broker a negotiated settlement to end Colombia's internal 
conflict. We remain convinced that the peace process is integral to 
long-run prospects for fighting drug trafficking, reducing kidnappings, 
and restoring respect for human rights.
    In order to address this, our assistance package will provide 
support to help train Government of Colombia negotiators and advisors 
on managing conflict negotiations. The training will also examine the 
techniques for reintegrating ex-combatants into civil society and seek 
their support for all aspects of Plan Colombia.
    Our assistance package will also send a strong message to 
Colombia's guerrillas that meaningful negotiations offer the best hope 
for peace and social justice. They can hope to win neither military 
victory nor political advantage through violence.
    Finally, we believe that to the extent that Plan Colombia 
reinvigorates the Colombian economy, enhances GOC governing capability, 
encourages respect for and protection of human rights, strengthens 
democratic institutions, and reduces the money available to guerrillas 
and paramilitaries from involvement in the drug trafficking, it will 
encourage the peace process.
    We have and will continue to call on all combatants to move 
immediately to humanize the conflict by stopping all kidnapping and 
murders of civilians, ending the practice of recruiting child soldiers, 
and by abandoning attacks in situations where the lives of innocent 
civilians are put at risk.
Question:
          I am pleased to see that the Administration requested a 
        significant increase for bilateral international family 
        planning programs. How will this increase be accommodated 
        without affecting funding for other equally important 
        sustainable development programs?
Answer:
    The request for a $169 million increase over current funding levels 
for our international population assistance is simply a restoration of 
funding to FY 1995 levels $541.6 million. No cuts in other sustainable 
development programs have been made to accommodate this increase for 
FY2001.
    Our international population assistance program and other important 
sustainable development programs have suffered in recent years by 
overall limits on development assistance, as well as restrictions on 
international family planning. The U.S. is the most prosperous nation 
on earth, yet ranks eighth in population assistance taken as a ratio of 
GNP. Restoration of the funding we are currently seeking for 
international population assistance brings us closer toward meeting the 
commitments that we and the international community have made to 
ensuring adequate levels of health and development for the world's 
population.
                               __________
Responses by the Department of State to additional questions submitted 
 by the Honorable George Radanovich, a Representative in Congress from 
                        the State of California

                                Croatia
Question:
          Madame Secretary, on your recent visit to Croatia you 
        expressed U.S. support to the new government of Croatia and 
        pledged to cooperate in advancing Croatia's inclusion into 
        Euro-Atlantic integration processes, including the Partnership 
        for Peace program. Could you please specify what this U.S. 
        support would consist of? Do you believe that this is the right 
        moment to evaluate and adequately reward Croatia's 
        contributions to USNATO operations in Southeastern Europe?
Answer:
    We have been very proactive in our support for the new Government 
of Croatia. We have increased FY 00 SEED funding from $12 to $20 
million and have asked for an additional $35.7 million in the 
supplemental. Several teams of Treasury and AID advisors have already 
been to Zagreb to assess the fiscal and economic situation and we 
expect to have 4-7 short and long-term advisors in place in the next 
weeks and months. Supplemental funds will be used to bolster the long 
overdue reforms. Almost half of the amount will be used to support 
refugee returns, an essential component of the Dayton agreement that 
had been stalled by the HDZ regime. The economic problems in Croatia 
are serious but not insurmountable and we are confident that if the new 
government can stay the course, with our help, it will become an 
important force for stability and prosperity in the region.
    Membership in PfP is a consensus decision made by all 19 members of 
NATO. We, the United States, are optimistic that Croatia will be able 
to make significant progress on Dayton related issues. This will signal 
a real change of political direction and thus facilitate the membership 
process for PfP.

                                Armenia
Question:
          Last February 25th, during your appearance before this panel, 
        I asked you a very specific question regarding the State 
        Department's position on U.S. recognition and Turkish 
        acknowledgment of the Armenian genocide. Unfortunately, I did 
        not receive a response from you on this very important point.
          Now that you have had a year to consider my question, I will 
        ask you again to please explain what steps you have taken 1) to 
        ensure that the U.S. Government appropriately commemorates the 
        Armenian genocide, and 2) to urge the Turkish government to 
        come to terms with this tragic chapter in its history?
          In asking this question a second time in as many years I 
        would like to note that continued silence on the part of the 
        Department of State will only reinforce the mistaken and highly 
        troubling impression that you seem to be fostering that the 
        American people support a policy of official U.S. complicity in 
        Turkey's shameful campaign to deny the genocide committed 
        against the Armenian nation.
Answer:
    As I noted to you in my written reply last April, President Clinton 
traditionally has commemorated Armenian Remembrance Day, April 24, by 
issuing a solemn statement that both mourns the loss of innocent 
Armenian lives and challenges all Americans to recommit themselves to 
ensuring that such events never occur again.
    He will do so again this year.
    We have emphasized to both Turkey and Armenia, as well as to all 
other countries in the Caucasus region, that we can neither deny 
history nor forget it.
    However, we believe that focusing at this time on the tragic events 
that transpired during the final years of the Ottoman Empire could 
undercut our efforts to promote peace and stability today in the 
Caucasus.
    This administration gives priority to assisting the states and 
peoples of the Caucasus to achieve just and peaceful resolutions to 
their disputes. We are particularly engaged with Armenia and Azerbaijan 
to attain a mutually acceptable and durable settlement to their 
conflict over Nagorno-Karabakh.
    We are confident that both Armenia and Turkey seek normal 
relations, and this administration is committed to helping them make 
real progress toward that goal.
    In this regard, the President and I met with Turkish and Armenian 
leaders in Istanbul last November and in Davos in January, and promoted 
the process of building peace and stability in the Caucasus that in 
fact will secure improved relations.
                               __________
Responses by the Department of State to additional questions submitted 
 by the Honorable Steven R. Rothman, a Representative in Congress from 
                        the State of New Jersey
Question:
          Madame Secretary, what is the status of the State 
        Department's efforts to gain Israel's admittance to the Western 
        European and Others Group at the UN?
Answer:
    Israel's exclusion from the UN's regional group structure is unfair 
and inconsistent with the principle of sovereign equality of member 
states enshrined in the UN Charter. Correcting this injustice remains a 
priority for the Administration. Participation in the regional group 
structure is a critical element in any member's effective participation 
in United Nations activities. Administration officials, including the 
President and Vice President, have repeatedly engaged the other members 
of WEOG to bring this issue to closure, as have I.
    Enormous progress has been made and was reported in detail to the 
Congress earlier this year in the annual report on this issue. We have 
secured EU agreement on Israeli participation in the WEOG at the expert 
and political director levels. Dick Holbrooke is now engaged in 
discussions in New York with the other WEOG members to finalize the 
implementing details that will allow Israel to assume its rightful 
place as a participant in the regional group structure. Throughout 
these efforts, we have coordinated closely with appropriate Israeli 
authorities and will continue to do so.
    We hope to bring this matter to a successful conclusion within the 
next several months and will keep the Congress informed of our 
progress.
Question:
          Madame Secretary, like many Americans and members of 
        Congress, I am deeply concerned about the situation in 
        Colombia. Do you believe the supplemental funding sought by the 
        Administration for Colombia is going to help advance the 
        economic and social reforms that President Pastrana is 
        attempting to institute through Plan Colombia?
Answer:
    Yes. Our assistance package for Plan Colombia includes $240 million 
over two years for alternative development, enhancing good governance, 
anti-corruption, human rights and humanitarian assistance. Specific 
initiatives include increasing protection of human rights NGOs, 
supporting human rights information and education programs, creating 
and training special units of prosecutors and judicial police to 
investigate human rights cases involving Government of Colombia 
officials, and training public defenders and judges.
    This is in addition to the some $4 billion that the Government of 
Colombia is committing to Plan Colombia from its own resources and from 
loans?. This will be used for the implementation of Plan Colombia, 
which includes programs such as economic development and humanitarian 
assistance.
    Other donors, including the International Financial Institutions, 
are providing additional hundreds of millions of dollars aimed 
primarily at social, humanitarian and infrastructure development as 
well as economic revitalization.
Question:
          The status of our negotiations with North Korea appears 
        uncertain. What is your assessment of relations between North 
        and South Korea?
Answer:
    Our discussions with North Korea are ongoing. After a round of 
talks in New York in March, the DPRK agreed to further talks on Agreed 
Framework implementation and on missile matters. It also agreed to 
further discussions on a high-level visit. We are currently working 
through the New York channel to arrange those talks.
    After constantly pressing the DPRK to engage in North-South 
dialogue, we were pleased with the announcement of a June summit in 
Pyongyang between the leaders of the two Koreas. We have also been 
pleased that the preliminary talks between the ROK and DPRK appear to 
be taking place in a businesslike manner.
    It appears that the DPRK is responding positively to ROK President 
Kim Daejung's policy of engagement with the North. We are hopeful that 
continued dialogue between the two Koreas will enhance stability and 
reduce tension on the Peninsula.
Question:
          Madame Secretary, the negotiations to reunite Cyprus seem to 
        be stuck on the insistence of Mr. Denktash that the 
        international community recognize the sovereignty of his self-
        declared ``state.'' How can we move beyond Mr. Denktash and 
        deal with more pragmatic leaders in northern Cyprus who share 
        your goal of reuniting the island of Cyprus?
Answer:
    The United States continues to try to facilitate a comprehensive 
settlement of the Cyprus problem, and we do not believe Mr. Denktash's 
insistence on recognition should be a precondition to making progress 
in the talks. We are working hard to intensify the talks when they 
recommence May 23 in New York.
    Mr. Rauf Denktash recently won re-election as the leader of the 
Turkish Cypriot community, and he will continue to head the Turkish 
Cypriot delegation at the UN-led Cyprus talks. In addition to working 
with Mr. Denktash, we also meet with a wide range of Turkish Cypriot 
leaders to encourage progress on the Cyprus issue.
Question:
          Madame Secretary, given the mountain of evidence, including 
        that in our own archives, which points to a determined effort 
        by Turkish Ottoman authorities to decimate the Armenian 
        population from their historic homeland in 1915, why haven't 
        you properly characterized this crime against humanity as a 
        genocide? Has your refusal to do so been based on a historical 
        determination or have other calculations influenced your 
        decision?
Answer:
<bullet> LPresident Clinton traditionally has commemorated Armenian 
Remembrance Day, April 24, by issuing a solemn statement that both 
mourns the loss of innocent Armenian lives and challenges all Americans 
to recommit themselves to ensuring that such events never occur again.

<bullet> LHe did so again this year.

<bullet> LWe also believe that it is important to focus our efforts on 
promoting peace and stability in the region today.

<bullet> LWe are confident that both Armenia and Turkey seek normal 
relations, and this Administration is committed to helping them make 
real progress toward that goal.

<bullet> LIn this regard, the President and I met with Turkish and 
Armenian leaders in Istanbul last November, and in Davos in January, to 
promote the process of building peace and stability in the Caucasus 
that will secure improved relations between Turkey and Armenia. That 
delicate process continues.

                                Pakistan
Question:
          Madame Secretary, like you, I have witnessed the decline in 
        our relations with Pakistan. In your opinion, what steps does 
        Pakistan need to take to reestablish our confidence that 
        democracy will be restored in Pakistan--in what is now an 
        undemocratic nuclear state?
Answer:
    The President and I went to Pakistan in March of this year in order 
to keep open our lines of communication with the Pakistani leadership. 
The visit allowed us to present our views on key issues like democracy, 
non-proliferation, terrorism, and regional peace and security. During 
our visit, the President urged General Musharraf to lay out a 
comprehensive road map for the return of an elected national 
government.
    We will continue to support democracy in Pakistan by working with 
Pakistani NGOs. Current U.S. law prohibits direct assistance to the 
Pakistani Government to carry out democratization efforts.
Question:
          Madam Secretary, Iran continues to lend support to Hezbollah 
        and other forces committed to the destruction of the State of 
        Israel. What agenda items are you pursuing to tell Iran to stop 
        encouraging attacks against Israel, America's number one ally 
        in the Middle East and the only democracy in the region?
Answer:
    Iranian support for terrorism, particularly terrorism directed 
against the peace process, remains a major concern. We continue to work 
closely with allies to press Iran to cease this support. Further, we 
have sought a direct dialogue with Iran to address this and other 
issues. Until Iran is able to constructively address this problem, our 
principal sanctions will remain in place.
Question:
          Madame Secretary, I want to praise your role in assisting 
        Poland to host the ``Communities of Democracies'' meeting that 
        will be held in June of this year in Warsaw. What do you see 
        this summit of democracies accomplishing?
Answer:
    The goal of the communities of democracies ministerial is to 
strengthen the capacity and effectiveness of existing international 
organizations in their support for democracy. Governments attending the 
meeting will affirm their commitment to a core set of universal 
democratic principles. The meeting will provide an opportunity for 
exchanging experiences, identifying best practices, and formulating an 
agenda for international cooperation in order to realize democracy's 
full potential.

                             China: Tibet
Question:
          Madame Secretary, like many Americans who believe that human 
        rights should be at the top of our nation's foreign policy 
        agenda, I continue to be troubled by China's repression of the 
        Tibetan people. Please share with me the options the Department 
        of State has taken to stop the Chinese government's unrelenting 
        campaign to imprison freethinking Tibetans?
Answer:
    The Department is deeply concerned about China's failure to bring 
its human rights practices into compliance with international norms and 
standards. This is true in Tibet no less than elsewhere in China.
    Because of our concerns about Tibet, in October 1997 I designated a 
Special Coordinator for Tibetan Issues, in close consultation with 
Congress.
    We have made clear to the Chinese that no individual should be 
detained solely for expressing personal views, practicing his or her 
religion, or engaging in other peaceful, legitimate activities. The 
Tibetan people--as do all the people of China--deserve respect and 
guarantees for their fundamental human freedoms. We stress repeatedly 
to China's leaders the tremendous importance of respecting and 
preserving the unique cultural, religious, and linguistic heritage of 
the people of Tibet.
    Key to that goal is direct contact between the Dalai Lama and the 
Chinese leadership. We have repeatedly urged Chinese authorities, 
publicly and privately, to enter into dialogue with the Dalai Lama or 
his representatives. Unfortunately, although the Dalai Lama has 
expressed willingness to meet Chinese conditions for such a dialogue, 
Beijing has not responded positively. We will continue to raise this 
matter with Chinese authorities.
    We also regularly and vigorously press Chinese authorities to end 
human rights violations in Tibet, including: the ``patriotic education 
campaign'' targeting supporters of the Dalai Lama; the refusal to let 
internationally credible observers ascertain first-hand the welfare and 
whereabouts of Gendhun Choekyi Nyima, the boy recognized by the Dalai 
Lama as the Panchen Lama; lengthy detentions of Tibetans for practicing 
their internationally recognized right to freedom of religion; failure 
to follow China's own legal code in the treatment of prisoners, seen in 
the degradation and torture of Tibetan prisoners; and the concerted 
effort of the Chinese to resettle ethnic Han in the Tibetan Autonomous 
Region.
    Such abuses were part of the basis for our sponsorship of a 
resolution on China at the United Nations Human Rights Commission in 
Geneva, and why I went to Geneva to make our case in person.
    The Department has drawn international attention to China's record 
by documenting the poor state of human rights in Tibet in our annual 
Human Rights Report chapter on China. We have also detailed the Chinese 
government's religious repression in our 1999 report on religious 
freedom worldwide. Conditions in Tibet were a part of the basis for my 
decision last fall to designate China last fall as a ``country of 
particular concern'' for religious rights violations.
    The U.S. government will continue to follow human rights in Tibet 
closely and will continue vigorous efforts to encourage China to uphold 
its international obligations.
Question:
          Madame Secretary, Latin America is increasingly becoming a 
        force for democratic and economic reforms, a region where the 
        innovation of indigenous people is being let loose, creating a 
        region with economic prospects that may, one day, rival the 
        European Union's. In your opinion what is the status of 
        democratic reforms occurring in Latin America and do you see 
        areas where America should be playing a stronger role in 
        supporting democratic institutions across Latin America?
Answer:
    The climate for democracy in Latin America is better today than 
ever before. Every nation in the Hemisphere--save one--has a 
democratically elected government. Yet recent events in places such as 
Ecuador, Colombia, Peru and Haiti remind us that democratic progress is 
neither immutable nor uniform. Supported by the necessary resources to 
carry out our commitments, the USG, working with our hemispheric 
neighbors and other international partners, can help to preserve 
freedom and democracy in Latin America. We can help countries as they 
seek to consolidate democracy by:

        <bullet> LEnsuring that civil political discourse remains the 
        norm. We must assist regional leaders and civil society in 
        their efforts to engage in mature discussions, to examine 
        problems and to seek solutions. We must support the 
        strengthening of political parties as a vital mechanism to 
        promote dialogue and channel public participation.

        <bullet> LHelping to strengthen regional mechanisms like the 
        OAS and the Summit of Americas process to foster democracy.

        <bullet> LExploring new ways to assist governments to 
        ameliorate poverty and overcome huge income disparities by 
        improving the delivery of basic social services, health care, 
        and education to broaden economic opportunities and thus 
        strengthen democracy.

        <bullet> LSupporting judicial reforms to modernize legal codes 
        and to make judicial systems more responsive.

        <bullet> LSupporting the professionalization of law enforcement 
        to foster the ability to respond to ``modern'' crimes related 
        to narcotics, cyber crime, and money laundering.

        <bullet> LContinuing to assist electoral bodies and supporting 
        election observation missions to ensure elections that are 
        fair, transparent, and credible.

        <bullet> LEncouraging ``people to people'' contacts to promote 
        mutual understanding and further integration.

                            Northern Ireland
Question:
          Madame Secretary, I am deeply concerned about the British 
        Government's recent decision to suspend Northern Ireland's new 
        power-sharing government. The Good Friday Peace Agreement, 
        which was negotiated with the aid of U.S. officials, 
        particularly former Senator George Mitchell and President Bill 
        Clinton, was a remarkable step forward toward a new era of 
        peace in Northern Ireland. I urge you to call on the British 
        Government's Northern Ireland Secretary, Peter Mandelson, to 
        reverse his decision of last week to suspend one of the most 
        progressive achievements of the Good Friday Agreement, the 
        establishment of an all-party government in Northern Ireland.
Answer:
<bullet> LThe Good Friday Agreement was a remarkable step forward 
toward a new era of peace in Northern Ireland.

<bullet> LWe hope local institutions will be restored as quickly as 
possible with the involvement of all parties.

<bullet> LThe British and Irish governments have continued to work 
closely together and with the parties to develop proposals for a way 
forward. Talks are expected to resume again May 2.

<bullet> LThe President has said he is prepared to help advance the 
peace process in any way he can.

                                   - 
</pre></body></html>
